<html>
<title> - BACK TO THE DRAWING BOARD: A FIRST LOOK AT LESSONS LEARNED FROM KATRINA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
BACK TO THE DRAWING BOARD: A FIRST LOOK AT LESSONS LEARNED FROM KATRINA

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 15, 2005

                               __________

                           Serial No. 109-85

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-205                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
JEAN SCHMIDT, Ohio

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 15, 2005...............................     1
Statement of:
    Harrald, John R., professor of engineering management, George 
      Washington University and director, Institute for Crisis, 
      Disaster, and Risk Management; and James J. Carafano, 
      senior fellow for national security and homeland security, 
      Heritage Foundation........................................   210
        Carafano, James J........................................   216
        Harrald, John R..........................................   210
    Perett, Constance, administrator, Office of Emergency 
      Management, County of Los Angeles, CA; Ellis Stanley, 
      general manager, Emergency Preparedness Department, city of 
      Los Angeles, CA; Robert C. Bobb, city administrator, 
      District of Columbia; David J. Robertson, executive 
      director, Metropolitan Washington Council of Governments; 
      Tony Carper, Jr., director, Broward Emergency Management 
      Agency, Broward County, FL; Chief Carlos Castillo, 
      director, Miami-Dade County Office of Emergency Management, 
      Miami-Dade County, FL; and Marc Morial, president and chief 
      executive officer, National Urban League, Inc., former 
      mayor of New Orleans, LA...................................   105
        Bobb, Robert C...........................................   125
        Carper, Tony, Jr.........................................   156
        Castillo, Chief Carlos...................................   169
        Morial, Marc.............................................   180
        Perett, Constance........................................   105
        Robertson, David J.......................................   145
        Stanley, Ellis...........................................   116
Letters, statements, etc., submitted for the record by:
    Bobb, Robert C., city administrator, District of Columbia, 
      prepared statement of......................................   127
    Carafano, James J., senior fellow for national security and 
      homeland security, Heritage Foundation, prepared statement 
      of.........................................................   219
    Carper, Tony, Jr., director, Broward Emergency Management 
      Agency, Broward County, FL, prepared statement of..........   158
    Castillo, Chief Carlos, director, Miami-Dade County Office of 
      Emergency Management, Miami-Dade County, FL, prepared 
      statement of...............................................   172
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    87
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   103
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     5
    Harrald, John R., professor of engineering management, George 
      Washington University and director, Institute for Crisis, 
      Disaster, and Risk Management, prepared statement of.......   213
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, prepared statement of.................    45
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Article dated September 15, 2005.........................   248
        Information concerning lessons learned...................    48
        Memo dated August 30, 2005...............................   245
        Prepared statement of....................................    64
    Miller, Hon. Candice S., a Representative in Congress from 
      the State of Michigan, prepared statement of...............   253
    Morial, Marc, president and chief executive officer, National 
      Urban League, Inc., former mayor of New Orleans, LA , 
      prepared statement of......................................   182
    Perett, Constance, administrator, Office of Emergency 
      Management, County of Los Angeles, CA, prepared statement 
      of.........................................................   108
    Robertson, David J., executive director, Metropolitan 
      Washington Council of Governments, prepared statement of...   147
    Ros-Lehtinen, Hon. Ileana, a Representative in Congress from 
      the State of Florida, prepared statement of................    76
    Sanders, Hon. Bernard, a Representative in Congress from the 
      State of Vermont, prepared statement of....................    36
    Shaw, Hon. E. Clay, a Representative in Congress from the 
      State of Florida, prepared statement of....................    96
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Prepared statement of....................................    32
        Prepared statement of the People for the Ethical 
          Treatment of Animals...................................   198
    Stanley, Ellis, general manager, Emergency Preparedness 
      Department, city of Los Angeles, CA, prepared statement of.   118
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    79
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:
        Catastrophic plan........................................    10
        Prepared statement of....................................    25


BACK TO THE DRAWING BOARD: A FIRST LOOK AT LESSONS LEARNED FROM KATRINA

                              ----------                              


                     THURSDAY, SEPTEMBER 15, 2005,

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Davis of Virginia, Shays, Ros-
Lehtinen, Gutknecht, Souder, Platts, Duncan, Turner, Issa, 
Brown-Waite, Porter, Marchant, Westmoreland, Dent, Foxx, 
Waxman, Owens, Sanders, Maloney, Cummings, Kucinich, Davis of 
Illinois, Clay, Watson, Lynch, Van Hollen, Ruppersberger, 
Higgins, and Norton.
    Also present: Representative Shaw.
    Staff present: Melissa Wojciak, staff director; David 
Marin, deputy staff director/communications director; Jennifer 
Safavian, chief counsel for oversight and investigations; John 
Hunter, counsel; Rob White, press secretary; Drew Crockett, 
deputy director of communications; Grace Washbourne, Shalley 
Kim, and Mindy Walker, professional staff members; Teresa 
Austin, chief clerk; Sarah D'Orsie, deputy clerk; Jay 
O'Callahan, research specialist; Phil Schiliro, minority chief 
of staff; Phil Barnett, minority staff director/chief counsel; 
Kristin Amerling, minority general counsel; Karen Lightfoot, 
minority communications director/senior policy advisor; Robin 
Appleberry, Jeff Baran, and Michael McCarthy, minority 
counsels; David Rapallo, minority chief investigative counsel; 
Earley Green, minority chief clerk; and Jean Gosa, minority 
assistant clerk.
    Chairman Tom Davis. The committee will come to order.
    Welcome to today's hearing, which marks this committee's 
first look at lessons learned from Hurricane Katrina.
    Two months ago former Speaker of the House Newt Gingrich 
testified before our Federal Workforce Subcommittee about the 
need to move the Government to an ``entrepreneurial'' model and 
away from its current ``bureaucratic'' model so that we can get 
Government to move at the speed and effectiveness of the 
Information Age. ``Implementing policy effectively,'' he said, 
``is ultimately as important as making the right policy.'' 
Indeed, a policy that can't be implemented effectively is no 
policy at all.
    We are here today because, in the tragic aftermath of 
Katrina, we are again confronted with the vast divide between 
policy creation and policy implementation. Confronted with the 
life-and-death difference between theory and practice. 
Confronted with the daunting challenge, as some of our 
witnesses will discuss this morning, of understanding that we 
both did things wrong and did wrong things.
    We have all spent much of the past 2 weeks examining the 
aftermath of the catastrophic disaster. It has become 
increasingly clear that local, State, and Federal Government 
agencies failed to meet the needs of the residents of 
Louisiana, Mississippi, and Alabama. Now it is our job to 
figure out why, and to make sure we are better prepared for the 
future.
    First and foremost, our thoughts and prayers go out to the 
hurricane's victims, their families, their friends. The loss of 
life, property, livelihoods, pets, and dreams have been 
enormous. And we salute all Americans who have stepped up to 
the plate in any way that they can.
    At this stage, we agree we need to conduct our oversight in 
a manner that does not interfere with the rescue and relief 
efforts. We agree that many questions need to wait. No one 
wants to take people away from the massive job at hand.
    But I also think some issues can and should be looked at 
right now. Our Members want to begin doing oversight, and the 
American people are demanding it as well.
    We can begin contributing to the dialog this morning by 
looking at the emergency plans in other major metropolitan 
areas--places that potentially face, and in fact have faced, 
similar catastrophic events, natural or manmade. This review 
serves two purposes: it can help make sure others are better 
prepared, and it can guide and inform the subsequent work we 
will be doing specific to Katrina.
    Whatever the threat, Katrina has forced officials across 
America to take another look at disaster plans that may not be 
as solid as they previously thought. This process of 
reevaluation will be the focus of the committee's first post-
Katrina hearing. Later, when it is appropriate, we can turn to 
the myriad of other questions that are literally begging for 
answers.
    This is not the time to attack or defend government 
entities for political purposes. This is the time to do the 
oversight we are charged with doing. Our goal should be to 
investigate aggressively what went wrong and what went right. 
We will do it by the book and let the chips fall where they 
may.
    It is hard not to point fingers and assign blame in the 
aftermath of this tragedy. I understand human nature, and I 
understand politics. But I think most Americans want less 
carping and more compassion. And I think most Americans want a 
rational, thoughtful, bipartisan review of what went wrong and 
what went right. I think most Americans want to know that we 
will be better prepared the next time. They need that 
assurance.
    In his letter to me last week requesting hearings, the 
committee's ranking member, Mr. Waxman, raised many important 
questions that need to be addressed: whether FEMA has been 
organizationally undermined and underfunded; whether evaluation 
plans were adequate; whether opportunities to better safeguard 
the New Orleans levee system were missed; why relief and 
medical supplies and support were seemingly slow in arriving; 
and several others.
    I think the letter also overlooked many other questions 
that also need to be asked, and prematurely faulted the Federal 
Government for all the shortcomings. In fact, local and State 
government failures weren't mentioned.
    That is also a part of our oversight review, because we are 
the committee on federalism here, and the coordination between 
Federal, State, and local is a very critical component in 
implementing any policy. We undoubtedly need to figure out why 
the evacuation plans and emergency communication systems were 
woefully deficient. We don't need to prematurely paint the 
picture that these are solely or primarily the responsibility 
of one entity or the other.
    And the worst lesson to be gleaned from this disaster is 
that all answers to shortcomings in emergency preparedness can 
somehow be found in Washington. But we can and should lead the 
way when it comes to questions.
    It remains difficult to understand how government could 
respond ineffectively to a disaster that was predicted for 
years, and for which specific dire warnings had been issued for 
days. If this is what happens when we have advanced warning, I 
shudder to imagine the consequences when we do not. If ever 
there were a time for leaders at all levels of government to 
come together and review and coordinate their emergency plans, 
it is now.
    So let us focus on the task at hand. Let us focus on how 
policy implementation became so wildly divorced from policy 
creation.
    On why there was such a depth of government hesitancy at 
all levels.
    On why we confuse getting the government ready with getting 
people ready.
    It is true and important to emphasize that Katrina's scale 
and scope were unprecedented.
    But the cities and counties represented here today face the 
possibility of similar catastrophic events. In fact, they 
previously adjusted their plans in response to past hurricanes, 
earthquakes, terrorist attacks, and angry men on tractors. I am 
sure they have begun adjusting again.
    They are here today to discuss whether they are better 
prepared than New Orleans, and why.
    What triggers full-blown action and who do they talk to 
first?
    Are they further along in developing clear and realistic 
evacuation plans that meet the needs of all residents? Will 
they hesitate to issue mandatory evacuation orders? Is there an 
agreement on what mandatory means?
    Would they better be able to inform the public about what 
to do and where to go?
    Do they know who will communicate with whom, and are they 
sure everyone will be speaking the same language?
    Do they understand the weather advisories they get from 
forecasters?
    Do they expect Federal officials to wait for specific 
requests, or will they be able to gather the information needed 
to make them?
    The questions are many and the answers are few. Today we 
begin the process of clarifying failure and searching for 
improvement.
    Perhaps the biggest problem with Katrina is that many 
people didn't listen before the hurricane arrived, and 
communication was impossible after. I hope we can start 
communicating more clearly this morning.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.001
    
    [GRAPHIC] [TIFF OMITTED] T4205.002
    
    [GRAPHIC] [TIFF OMITTED] T4205.003
    
    [GRAPHIC] [TIFF OMITTED] T4205.004
    
    Chairman Tom Davis. I would now recognize our distinguished 
ranking member, who has also taken a lead in this and who I am 
proud to work with on this, Mr. Waxman, for his opening 
statements.
    Mr. Waxman. Thank you, Mr. Chairman.
    Hurricane Katrina was a disaster of monumental scope. It 
destroyed an American city and forced a million Americans from 
their homes. The financial costs will be immense and the human 
costs incalculable.
    As the Nation confronts this disaster, we in the Congress 
have two major challenges. First, and most important, we must 
care for those who have been harmed and uprooted. They have 
been through a horrible ordeal, and we need to provide 
assistance with housing, medical care, and schooling, and we 
need to begin the process of rebuilding.
    Our second challenge is to find out how this could have 
happened. The committee recently received an extraordinary 
document. It is a FEMA document from May 2004, and it predicts 
that a hurricane striking New Orleans could cause ``a mega-
disaster.'' Over a year before Katrina, FEMA was predicting 
that a Category 4 hurricane could hit New Orleans, flood the 
city, and force a million people to evacuate.
    FEMA recognized that such a hurricane would ``create a 
catastrophe with which the State would not be able to cope 
without massive help.'' The document then states: ``The gravity 
of the situation calls for an extraordinary level of advanced 
planning.''
    And I want to ask, Mr. Chairman, that this document be made 
part of the record.
    Chairman Tom Davis. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.005
    
    [GRAPHIC] [TIFF OMITTED] T4205.006
    
    [GRAPHIC] [TIFF OMITTED] T4205.007
    
    [GRAPHIC] [TIFF OMITTED] T4205.008
    
    [GRAPHIC] [TIFF OMITTED] T4205.009
    
    [GRAPHIC] [TIFF OMITTED] T4205.010
    
    [GRAPHIC] [TIFF OMITTED] T4205.011
    
    [GRAPHIC] [TIFF OMITTED] T4205.012
    
    [GRAPHIC] [TIFF OMITTED] T4205.013
    
    [GRAPHIC] [TIFF OMITTED] T4205.014
    
    [GRAPHIC] [TIFF OMITTED] T4205.015
    
    [GRAPHIC] [TIFF OMITTED] T4205.016
    
    [GRAPHIC] [TIFF OMITTED] T4205.017
    
    Mr. Waxman. As this remarkable document shows, Katrina 
wasn't a surprise. This wasn't a disaster that no one could 
have predicted, as the President said. Over a year ago, FEMA 
new that a Category 4 hurricane could cause a mega-disaster, 
that the State was not prepared to cope without massive Federal 
intervention, and that an extraordinary level of advanced 
planning was needed.
    Yet, apparently, FEMA--and the rest of the Government--was 
caught unprepared.
    Now, Congress has a responsibility to find out why our 
Government failed so miserably, when the stakes for so many 
Americans were so high.
    There is a dispute in Congress about how to conduct an 
investigation. The House and Senate Republicans, their 
leadership, proposed a bicameral investigation committee. But 
they want Republicans to control the committee. And they didn't 
consult with the Democrats in developing the proposal. Now, the 
Democratic leadership is rightly skeptical and has proposed a 
truly independent commission.
    As the principal oversight committee in the House, we on 
this committee have an obligation to conduct our own 
independent investigation. And if we are serious about this, as 
the chairman indicated he is, there are two steps we should 
take right away.
    First, we should request basic documents from the agencies. 
I have given the chairman drafts of letters that should go to 
the Department of Homeland Security, the Corps of Engineers, 
the Department of Health and Human Services, and the White 
House, that seek information that any credible investigation 
must have. These letters ask basic questions, such as what was 
the plan for responding to the hurricane and how was it 
implemented. I hope that we will be able to announce today that 
we have reached a bipartisan agreement to proceed with these 
document requests.
    Second, we need to hear from Michael Brown and Michael 
Chertoff. These are the two Government officials most 
responsible for the inadequate response, and the committee 
should call them to testify without delay, and, if need be, 
subpoena them to come in.
    Today's hearing is entitled, ``Back to the Drawing Board: A 
First Look at Lessons Learned from Katrina.'' Well, I look 
forward to hearing the testimony from the witnesses today, a 
very distinguished group. The chairman has called you all 
together. And I especially want to hear from the people in Los 
Angeles. But I don't want to be so parochial that I only want 
to hear about Los Angeles. But I must admit that I am perplexed 
by the timing of this hearing. It is going to be hard for D.C., 
Miami, and Los Angeles to learn what lessons to draw from 
Katrina until we fulfill our obligation to investigate the 
disaster in New Orleans and find out what went wrong and why.
    It is too early to know what the lessons of Katrina are, 
but it is not too early to learn lessons from the waste, fraud, 
and abuse that has characterized the reconstruction in Iraq and 
in the spending of the Department of Homeland Security. Over 
the last 5 years, the record of this administration's handling 
of Federal contracts has been one of persistent and costly 
mismanagement. Under the administration, the value of no-bid 
contracts have skyrocketed, oversight of Federal contracts have 
been turned over to private companies with blatant conflicts of 
interest, and when Government auditors and whistleblowers do 
flag abuses, their recommendations are often ignored.
    In Iraq, billions have been appropriated for the 
reconstruction effort, yet, oil and electricity production 
remain below pre-war levels. Waste, fraud, and abuse by 
Halliburton and other contractors have squandered hundreds of 
millions of taxpayers dollars, and domestically the record is 
no better: the FBI spent $170 million on a virtual case file 
system that does not work, the Department of Homeland Security 
spent another $200 million on a border monitoring system of 
cameras and sensors that also doesn't work, and the contract to 
hire Federal airport screeners has been plagued by poor 
management and flagrant abuses.
    As we prepare to pour billions into the relief and recovery 
effort in the Gulf Coast, we cannot allow these mistakes to be 
repeated. We need contracting reforms, and more and better 
oversight. The taxpayer cannot afford to give another blank 
check.
    One of the fundamental Constitutional obligations of 
Congress is to oversee the executive branch. Despite the 
efforts of the chairman, who has asked more questions than most 
of his colleagues, Congress has too often failed to conduct 
meaningful oversight, and the consequences have been perilous. 
When we fail to insist on accountability, we reward blunders 
and we invite abuse.
    We must not travel down this road again. As the entire 
Nation now knows, Government incompetence and a failure to 
insist on accountability can have dire consequences.
    I am pleased we are holding at least this hearing. We have 
to do much more than this hearing. And I just hope that the 
Republican leadership in the Congress isn't trying to set up a 
bicameral commission to study and then a select committee that 
is on the floor today and Republicans trying to control 
everything so that we don't really find out what is happening.
    If there is ever a time for bipartisanship--and this 
committee has demonstrated more than most committees along 
those lines--the time is now. And if there is ever a committee 
that ought to be doing its job, as our committee has done in 
the past, the time is now as well.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.018
    
    [GRAPHIC] [TIFF OMITTED] T4205.019
    
    [GRAPHIC] [TIFF OMITTED] T4205.020
    
    [GRAPHIC] [TIFF OMITTED] T4205.021
    
    [GRAPHIC] [TIFF OMITTED] T4205.022
    
    Chairman Tom Davis. Mr. Waxman, thank you very much.
    Mr. Shays.
    Mr. Shays. Wow. If there ever was a time for 
bipartisanship, I didn't hear it in the last speech. The bottom 
line is, if you want to be a partisan Democrat, you just focus 
on FEMA and what the Department of Homeland Security should 
have done, and if you want to be a partisan Republican, you 
just focus on the outrageous failure on the State and local 
governments. And if you want to be bipartisan, you focus on all 
of it.
    My sense is that a bipartisan, bicameral committee--that 
will probably have a fairer makeup than the Contra aid funding 
hearing--will do its job, and Congress can do its job. This 
committee has been bipartisan and it has conducted 
investigations of this administration with vigor, and I salute 
the chairman for calling this hearing.
    Our fellow citizens in the Gulf States endured a horrific 
natural disaster of unprecedented, but not unanticipated, 
magnitude. Hurricane Katrina destroyed so many lives. The storm 
also blew away overconfident assumptions about post-September 
11th preparedness and laid bare lethal inadequacies in 
response, planning, and execution at all levels of government. 
We owe it to both victims and survivors to salvage the hard 
lessons left in its wake.
    In assessing response capabilities and vulnerabilities, it 
is essential to begin, as we do today, at the local level. That 
is where disasters happen, and that is where State and Federal 
help will have to flow to support local first responders. That 
help has to get there in time and on a scale to match the 
crisis.
    So we need to know where else in the disaster response 
process might the intergovernmental levees break to swamp 
untested plans and unproven capabilities.
    Yesterday, the 9/11 Commission pointedly and appropriately 
reminded us of the unfunded, unfinished agenda that, if 
addressed, might have saved lives last month. Radio spectrum 
needed for interoperability communication has not been made 
available. A unified incident command system is not being used 
across all jurisdictions. We remain unprepared to protect 
critical infrastructure because we haven't decided what is 
critical. Without clear priorities, resources are apportioned 
based on politics and demographics, rather than risk.
    Oversight of security strategies at chemical plants and 
nuclear facilities confirms a systemic weakness that brought 
tragic consequences in New Orleans. Many evacuation plans seem 
unrealistic and, frankly, criminally negligent given the 
fragile condition and constrained capacity of roads, bridges, 
and transportation systems, and the public health system has 
almost no surge capacity. In fact, as one of our colleagues 
wryly observed, most emergency rooms are not prepared for the 
walk-ins on an average Saturday night, much less a tsunami of 
the sick and worried well that would stream through their doors 
in the event of biological attack or natural pandemic.
    Nature sometimes gives warnings; terrorists will not. When 
the crisis comes in the form of an undetected dirty bomb, a 
smuggled improvised nuclear device, or a sudden disease 
outbreak, the lessons of Hurricane Katrina could save many 
thousands of lives if we heed them. A serious thorough post 
mortem of Katrina to glean vital lessons begins with hearings 
like this, and, thank you, Chairman Davis, for having this 
hearing. I look forward to a frank and constructive discussion.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.023
    
    [GRAPHIC] [TIFF OMITTED] T4205.024
    
    Mr. Waxman. Would the gentleman yield?
    Mr. Shays. I yield.
    Mr. Waxman. I was taken by surprise and disappointment by 
your reaction to my statement. To raise questions and to make 
statements of facts I don't consider partisan.
    Mr. Shays. Reclaiming my time. It all focused on the 
Federal Government. Totally focused on the Federal Government. 
And we are going to look at all three levels of government.
    I yield back my time.
    Mr. Waxman. Well, I agree that we need to do that. We need 
to do that. And I didn't focus just on the Federal Government, 
but we have the major responsibility.
    Chairman Tom Davis. We have a momentous task ahead of us, 
and I appreciate everybody's comments. We want to move ahead on 
this, if we can.
    Everybody's statement will be put in the record. You will 
have 7 days to do that. We have time, for Members who want to 
say something now, but we do have a time limit. We do have some 
people testifying that have time limits on this, as we get 
close. We have former Mayor Morial of New Orleans here today. 
He has a very tight time slot, so I will have to make 
arrangements, as we get through, to accommodate them. But we 
will move ahead and ask people to be as brief as you can. Your 
complete, entire statement will be included in the record.
    Mr. Sanders, you are recognized for 5 minutes.
    Mr. Sanders. Thank you very much, Mr. Chairman. And I would 
hope that it goes without saying that there should be an 
independent September 11th-type commission to look at the 
problems that surfaced at Hurricane Katrina. It is 
inconceivable not to support that approach.
    Thomas Keane, who is in fact the formal chairman of the 9/
11 Commission, this is what he said just yesterday: ``This is 
not a terrorist attack incident, but it brings into play all of 
the same issues and shortcomings that we saw in September 11th. 
What makes you mad is that it is the same things that we saw on 
September 11th. Whoever is responsible for acting in these 
places hasn't acted. Are they going to do it now? What else has 
to happen for people to act?'' In other words, what we are not 
just talking about is the tragedy of Katrina; are we prepared 
for a terrorist attack? What have we learned?
    No. 2, when we talk about lessons learned, I would hope 
that we all agree that when we are talking about emergency 
management, when we are talking about saving lives, we want 
competence at the top of the ladder. You don't want somebody 
whose experience is based on Arabian horses; you want somebody 
who knows something about how to save lives in an emergency.
    Third, what we also need to know is that poverty in America 
is a serious problem, and poverty in America is a growing 
problem. And maybe it didn't dawn on the White House, but 
somebody should know when people live day to day and have no 
money, you can't get into a car because you don't have a car; 
you can't go to a hotel because you don't have money to go to a 
hotel. You don't have anything. You don't have anything on any 
day, and you certainly don't have it in the middle of a flood. 
So maybe we might want to pay attention to the fact that 
millions and millions of people in this country are barely 
surviving on a good day, and what is going to happen to them in 
the midst of an emergency.
    And maybe out of Hurricane Katrina might come an 
understanding that you can't continue to ignore environmental 
degradation. Global warming is real. We just passed an energy 
bill which is still studying whether global warming is a 
problem, and the U.S. Government is one of the few institutions 
left in the world that doesn't understand that global warming 
is real. We are talking about the destruction of wetlands, 
which played a very important role in terms of the damage done 
due to Hurricane Katrina. We are talking about the rising of 
the sea level. And maybe we shouldn't be passing legislation 
which still does not understand that.
    Hurricane Katrina was not only predictable, it was 
predicted. Read Scientific American. Read the Times-Picayune of 
New Orleans. It was there for all to see. So the question is 
whether we are going to be running policies on competence, on 
scientific basis, or whether we are going to be running 
agencies based on cronyism and ignoring reality?
    So let me simply conclude. My friend from Connecticut 
indicated that this committee has dealt with some of the 
important issues in the last few years. I respectfully 
disagree. This committee has ignored many of the major problems 
that the American people want answered. We are supposed to be 
doing oversight; in many ways we haven't. I would hope that 
Hurricane Katrina becomes a wake-up call that there are huge 
issues in this country that have to be addressed. I hope this 
committee is serious about doing that.
    Thank you.
    [The prepared statement of Hon. Bernard Sanders follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.025
    
    [GRAPHIC] [TIFF OMITTED] T4205.026
    
    [GRAPHIC] [TIFF OMITTED] T4205.027
    
    [GRAPHIC] [TIFF OMITTED] T4205.028
    
    [GRAPHIC] [TIFF OMITTED] T4205.029
    
    Chairman Tom Davis. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Chairman, I join my colleagues in expressing my deepest 
condolences to the families and friends of the victims of 
Hurricane Katrina. I also join my colleagues in admiring the 
many acts of bravery and selflessness of our citizens in 
helping those individuals who have been impacted by Katrina.
    I can understand why our Democratic counterparts continue 
to call for an independent commission. It is because they can't 
even get through a congressional hearing without being partisan 
and us hearing from individuals that have great information and 
expertise for us.
    The reason why we had a bipartisan independent commission 
in September 11th is because the issues were much more complex 
than just the manner of the Federal Government's response. We 
had questions such as who was responsible for September 11th, 
how did they get here; what did they do when they were here 
before September 11th. These are not questions you have with a 
hurricane. We all watched it come. We know how it got here; we 
know what it did.
    The issues of what the Federal Government, local government 
and State government's response are to be is a function of 
government, and this committee and this Congress ought to have 
an ability to undertake that review, the acts of governance, 
without issues of such high partisanship.
    There have been problems and inadequacies in the response 
to Hurricane Katrina, and it is important for us to understand 
what went wrong and what went right. In order for this process 
to be most effective, we must gather the facts in an unbiased, 
nonpartisan manner. The questions raised about our response to 
Hurricane Katrina are simply too important.
    Mr. Chairman, as the former mayor of Dayton, OH and now 
chairman of this committee's Subcommittee on Federalism and the 
Census, I am keenly aware of the many issues raised when 
Federal, State, and local entities are all involved in 
responding to a crisis situation. Our first responders are our 
mayors, police, fire, and emergency personnel. State and 
Federal resources support initial local efforts and are 
ultimately engaged when the task exceeds local resources.
    But let us be clear, the President of the United States is 
not responsible for evacuating our cities, whether it is 
Clinton, Bush, Carter, or Reagan. To claim otherwise is wrong. 
Like all Americans, I was horrified to see the pictures of low-
income and African-American residents of New Orleans that were 
not evacuated before the storm. They were not left behind by 
this President, this Congress, or our American people. The fact 
that our disaster response was insufficient at the local, 
State, and Federal level is clear. Determining what we need to 
fix is our task.
    Mr. Chairman, we need to work together to look at the 
issues of bureaucracy, the barriers that did not allow relief 
aid and the workers to do their jobs in the disaster areas. The 
bottom line is that these hearings are about people and 
families, and saving Americans' lives in a disaster.
    I look forward to the testimony of each of our witnesses 
before us today. I am particularly interested from our 
witnesses and how they have addressed their plan of similar 
problems and what lessons they believe that we are already 
learning from Hurricane Katrina.
    Mr. Chairman, I commend you for holding this hearing today. 
By working together as Members of Congress, by doing our jobs, 
we can plan a proactive and non-partisan role in helping to 
understand the response to Hurricane Katrina and learn and 
implement lessons from this response.
    I yield back.
    Chairman Tom Davis. Thank you very much.
    Mr. Owens. Mr. Chairman, I will be very brief. Indeed, the 
fact that each level of government continues to pass blame back 
and forth among each other shows how important it is to have a 
September 11th type commission appointed as fast as possible. 
The fact that there was no transport for poor people was almost 
a criminal neglect.
    The inability to communicate with the first responders, the 
police and fire to communicate with each other, was a major 
problem in my city of New York at the time of the World Trade 
Center catastrophe. Everybody knows that there were a number of 
firemen who died after they had been told to evacuate. There 
were a number of firemen still going up the stairs to prepare 
to fight a fire after they were told it was necessary to 
evacuate, because the communication equipment was not working. 
The police and fire communication equipment was not in harmony. 
Why, after all this time, haven't we at least solved those 
problems? Why hasn't there been a mandate from Homeland 
Security to make certain that communication systems are 
workable?
    I salute the police of the city of New Orleans and the 
other firemen and first responders there. But we have a built-
in institutional corruption in some cities, like New York City. 
The first responders--who are the police and the firemen--half 
of them live outside of the city and would not be able to reach 
the city if there was a disaster requiring that they be there. 
First responders ought to live within 30 minutes, at least, of 
the assignments that they would have, and that is a built-in 
piece of corruption of the process that needs to be addressed.
    Davis Bacon and affirmative action are two items that the 
President has acted rapidly on. He has quickly moved to suspend 
requirements of Davis Bacon for contractors operating in the 
reconstruction and reclamation of New Orleans and the Gulf 
region. He has quickly moved to suspend affirmative action. Why 
do we act so rapidly on those two items? Are they in the way of 
the process of rebuilding, the process of reclamation? I don't 
think so. They run counter to the needs that everybody has 
expressed: to have the people who live in the region be given 
first priority in the jobs, as they try to reconstruct their 
lives. They should have priority of the jobs. So don't reduce 
the amount the jobs pay. Davis Bacon already would tell you 
that in the area that salaries of workmen in the construction 
industry is lower than most other areas of the country.
    And affirmative action certainly would not hurt anybody. It 
is a city of more than 60 percent minority. And why should you 
worry about affirmative action to the point that you suspend it 
for contractors? It should be doubly reinforced in order to 
guaranty that priority is given to those people who want to 
come back and resettle.
    Those are my quick comments, Mr. Chairman. I would like to 
hear the people.
    Chairman Tom Davis. Thank you very much.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. And I want to thank the 
chairman and the ranking member for holding this hearing. 
Certainly, it is timely. And I will ask that my entire 
statement be put in the record.
    Chairman Tom Davis. Without objection.
    Mr. Issa. I think, out of turn, I would like to apologize 
to all of our witnesses today for what you are seeing here. 
What you are seeing here is the reason that many of you who are 
involved, particularly my Los Angeles friends. You need to 
count on yourself, because you can't count on Congress to be 
there for you. There is some debate about whether or not FEMA 
reacted properly, whether or not it can be reformed to act in 
all emergencies properly.
    But every year the Congress does one thing right, which is 
we send dollars your way specifically earmarked for the kind of 
disaster preparation that we are talking about here today. And 
if there is one lesson of Hurricane Katrina that we should all 
understand is you have to be your own first line of defense. 
And the work you do, the money that we give you and the 
matching money that the cities and the States need to dig deep 
for is very important.
    The next natural disaster quite likely will not be a 
hurricane. It will probably not be weapons of mass destruction. 
It will very unlikely be an airplane flown into a building. It 
will most likely be an earthquake, a wildfire, or a flood of 
some other sort. Today we are going to hear from you about many 
things, but I am particularly interested in hearing about the 
lesson--contrary to what you heard from some of the other 
Members--the lessons you have already heard from Katrina. You 
don't need to know everything that went wrong. You need to 
realize that your plan may be flawed, but only you can 
determine the way in which your preparedness is flawed, and for 
what circumstances.
    Hurricane Katrina is a terrible event, but it is only the 
sequel of an event that occurred in 1969 in New Orleans. It was 
foreseeable. It was something that was in the basic disaster 
plan for Louisiana. It wasn't something that they didn't know, 
that levees would breach, that it could be flooded, that pumps 
would shut down.
    So I ask you very much today, when you are making your 
statements, when you are responding to questions, please look 
at this body and say do you want the men and women on this dais 
to be there running your next disaster, or do you want to be in 
charge of it? And if you do, help us today to understand that 
you are ready, or at least you know how to get ready, with the 
kind of assistance we are good at. And the kind of assistance 
we are good at is passing laws that enable you to do what you 
need to do and sending you appropriate money to match the money 
that you are spending locally. Hopefully, that will be what 
this hearing is about, because as you can rightfully see, if 
you want us to run your next disaster, it starts when we 
arrive.
    With that, I yield back.
    [The prepared statement of Hon. Darrell E. Issa follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.030
    
    Chairman Tom Davis. Thank you very much.
    Mrs. Maloney.
    Mrs. Maloney. Thank you very much.
    The people of New York continue to send their thoughts and 
prayers to the victims of Hurricane Katrina.
    And, Mr. Chairman, I thank you for calling this hearing. We 
must ask the necessary questions and make the necessary 
changes, and we must not stop until this government can respond 
to disasters as quickly and effectively as possible.
    It is clear that the response to Katrina was simply 
unacceptable. Some have described it as disastrous. Some people 
drowned, but others died because the rescue effort did not 
reach them in time. There were reports that people waited for 4 
days for food and water. I want to know why the National Guard 
was not called out immediately. And I want answers to why 
support that others were offering from other States was turned 
down.
    We are calling this ``A First Look at Lessons Learned from 
Katrina,'' but we have no one here from the Federal Government. 
And I sincerely do not believe that it is a partisan statement 
to request a representative from the Federal Government. And I 
don't think anyone in Congress on either side of the aisle 
wants to interrupt in any way the important work that is taking 
place on the ground. But certainly former FEMA Director Michael 
Brown has time on his hands. He is no longer in the position. 
He has time to be interviewed by all the newspapers. Here is 
one headline: ``Ex-FEMA Chief Tells of Frustration and Chaos.'' 
There is another article about him attending a spa for 
treatments. And I could put them in the record, but----
    Chairman Tom Davis. Mrs. Maloney, that is not the 
committee's fault; we tried to get him here today, just for the 
record.
    Mrs. Maloney. Well, my point, Mr. Chairman, is we should 
get him, even if we have to subpoena him.
    Also, the paper reports today that Daniel Craig from FEMA 
has resigned, as well as Patrick Rhode, the Deputy Director, is 
also out the door. And I think that they should be here to 
answer questions.
    As one who represented New York City, that suffered greatly 
under September 11th, FEMA was wonderful. They were there that 
night; they stayed there every day; they responded to people; 
they helped people. They were important. When we reorganized 
the Homeland Security Committee, there was a democratic 
amendment to keep FEMA separate, because it is disaster 
recovery; it is very important. Yet, its budget was slashed and 
people suffered because of it.
    We learned many lessons after September 11th. One of them, 
and the most tragic, was that our communication system did not 
work. The radios did not work. The Federal Government shipped 
down walkie-talkies the next day. I know, because I called 
Congressman Young. He sent them down from the military. But the 
same thing happened in Katrina, no communications. And there 
were many other problems that were the same problems that we 
confronted.
    In the consideration of time, I would like to place in the 
record a document that was prepared by the New York delegation 
in the best sense of commitment and friendship to our 
colleagues that are facing the same challenges that we faced. 
It is 22 recommendations, 22 descriptions of problems that we 
confronted in the recovery. And we feel that it is something 
that can help the legislators and the people on the ground in 
the Gulf region. And I request permission to place this in the 
record.
    Chairman Tom Davis. Without objection, it will go in the 
record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.031
    
    [GRAPHIC] [TIFF OMITTED] T4205.032
    
    [GRAPHIC] [TIFF OMITTED] T4205.033
    
    [GRAPHIC] [TIFF OMITTED] T4205.034
    
    [GRAPHIC] [TIFF OMITTED] T4205.035
    
    [GRAPHIC] [TIFF OMITTED] T4205.036
    
    [GRAPHIC] [TIFF OMITTED] T4205.037
    
    [GRAPHIC] [TIFF OMITTED] T4205.038
    
    [GRAPHIC] [TIFF OMITTED] T4205.039
    
    [GRAPHIC] [TIFF OMITTED] T4205.040
    
    [GRAPHIC] [TIFF OMITTED] T4205.041
    
    [GRAPHIC] [TIFF OMITTED] T4205.042
    
    [GRAPHIC] [TIFF OMITTED] T4205.043
    
    [GRAPHIC] [TIFF OMITTED] T4205.044
    
    [GRAPHIC] [TIFF OMITTED] T4205.045
    
    Mrs. Maloney. Mr. Chairman, if I could close by saying, in 
defense of Ranking Member Waxman, I do not in any way consider 
raising concern for taxpayers' dollars as partisan attack. The 
fact that he suggested that contracts be carefully reviewed, 
competitively bid, when applicable, and that taxpayers' money 
be watched, while we are helping people and trying to save 
their lives, I respectfully say this is not a partisan attack, 
this is a concern, one of the major concerns of this committee, 
along with getting an appropriate response to help people in 
disasters such as Katrina.
    I yield back the balance of my time, place my comments in 
the record, and, as I said, request permission to place in the 
record the 22 recommendations from the New York delegation for 
disaster response.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T4205.046

[GRAPHIC] [TIFF OMITTED] T4205.047

[GRAPHIC] [TIFF OMITTED] T4205.048

[GRAPHIC] [TIFF OMITTED] T4205.049

[GRAPHIC] [TIFF OMITTED] T4205.050

[GRAPHIC] [TIFF OMITTED] T4205.051

[GRAPHIC] [TIFF OMITTED] T4205.052

[GRAPHIC] [TIFF OMITTED] T4205.053

    Chairman Tom Davis. Well, I thank the gentlelady for her 
remarks, and I say to my friend on the FEMA amendment on the 
House floor, I went back and reviewed that, because I think 
that is an appropriate issue for Congress to review, should 
FEMA be separate, how does it work with Homeland Security. It 
wasn't a partisan amendment, it was very jurisdiction-driven. 
The Transportation and Infrastructure Committee thought that. 
It came out of that separation. Part of it was jurisdiction.
    I think that is wholly an appropriate deal. But that was 
very bipartisan on both sides, if you go back and review the 
voting on that. And I think that is an appropriate item for 
discussion as we move forward here, and that would probably be 
within this committee's jurisdiction. So we look forward to 
that.
    We tried to put together a hearing today, despite 
opposition from some of our leaders and others, that would make 
some sense, that would give assurance to the American people. 
We have learned some things that other jurisdictions that are 
targets one way or the other. You know, we are working on this. 
There were some lessons learned. There are a lot of questions 
we still have to ask. We tried to find Michael Brown to get him 
here. And this is not the end of it. But I just appreciate 
everybody's participation today.
    We are going to now move to Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman. Obviously, 
we all know this is not going to be the only hearing that we 
will have on this, and there were other meetings in which we 
can have other Federal officials here. I thank you for calling 
this hearing and I thank the witnesses for being here. While 
they are not from the affected areas, they are experts in being 
prepared for the types of problems that we found there.
    I will be very brief. Let me just say everything looks easy 
from a distance. It is awfully easy to criticize. The response 
by President Bush, no President in the history of the world 
probably has ever devoted more time, effort, and resources to 
any natural disaster than the President has. No country in this 
world has made such a concerted effort and response as has the 
United States of America. No other country in the world would 
have responded in the way that this country has to a major 
natural disaster.
    As horrible and tragic as these events were, a lot of good 
has already come out, and even more good and positive things 
will happen. We should be very proud of this country and the 
way it is responding, not only through the government, but also 
millions of private citizens. Hundreds of millions of dollars 
have been donated. There is probably not a police or fire 
department or sheriffs department in this country that hasn't 
sent people down to help out. A lot more good will happen in 
the days and weeks and months ahead.
    Were mistakes made? Yes. Did some people do bad things? One 
news report I heard said one-third of the New Orleans Police 
Department had deserted, but two-thirds of the department were 
there doing heroic deeds.
    Were mistakes made at the State level? Yes. One report I 
heard said that Governor Blanco, when the President and the 
mayor were ready to act, she wanted 24 more hours to make up 
her mind. But has she done good things? Yes.
    Has the Federal response been good? Some of it people made 
mistakes, but most of it has been just amazing.
    So I think we need to keep those things in mind.
    As I said when I started, it is easy to criticize. 
Everything looks easy from a distance. But I will tell you 
this, I think we should keep in mind that no other country in 
this entire world could have or would have responded in the way 
that we have and are, and I thank you for calling this hearing.
    Chairman Tom Davis. Thank you.
    Mr. Kucinich.
    Mr. Kucinich. Thank you very much. I want to thank the 
chairman and the ranking member for holding this hearing, 
although I will say that it might strike some people in this 
country--maybe those in the Gulf Coast area--as being somewhat 
curious that Congress is holding one of its first hearings on 
Hurricane Katrina by talking about Los Angeles, Miami, and D.C.
    It would appear that if you want to hold a hearing about 
Katrina, you would be talking about Louisiana, Mississippi. 
This first hearing that is being held in the House of 
Representatives, while noteworthy and gratefully received in 
the context of the way things are here today in Washington, 
nevertheless, still will leave unresolved questions that, if 
they were answered today, would shed light on the predicaments 
some of the representatives from these communities might have.
    It is curious that we say we want lessons from Katrina 
without actually studying Katrina here in this committee. This 
means that we really don't want to look at Katrina. We prefer 
to talk around it, which is exactly why it happened. There is a 
larger question here, of whether or not a certain type of 
philosophy of government has been at work that set the stage 
for the disaster.
    Bernie Sanders is right when he talks about how in the 
world can we ignore global climate change in the context of 
talking about Katrina, because if we ignore it--and we have--
what relevance does that have for people from Miami, from Los 
Angeles, and from the District of Columbia? How in the world 
can we ignore--as we have--issues of poverty, which inevitably 
confines people's mobility at a moment of disaster? What 
implications does that have for Miami, Los Angeles, and the 
District of Columbia?
    Yes, it would be interesting if we had the tables turned 
and members of the panel had the chance to ask us questions 
about what we are doing about the basic elements that we 
already know gave rise to the tragedy. This question goes far 
beyond partisanship. To lay this question on a partisan basis 
is to do a disservice to our role as Members of Congress. This 
goes to the legitimacy of the Government itself. Government 
ends up being a huge scam if it doesn't do anything to protect 
people's basic right to shelter, to clothing, to food, to 
protection in an emergency.
    This committee has a real opportunity to set the stage for 
real hearings which get into deep analysis of what happened and 
of what we can do to truly help Miami, Los Angeles, and the 
District of Columbia, and all the other communities who are 
waiting to see if the Federal Government will shift its 
perspective and take real responsibility for creating the 
circumstances that helped provide a buffer for any community 
hit by a disaster. Thank you.
    Chairman Tom Davis. Thank you. Let me just say to my friend 
that we wanted to look at everything involved with Hurricane 
Katrina, but we didn't want to pull people off the job. We will 
be sending members of this committee to New Orleans on Sunday, 
and the Gulf Coast and Mississippi, where we can look first-
hand at this, get briefed, and, I think, be in a better 
position to discuss these issues.
    But it was our position that we didn't want to drag people 
away from that, to have to come back at this point. We are 
looking for others. I have tried to work with your ranking 
member, make this as complete as we can. We felt it was 
important we move ahead. And we do have the former mayor of New 
Orleans that will be here today talking, as well. So we are not 
ignoring Katrina, if it appears that way.
    Mr. Sanders. Mr. Chairman, will we bring FEMA officials and 
former FEMA officials before us in the future?
    Chairman Tom Davis. That is certainly our intention.
    Mr. Kucinich. I thank the gentleman.
    Chairman Tom Davis. Thank you all.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Davis. And I 
agree with the comments of my good friend, Mrs. Maloney of New 
York. FEMA did do an outstanding job in September 11th, as did 
Mayor Giuliani and Governor Pataki, too. So let us make sure we 
recognize their contributions.
    And I would like to recognize two special witnesses that we 
have before us today, and I thank the chairman for inviting 
them: Mr. Tony Carper, the director of the Broward County 
Emergency Management Agency, and from my district, my good 
friend Chief Carlos Castillo, the director of Miami-Dade 
County's Office of Emergency Management. As director, Chief 
Castillo is responsible for coordinating the county's 
mitigation, preparedness, response and recovery for major 
emergencies, such as hurricanes. And south Florida, as all of 
us know, is no stranger to hurricanes. Chief Castillo is going 
to discuss the experiences of our area, as is Mr. Carper, in 
dealing with these natural disasters.
    In 1992, 13 years ago, Hurricane Andrew brought near total 
devastation to communities in my area of south Florida. And the 
questions posed by Miami-Dade and Broward County after Andrew 
are similar to those being addressed by the various Gulf Coast 
localities in the aftermath of Hurricane Katrina, and I think 
that is why my good friend, Mr. Kucinich, would agree that is 
why we are here to discuss the experiences of these areas, such 
as what can be done to lesson the damage to life, to 
infrastructure, to property, as well as how to incorporate the 
needs of a diverse population into a unified response plan. 
What plans are in place for evacuations? Who imposes these 
orders? Who carries them out? Who brings food and water to 
shelters? Could what happened in New Orleans happen in other 
cities?
    Furthermore, with the international war on terror, new 
precautions must also be taken. And, as a result, counties and 
cities are now faced with the task of preparing for domestic 
acts of terror following a natural disaster.
    The lessons learned in the 13 years after Andrew have 
enabled us in south Florida to implement one of the most 
sophisticated emergency response plans in our Nation today, so 
it is important to hear from these officials.
    And I visited the emergency management facilities in Miami 
as recently as this Monday. Hurricane Katrina adversely 
impacted our residents in south Florida, with hundreds 
suffering damage to their homes and businesses. And we are 
asking FEMA to provide individual assistance to those who were 
hurt by Katrina, but FEMA has refused to do so. Our entire 
Florida congressional delegation, including our two Senators, 
in a bipartisan manner, we have been pleading with FEMA to 
change its decision and provide us this individual assistance. 
Many lost their homes. We were fortunate to have an effective 
local response plan so that damage assessment and cleanup could 
occur immediately. And we need to learn from the mistakes of 
local, State, and Federal agencies that have remained in the 
aftermath of Hurricane Katrina so that we can be better 
prepared for the future. And I think south Florida can provide 
us with some of those lessons learned after Andrew.
    Thank you, Mr. Chairman, again, for their invitation.
    [The prepared statement of Hon. Ileana Ros-Lehtinen 
follows:]

[GRAPHIC] [TIFF OMITTED] T4205.054

    Chairman Tom Davis. Thank you.
    Ms. Watson.
    Ms. Watson. Mr. Chairman, I want to thank you for being 
brave enough to hold this hearing, but it is premature. I look 
on the agenda and I find two of our finest from the city of Los 
Angeles. I just sent my staff down to find out if they have 
been in New Orleans.
    As I look at the briefing memo, it says ``Back to the 
Drawing Board: A First Look at Lessons Learned from Katrina.'' 
Yet, no one is here from FEMA from Katrina. Unless the people 
at the table have been there, what can you tell me went wrong? 
Now, I know we plan in California, because we are prone, as I 
found out none of you have been in New Orleans, but you have 
sent people, and I appreciate that.
    This particular hearing says the purpose of the hearing is 
to investigate. Now, investigate means that you go and you get 
the people who were involved, and you speak to them about what 
happened. It is to investigate the emergency plans. Now, we 
have been planning for decades, and the rest of the people 
invited come from Washington, DC, and New York. No one but Marc 
Morial--and he is not here--at least his chair is vacant. Is he 
in the audience?
    Chairman Tom Davis. As I announced earlier, he will be 
joining us for a limited period of time.
    Ms. Watson. He is not here at this moment.
    Chairman Tom Davis. That is right.
    Ms. Watson. He is not here at this moment. So it should be 
clear to most Americans that we have serious problems with our 
Federal--get that, Federal--emergency response mechanisms. 
There is one thing we have to do, and that is to respond to a 
disaster that is sprung upon us without warning. But we were 
warned. I remember the weekend before the hurricane hit, 
listening to a newscaster on the Weather Channel, Channel 8, 
saying if it hits as a Category 5, it will change the 
topography of the Gulf States. That really was striking to me. 
I said, wow, is he harsh. And he said that he saw a sign that 
said ``Leave or Die.''
    And, for the life of me, I did not know why that did not 
inspire the President to issue a disaster declaration on 
Saturday, the 27th. FEMA waited until Monday, the 29th, 5 hours 
after Category 3 Katrina made landfall. And they waited to even 
submit a plan to respond. Now, all of you can tell us what you 
would do in a disaster, but I want to find out why we didn't 
move quicker. By then we had lost our best chance to save the 
most lives, organizing a robust evacuation of the threatened 
area.
    And in reality, Mr. Chairman, we did have much more than 2 
days to prepare. Almost exactly 1 year before Katrina, FEMA 
organized an exercise wherein a fictional Hurricane Pam hit New 
Orleans head-on. They studied who needed to do what to save 
lives. They developed a plan to protect Americans. Now, this 
was not the massive failure of imagination of September 11th, 
this was a failure to carry out their own plans and 
responsibilities.
    But the most tragic result of this disaster, Mr. Chairman, 
is how so many Americans were victimized, and most of them were 
poverty-stricken. For many poor residents of the Gulf, both 
inside and outside New Orleans, Katrina was the only immediate 
cause of their misery. The truth is they live constantly on the 
edge of disaster. And when it came, they, more than others, 
lacked the resources to protect themselves and their 
communities.
    Chairman Tom Davis. Thank you.
    Ms. Watson. I will submit the rest of my comments.
    Chairman Tom Davis. Without objection. The gentlelady's 
time has expired and her testimony will be put into the record.
    Ms. Watson. Thank you. And I hope the press will get it.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.055
    
    [GRAPHIC] [TIFF OMITTED] T4205.056
    
    [GRAPHIC] [TIFF OMITTED] T4205.057
    
    [GRAPHIC] [TIFF OMITTED] T4205.058
    
    Chairman Tom Davis. Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I want to thank you 
for holding this important hearing. I also want to thank you 
for taking care to structure this hearing in a way that does 
not disrupt the ongoing relief and recovery operations underway 
in the Gulf States. I commend you for working to ensure that 
governments at all levels--Federal, State, and local--do right 
by our citizens in the event of a catastrophe. Each of us who 
serve the public bears shared responsibility for this task.
    I would like to share a quote from the founder of our 
nuclear Navy, Admiral Rickover. The Admiral stated, 
``Responsibility is a unique concept. You may share it with 
others, but your portion is not diminished. You may delegate 
it, but it is still with you.'' Admiral Rickover's quote should 
be our guiding principle in this challenging time. This hearing 
should be about meeting our responsibilities, and not about 
laying blame.
    I believe that as members of this committees charged with 
overseeing the operation and accountability of the Federal 
Government, we have a responsibility to look at how all levels 
of government coordinate operations from a broad perspective. 
We have a broad perspective to engage in substantive 
discussions with local and State officials to ensure that the 
systems and plans we have put in place over the years are as 
effective as possible.
    As we plan for disasters, we need to remember that these 
plans must be more than just a theoretical exercise. We can no 
longer afford to overlook the operational challenges that will 
inevitably come with the implementation of even the best laid 
plans.
    I emphasize to our witnesses today, especially those of you 
who serve on the front lines in local government, now is the 
opportunity to offer your candid assessment of efforts to 
coordinate emergency planning.
    Of course, there can be no responsibility without 
accountability. While we in the Congress stand ready to assist 
those who have been affected by Hurricane Katrina, we must 
diminish our disaster assistance funds responsibly. This money 
is too important to be misspent. Any dollar lost to fraud or 
waste is a dollar that does not make it to someone who is in 
need. With sound management, appropriate controls and 
accountability, we will have the means to continue to provide 
resources to those who are truly in need of our shared 
assistance.
    As I am sure we will hear from the witnesses today, 
financial actions at the Federal level have a direct impact on 
State and local governments, whether it is in the State 
matching requirements under the Stafford Act or the process for 
reimbursing local fire and rescue departments for their work, 
the appropriate distribution of Federal funds is integral to 
ensuring that we respond effectively to incidents of national 
significance in emergencies.
    Again, Mr. Chairman, thank you for holding this hearing, 
for helping us to meet our responsibility to the American 
people. I look forward to the testimony of our witnesses. Thank 
you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Mr. Van Hollen.
    Mr. Van Hollen. Well, Mr. Chairman, thank you and Mr. 
Waxman for holding this hearing. I am pleased, as others have 
said, that this is going to be the first of many hearings, 
because I do think that in order to learn the lessons of 
Hurricane Katrina, of course, it is important to have the 
first-hand testimony of people and decisionmakers involved in 
that, and I understand that will be something the committee 
takes up.
    I do think, given the dialog and exchange we have seen this 
morning, and, more importantly, given the jurisdictional 
problems within the Congress between different committees and 
rivalry over who gets to talk about what, it is essential that 
we do have one commission that takes an overall comprehensive 
look at this issue. It should be an independent, bipartisan 
commission. We have heard everyone on both sides of the aisle 
wants to find the facts. No better way to find those than a 
totally independent commission that has the trust and 
confidence of the American people.
    That is not to say that this committee and other committees 
shouldn't pursue the areas of jurisdiction. We should; that is 
our responsibility.
    Let me just say, with respect to the lessons learned from 
Hurricane Katrina, I was a little concerned to hear one of my 
colleagues on the other side of the aisle from California 
advise the witnesses from Los Angeles that in the future you 
are on your own; don't depend on the Congress, don't depend on 
the Federal Government for support. And I can understand, 
looking at Katrina, why people would reach that conclusion. I 
think that clearly there were mistakes on all levels of 
government, but clearly FEMA failed in many ways. So I can 
understand some reaction on the part of local and State 
governments, saying we are going to have to plan this totally 
on our own.
    And I would encourage people to do everything possible they 
can on their own, but let us not kid ourselves. A disaster of 
the kind of magnitude we saw in Katrina, a disaster the 
magnitude of the kind of terrorist attack, a dirty bomb that 
you could see somewhere, is going to, in many cases, overwhelm 
local and State resources, and the Federal Government is going 
to have to be involved. So the answer here isn't you are on 
your own. The answer is let us make sure that we fix what 
happened at FEMA. Let us make sure that we fix what happened at 
the local and State level so that we can work together and have 
the Federal resources in the future the way they want to work.
    Now, I represent an area that is right here in the National 
Capital Region, and clearly, along with my colleagues from 
other parts of the country, what happened in response to 
Hurricane Katrina has raised a new urgency about whether or not 
we are prepared, and I am very pleased today to have two 
representatives from the District of Columbia here to talk 
about preparedness in the District of Columbia.
    I think this will also be an ongoing discussion in this 
committee. We have had hearings before where we had FEMA 
representatives and others talking about the preparedness in 
the National Capital Region, which clearly is on anyone's short 
list of a potential terrorist target. We have already seen that 
from September 11th. And the testimony we received in the past 
from both State, regional leaders, local leaders, and Federal 
leaders was, yes, we are ready, or we are getting much more 
ready.
    Well, I think, in the aftermath of Hurricane Katrina, we 
all need to take another look at the difference between concept 
and laying something out on paper, and being able to implement 
that under terrible conditions. So I look forward in the days 
ahead to doing that.
    Just to flag one issue, for example, as part of the 
reorganization of the Department of Homeland Security, they 
downgraded the position of the person over at Homeland Security 
responsible at the Federal level for the National Capital 
Region. It used to report directly to the Secretary. They have 
now downgraded that. I don't know what the consequences of that 
are, but it certainly raises lots of concerns with me. And I am 
looking forward, not just today, but in the days ahead, to 
talking about the different contingencies that we have in place 
in the National Capital Region and other places around the 
country that are at risk, whether it is from a natural disaster 
or a terrorist type attack.
    Mr. Chairman, again, I thank you for holding these 
hearings. I look forward to the testimony.
    Chairman Tom Davis. Thank you very much, Mr. Van Hollen.
    Ms. Foxx.
    Ms. Foxx. Mr. Chairman, could you come back to me after the 
next person?
    Chairman Tom Davis. Mr. Marchant.
    Ms. Foxx. Thank you.
    Mr. Marchant. Mr. Chairman, I will submit my comments in 
writing so we can get to the witnesses.
    Chairman Tom Davis. Thank you very much.
    Mr. Clay.
    Mr. Clay. Thank you, Chairman Davis and Ranking Member 
Waxman, for holding today's hearing. In the wake of Hurricane 
Katrina, it is essential that all of our cities evaluate their 
emergency and evacuation plans to ensure that no one is ever 
left behind. I welcome our witnesses and thank them for 
graciously providing this committee with insight into the steps 
they are taking to protect their citizens.
    While this is an important first look at the lessons 
learned from Hurricane Katrina, it is imperative that Congress 
go a step further and establish an independent commission to 
study the Federal Government's response to this disaster.
    The disaster brought by Hurricane Katrina is indisputable. 
The failure of government agencies and elected officials to 
effectively minimize the suffering and death of the victims in 
the Gulf Coast is indefensible.
    History will record that the Katrina disaster is a turning 
point in this Nation's history. When the waters rose and the 
levees burst, the world watched as thousands of sick and 
elderly Americans, thousands of poor families with young 
children cried out for food and water. American citizens who 
trusted the advice of government were abandoned in an evacuated 
city without food and water, without plumbing, without law 
enforcement, without transportation, and without hope.
    The pictures we saw were nothing short of unbelievable. As 
a Nation, we can no longer pretend that all Americans have the 
opportunity to share in the wealth of this great Nation. The 
winds of Katrina exposed the truth to all Americans and to the 
entire world.
    The very least this body must now do is to abandon the 
partisanship that has stifled public policymaking for too many 
years. We are elected officials and our first responsibility is 
to represent the people, not to represent political parties. 
There should be no disagreement that whatever government did or 
did not do in response to this hurricane, we did not do our 
best. The mission failed, and it was not the failure of one 
person or the failure of one government agency or the failure 
of any political party, it was a collective failure. Now we 
must come together to do everything humanly possible to make 
certain that this never ever happens again.
    It is my hope that today's hearing will not only shed light 
on the policies of major cities, but will also encourage every 
city and State to ensure that adequate safeguards for the 
future are in place to effectively respond to future large-
scale catastrophes. The people of this Nation expect nothing 
less.
    I yield back and ask that my written statement be included 
in the record.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.059
    
    [GRAPHIC] [TIFF OMITTED] T4205.060
    
    [GRAPHIC] [TIFF OMITTED] T4205.061
    
    [GRAPHIC] [TIFF OMITTED] T4205.062
    
    Chairman Tom Davis. Mr. Clay, thank you very much.
    Let me just say we just confirmed with the White House that 
on Sunday there will be three committees involved--we will be 
the lead committee--in taking a CODEL to New Orleans. We will 
have three Republicans and three Democrats from this committee 
going. Mr. Waxman will name the three from the minority and I 
will name three members from the majority. I just want to 
announce that. I think that is an important part. We will be 
meeting with some of the people down there. I hope that answers 
the concerns of some of the Members.
    Mr. Westmoreland.
    Mr. Westmoreland. Thank you, Mr. Chairman. And I want to 
thank you for having this hearing and showing the leadership 
that we are not looking at New Orleans, we are not looking at 
Katrina; we are looking at some lessons learned. And I want to 
apologize to the witnesses for having to sit through all of 
these opening statements. I know that you are here to assure us 
that your cities and your leadership are prepared to handle 
either a natural disaster, a terrorist attack, or a manmade 
catastrophe.
    You know, back to the drawing board for me means that I had 
always been under the impression that government works best 
from the bottom up, not from the top down. And I think if we 
look at the drawing board of how our country is set up, how our 
States and our local governments are set up, it is the fact 
that local people helping local people is the best. They know 
their needs the best of anybody. I think the important part 
looking at what happened with Katrina, is the fact that there 
was no leadership at the local or the State level.
    I think that the main lesson learned is that our government 
does not function well when it is a top-down decisionmaking 
body that we have to do. I think that is a lesson that you 
didn't have to go to New Orleans to see. I mean, if you 
couldn't learn that from watching TV, then you may need to 
rethink what the lesson is, because you could just look at what 
was going on and compare it to what happened on September 11th, 
when you saw the leaders of the city walking through the 
streets, going to command posts, having the emergency services 
work like they did. And I did not see that happening in 
Louisiana.
    And I would just like to say that I heard some other people 
on the other side of the aisle talk about the fact that there 
was nobody here from FEMA. We are not investigating--and the 
chairman was very wise to do that--what happened with Katrina. 
And the fact that the speaker and the majority leader of the 
Senate announced that they were going to form select committees 
to work jointly to have hearings so these people would only 
have to be subpoenaed one time and not be taken away from the 
important business that they are doing in the recovery and 
relief and the reconstruction, they would only have to come up 
here once and be subpoenaed once, and they could work together. 
And, yet, the minority party issued a statement after that, 
that they wouldn't even participate in those hearings. But I am 
glad that they are here to participate in this hearing and hear 
how we can better help you.
    We want to make sure, if we are going to be blamed for it, 
I guess we need to make sure that every city is prepared to 
answer the call of your citizens when we come into a time of 
need. So I am very anxious to hear what you say, and I am very 
anxious to hear how you think that we can help you.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman, 
and I will be brief. Let me, first of all, thank you for 
calling this hearing. And I appreciate all of the witnesses who 
have come to testify. I appreciate the representatives from the 
various jurisdictions who have come to share with us how well 
and what it is that they have been doing, and how they are 
prepared for natural, as well as, perhaps, even manmade 
disasters.
    However, I find it difficult to really understand how much 
we are going to glean from them in relationship to what our 
response was to Katrina. I guess what they can tell us is what 
is happening at the local level, their local levels. But I 
think it is pretty clear that the preparation, the planning, 
and the initial response from FEMA was a colossal failure. And 
if they can help us not go down that road again, then certainly 
their time will be well spent.
    I have been doing some research of my own, and I looked at 
the way that we handled the relocation of people after the 1994 
earthquake in Los Angeles, and I certainly hope that we will 
follow some of that in terms of the utilization of HUD 
resources, to provide housing for people who were uprooted and 
dislocated.
    So I look forward to hearing the witnesses as they help us 
to prepare in such a way that, locally, we understand what we 
can do and how we can do it, but also recognizing that there 
has to be a responsibility beyond theirs and that the 
overarching responsibility for these kinds of disasters really 
comes from the Federal Government, and that puts us back at the 
hands and at the feet of FEMA.
    So I thank you very much and yield back the balance of my 
time.
    Chairman Tom Davis. Thank you very much.
    Ms. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman, and thank you for having 
this meeting.
    I am afraid I am going to have to associate myself with my 
colleague, Mr. Westmoreland, and not with the comments just 
made by Mr. Davis. I think that we have a major problem in our 
country when we look to the Federal Government to solve all of 
our problems. The role of the Federal Government is to provide 
primarily for the defense of this Nation, and I think that our 
role in disaster relief should be to make sure we are always 
going to be ready to provide for the defense of this Nation. 
But I agree with Representative Westmoreland, the more 
responsibility we give to the Federal Government, the more we 
are going to have problems.
    It is obviously the role of the local and State units of 
government to take care of the people in their localities and 
their States, and I am interested in hearing, again, what other 
localities have done to be prepared for these eventualities. 
North Carolina gets hit by hurricanes many times every single 
year, and in most cases we deal with those issues at the local 
and State level. We ask for Federal help only after we can't 
deal with it. But to make it look as though the Federal 
Government is the first responder is a terrible mistake, and I 
hope that as a result of what has happened with Katrina, which 
is very sad, we will realign or help to realign people's 
priorities. It is like asking people to think that Social 
Security is their only retirement benefit. By looking to the 
Federal Government for disaster relief, we are not looking in 
the right place.
    So I hope you all will instruct us as to what you are doing 
at the local and State levels that can help us realign people's 
expectations, and certainly do the work better from the Federal 
level, but not look to the Federal level to be a first 
responder.
    Chairman Tom Davis. Thank you very much.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Sure. First, Mr. Chairman, I want to 
thank you and Ranking Member Waxman for your leadership in 
holding these hearings. I also would like to express my heart-
felt sympathy for those who have lost so much in Hurricane 
Katrina.
    The President called the overall response to Hurricane 
Katrina not acceptable, and I agree. The response was a local, 
State and Federal failure. The system absolutely failed the 
people of the Gulf Coast. The way the system is set up now, if 
the local government can't handle the situation, if the State 
can't handle it, that is when the Federal Government needs to 
step in. But that didn't happen, and we need to know why.
    Thousands of residents of Louisiana, Mississippi, Alabama, 
and Florida were ordered to evacuate, but when they reached the 
evacuationsites like the Superdome in New Orleans, they were 
abandoned. There was not enough food, water, and medical 
supplies to go around. As the flood waters rose, thousands of 
Americans were left behind to fend for themselves amidst chaos 
and lawlessness.
    But our job today is to find out what went wrong and why. 
The victims of Hurricane Katrina deserve to know why their 
Federal Government, their State government, and local 
government failed them. It is about teamwork.
    But let us get to the facts so that we can learn what went 
wrong and fix it. On Thursday, August 25th, Hurricane Katrina 
hit Florida, killing at least 11 people, and heads to the Gulf 
Coast.
    On Saturday, August 27th, the President of the United 
States declared a state of emergency in the areas of Louisiana, 
expected to hit hard by Hurricane Katrina, now a Category 5. 
The move paved the way for Federal aid once the storm made 
landfall.
    On Monday, August 29th, 2:05, the storm hit Louisiana with 
vengeance and headed toward Mississippi.
    On Tuesday, August 30th, two levees broke in New Orleans 
and water flooded much of the city. Thousands climbed onto 
their rooftops and attempted to flee their flooded homes. The 
ones who could made their way to shelters like the Superdome 
and Convention Center in downtown New Orleans. The crowd was 
estimated in the tens of thousands. Flood water and medical 
supplies were quickly used up. Violence, chaos, and utter 
lawlessness took over. The images were played out on national 
TV. The country stood by in shock and horror.
    Many of the people stranded at the Superdome and the 
Convention Center were people of color. Many were poor and 
didn't have the resources to flee the disaster. But the 
National Guard didn't arrive until 4 days later, on Friday, 
September 2nd; 4 days later. It took 4 days for the Federal 
response to start. Americans died because their government 
failed them.
    These victims--not refugees--were forced to endure horrific 
circumstances, and that is absolutely unacceptable. We need to 
find out what went wrong and fix the system to better respond 
the next time for all Americans.
    Now, we also need to stop blaming, stop all of the 
spinning, and get down to what we are elected to do, and that 
is to fix the problem and protect the American people.
    First, FEMA needs to be taken out of the Department of 
Homeland Security and restored to an independent agency. It 
must be headed by an emergency management professional with 
direct line to the President. FEMA needs the independence to 
address disasters without navigating through layers of 
bureaucracy. It is about leadership.
    As part of this committee, I believe we must investigate 
where the breakdown between the local, State, and Federal 
Government happened, and prevent it from happening again. We 
have brought this broad array of local and State experts 
together today to help to bring some insight into what went so 
terribly wrong, and this is just the start. I believe it is our 
responsibility as members of this committee and citizens of the 
country to proceed forward and totally investigate the matter.
    We must send a clear message to our country that whether 
you are Black or White, rich or poor, Republican or Democrat, 
your government is here to protect you. We must do this quickly 
and keep our country and our citizens safe. We cannot control 
when the next disaster will come, but we can control how we 
prepare for it.
    And as far as the issue of hearings, it is extremely 
important that we have an independent commission like the 9/11 
Commission. When we were attacked, we came together as a 
country, a good commission. We have precedent. We need to do 
that. We need to have credibility with respect to the facts 
that we get and the decisions that we make.
    Mr. Chairman, again, I thank you for your courage and 
leadership, and you, Mr. Waxman, for coming together with this 
hearing, and this is just a start.
    Chairman Tom Davis. Thank you, Mr. Ruppersberger.
    Mr. Shaw, you want to make an introduction at this point, 
and then we will still have a couple more statements, but we 
are almost to the panel.
    Mr. Shaw. Thank you, Mr. Chairman and Mr. Waxman, members 
of the committee. I very much appreciate your allowing me to 
introduce Mr. Tony Carper of Broward County, FL. Tony serves as 
Broward County's Emergency Operation Coordinator, a position he 
has served in since his appointment in 1993.
    Prior to arriving in Broward, Tony served the residents of 
Brevard County, which is just north of Broward County, for 13 
years. Currently, he is president of Governor Jeb Bush's 
Hurricane Conference and on the Board of Directors of the 
Florida Emergency Preparedness Association.
    As a resident of Broward County and a member of the Broward 
Congressional delegation for the past 24 years, I am extremely 
proud of the preparation and level of professionalism that Tony 
has demonstrated, as well as the wonderful county employees of 
the EOC. Tony has led our county through 14 hurricanes, 
tornadoes, floods, and wildfires since 1995. Tony has a 
balanced and organized approach to each disaster, and has 
worked extensively with his local and State counterparts to 
ensure necessary resources are in place following a disaster.
    In south Florida, and Broward particularly, we take great 
pride in the level of public preparedness prior to and directly 
following a named hurricane. We all suffered through the 
tragedy of Hurricane Andrew in 1992. Elected officials at the 
local, State, and Federal levels and the entire community rose 
to the occasion and committed themselves to achieve 
preparedness for future disaster.
    Under Tony's leadership, as a hurricane approaches Broward 
County, the Emergency Operation Center is fully operational at 
least 24 hours prior to landfall. As the storm makes landfall, 
Broward County officials use the county EOC as an emergency 
command center where public utilities and law enforcement are 
coordinated among other needs. Broward County has the means to 
get the necessary supplies to those in need in a timely manner. 
This success comes from direct communication and work with the 
Broward Sheriffs Office and the Florida National Guard.
    It has been made clear to us over the last several weeks 
that hurricane preparedness is critical. In Florida, whether it 
is Governor Bush or Broward County officials, residents of 
Broward County are informed of the impact of the storm and the 
need to evacuate from low lying areas near the coast and in and 
around the intracoastal waterways. Mandatory evacuations are 
handled in a prompt time period, allowing the maximum amount 
needed to move hundreds of thousands of residents from the 
coast, many being elderly. These quick decisions are all 
outlined in the county's Comprehensive Emergency Operations 
Plan.
    Mr. Chairman, as the committee hears from our Nation's 
first responders and the emergency coordinators, I trust you 
will take firm action to ensure that what we witnessed in the 
Gulf region can be avoided. I thank the committee for the 
opportunity that I have to introduce Mr. Carper, and I would 
like to say that I think Broward County's plan, as well as, I 
am sure, some other plans that you will hear from today, can be 
used as a template. We must learn from this tragedy.
    And I applaud you for having this hearing and I thank you, 
Mr. Chairman.
    [The prepared statement of Hon. E. Clay Shaw follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.063
    
    [GRAPHIC] [TIFF OMITTED] T4205.064
    
    Chairman Tom Davis. Thank you very much.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman. In order to be as brief 
as possible, I am just going to associate myself with the 
remarks of Mr. Ruppersberger.
    I would like to say, however, that the title of this 
hearing is ``Back to the Drawing Board: A First Look at Lessons 
Learned from Katrina.'' First of all, I appreciate all of the 
witnesses here, and I know several folks have come in from Los 
Angeles and we have some folks from Washington. But I think 
that at some point in these hearings--I hope there will be 
more--we should probably, I think, talk to some folks who were 
in charge in Louisiana and Alabama and Mississippi.
    I heard the comments of Mr. Westmoreland, my dear friend 
and colleague, that we all got to watch TV and see what was 
going on, but I think that we need to learn at a deeper level 
than just sitting on our couches and watching people suffer. 
And I have to admit that I did not recall that the hurricane 
hit California. I do not recall that the hurricane hit 
Washington, DC. I do not recall that the hurricane hit the 
Heritage Foundation.
    And that is where the great majority of these witnesses are 
from. And I don't see anybody who was actually in charge on the 
ground in either Louisiana, Mississippi, or Alabama.
    So I think if we are really honestly looking to get to the 
bottom of this and figure out what we can do to straighten out 
the problems, we ought to talk to some of the officials who 
were actually on the ground and had to deal with the disaster 
that occurred there. I think we owe that to the American 
people.
    And I yield back. Thank you.
    Chairman Tom Davis. Thank you very much.
    Mr. Porter.
    Mr. Porter. Thank you, Mr. Chairman. I would like to share 
a totally different perspective, possibly, this morning. I know 
that there are many Members here that are rushing to judgment 
and there are many Members here with an open mind. I do believe 
that we are all here trying to do the right thing.
    But I had a call on Sunday morning, prior to the storm 
hitting, from a friend who had family in Mississippi, in Pass 
Christian and in Bay St. Louis, and a little community called 
Picayune. It was Sunday morning, probably 10 a.m., and they 
anticipated that their family that were living there were going 
to be in harm's way.
    So I decided to load up my little Suburban with a couple 
generators, some water, some things that I thought may be a 
challenge to pick up in Mississippi or Louisiana, drove cross-
country, called my office early Sunday morning and ask them to 
overnight a satellite phone to me so it would be in Dallas by 
the time I got there.
    Well, to make a long story short, I was called by a friend 
that anticipated help, and I got to the beach in Mississippi, I 
believe, early Wednesday morning. Had picked up a U-Haul in 
Louisiana on the way and loaded it with water from our friends 
at Wal-Mart. I am troubled. Having been a mayor, a city 
councilman for almost 10 years of a small community, but also a 
State senator for 8, and now in Congress for two terms, I am 
troubled that I was the first responder on the beach 2,500 
miles away.
    And I am not telling this story because of what I was able 
to do because a friend asked me. I think you probably would all 
do the same if a friend called you up and said I think I am 
going to have a problem. So it is nothing to do with my driving 
there, other than I don't really understand how I can drive in 
my little Suburban, with a U-Haul trailer 2,500 miles, and be 
the first person on the beach, and to be the first human that 
was seen on that beach, other than neighbors that were still 
alive and still well.
    And I am the first one to agree that we have very serious 
problems and the system is broken. And I know that we have 
members of this committee that have served as a mayor. I know 
Mr. Turner was a mayor of a community, Mr. Ruppersberger also 
represented local government. We have a lot of folks on this 
committee.
    But my perspective is that I think the most frightening 
part of what we are seeing today is that local, State, and 
Federal Government think and thought they were prepared. And I 
know we have a lot of experts here today that are going to talk 
about their experiences, but I question whether we have 
communications in this country where one city can talk to 
another city, or one firefighter can talk to a policeman, or a 
policeman can talk to a highway patrolman, or where a highway 
patrolman can talk to the National Guard. Some basic principles 
I don't believe are in place today.
    I am sure we have experts here that will talk about their 
communities, but is there any local agreements between 
Washington, DC, and Baltimore if there is a problem? I don't 
know. I expect that we are going to have that opportunity.
    But there are a lot of things happening beyond my fear that 
local, State, and Federal Government think they are prepared, 
and that is the hurricane and political destruction that is 
happening in the city. Literally, I am on the beach--and my 
friends, by the way, one home was totally gone, one home was 
under 6 feet of water, and another home was OK in Picayune.
    I am listening to my satellite radio to the news, and I 
hear politicians in Washington already blaming, while we are 
still rescuing people in New Orleans. And I am looking around 
thinking why isn't there a bottle of water here, a semi load of 
water coming from another city.
    Why isn't another community, through the National League of 
Cities or the National League of Counties or whoever, why are 
we not seeing a semi load of water? I drove 2,500 miles. I had 
a friend bring in 400 gallons of gas from California. He flew 
in to Arkansas, rented a truck. This was Saturday. He showed up 
with gasoline. He is from California.
    Now, again, I have served local government. I appreciate 
and respect that we have professionals out there that really 
believe that they are doing the right thing and that they have 
a system in place. But as this city is having its own hurricane 
of trying to get a one-upmanship on who is going to take the 
high road, it is going to be up to you, local government, to 
cut through all this.
    Chairman Tom Davis. Thank you.
    Mr. Porter. Because we have our own destruction happening 
in Washington that is not productive.
    Chairman Tom Davis. Thank you.
    Mr. Porter. So I thank you for being here. There are a lot 
of things we can do together if we do it together. So I thank 
you very much.
    Chairman Tom Davis. Thank you.
    Mr. Gutknecht. Anyone else? Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman. A couple of brief 
points. First, I would like to build on Mr. Porter's point. I 
have had the opportunity, because we have had so many long 
statements, to basically read all of your opening statements, 
and one of my concerns is not that the paper plans aren't 
there.
    I am a senior member of Homeland Security, I chair the 
Narcotics Committee. I have been to Los Angeles and Miami in 
with your port facilities, in with your police people. It is a 
lot of the same old, same old. I hope we hear, at least in the 
question part, what did you learn, what are the differences? 
Because most of you are still saying we have interoperability 
problems with our radios, that is a goal; we hope we have plans 
to evacuate low income.
    The massiveness of this stunned us all, and it should be 
forcing you to reevaluate everything we have for major 
catastrophic type of plans. Clearly, New Orleans did not have a 
command and control center. And while there are multiple 
command and control centers, many of them are fairly archaic in 
our different cities, and they don't interact between the 
different centers. And are those protected if there is a 
catastrophic event? Is there a way to have it mobile enough for 
a backup system? I hope we will hear some of those kinds of 
questions today. And as we build it, because without command 
and control, this simply isn't going to work.
    Another question is I didn't see anything in my cursory 
examination of all of the testimony today, but clearly one of 
the things that is happening is the volunteers and charitable 
organizations have to be an integral part--not just an add-on, 
an integral part--of rescue efforts and assistance efforts. And 
we have had chaos up and down this region of people being 
turned away, of EMS people moving from four different places 
and only dealing with one person. Because the American people 
will do this, and clearly if we had multiple disasters 
simultaneously, we don't have the tax dollars to do it. This is 
going to strain our budget. We have to have the charitable and 
volunteer organizations as an integral part.
    I think another key, fundamental question is--and it has 
been raised several times. The New York Times, I believe, 
reported that the Governor turned down the Department of 
Defense taking over operations. At what catastrophic level do 
you say, look, our police system is wiped out, our systems are 
out, there has to be a command and control system because we 
don't have it? And that is a politically loaded question, but 
when we, as the Federal Government, already put $60 billion in 
down there, and looking at another $200 billion, at some point 
we are responsible for those tax dollars.
    And the question is when does command and control shift in 
authority. Those are very difficult questions, but I think some 
that we are hoping to hear, those of you who are now some of 
our most critical and at-risk areas of the country, to say what 
are you learning from this; how can we prepare when it is this 
level of catastrophe that is the biggest we have ever seen, 
similar to that, and then kind of mid-level, and then kind of 
the day-to-day more likely targeted neighborhood catastrophe or 
part of a downtown area type of catastrophe, which most of our 
plans are designed for.
    I yield back.
    Chairman Tom Davis. Thank you very much.
    Mr. Cummings, last but not least. Thank you.
    Mr. Cummings. Thank you very much, Mr. Chairman. Mr. 
Chairman, I want to thank you for calling this critically 
important hearing to assess the local emergency response plans 
to natural disasters at major U.S. cities.
    While today's hearing presents us with the opportunity to 
look at the road ahead let us not lose sight of the failure of 
all--all--levels of government staring at us in the rearview 
mirror.
    However, one need not be an expert to understand that 
national disasters of the scope and magnitude of Hurricane 
Katrina demand national leadership and resources that only the 
Federal Government can provide. Although we are reading from 
the right book with today's hearing, our focus should first be 
on a different page, one that directly asks the question what 
went wrong and why it went wrong in response to the Federal 
Government in the wake of Hurricane Katrina.
    In the uncertain times immediately following a disaster, 
our citizens expect to find comfort in the certainty that their 
government will respond rapidly, decisively, and ably to meet 
their essential needs for food, water, shelter, and security. 
Regrettably, the American people's faith in that certainty has 
been shaken.
    The inattention, inaction, and ineptitude that 
characterized the Federal response to Hurricane Katrina gave 
way to disbelief as the images of American citizens--not 
refugees--struggling for their very survival filled our homes 
and our hearts with the same shame and grief. Americans from 
all walks of life are asking why so many of their fellow 
citizens were abandoned for 4 days without food or water; why 
the dead lay disregarded under the sweltering sun for days 
without the dignity of a proper burial; and why so many 
needlessly died and suffered because vital relief was slow to 
arrive.
    Mr. Chairman, the American people are also asking what if 
Katrina had been an act of terrorism. Four years after the 
attacks of September 11th, Hurricane Katrina demonstrated with 
abundant clarity that there is much work yet to be done to 
improve our national preparedness for both threats of human 
design and acts of nature.
    In clear and plain terms, the vulnerability that confronts 
all levels of government today is in part the result of poor 
choices that were made within the administration and the 
Congress. These policy choices not only hinder Federal response 
efforts, but they can undermine State and local plans to 
protect their communities. Let us keep in mind that while we do 
not have control over nature, we do have control over the 
policy choices that determine our capacity to lessen the impact 
of nature's mighty blows.
    For instance, the inclusion of FEMA within the Department 
of Homeland Security, coupled with funding cuts, seems to have 
weakened FEMA's ability to manage Federal emergency response 
and assist State and local governments in their disaster 
preparation and recovery efforts. I am not less troubled by the 
reduction of Federal funding for certain public works projects 
that are critical to safeguarding State and local communities.
    For example, and as I close, we must determine the extent 
to which an approximate 40 percent funding decrease between 
2001 through 2005 for maintenance and repair projects for the 
New Orleans levy system contributed to the severity of the 
flooding. So too must we ask are we shortchanging other high-
risk communities?
    I am also concerned with the administration's continued 
application of a flawed contracting strategy. As it now stands, 
the $62 billion of taxpayer money that Congress has dedicated 
for emergency recovery efforts to Katrina is veering 
dangerously close to being subject to waste, fraud, and abuse.
    Further, it seems contrary to common sense that while many 
of the displaced look for work, our contracting efforts have 
not sufficiently utilized the potential to employ them. The 
lack of substantive involvement of small businesses of all 
types, including those owned by women and people of color, in 
the recovery effort seems just as troublesome.
    In the end, let us collectively seize the opportunity to 
not only right the wrongs of emergency mismanagement that were 
so painfully illustrated during and after Hurricane Katrina, 
but the wrong of poverty that forces upwards of 37 million 
Americans to routinely weather the storms of failing schools, 
poor health care, and limited opportunities.
    And with that, Mr. Chairman, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T4205.164

[GRAPHIC] [TIFF OMITTED] T4205.165

    Chairman Tom Davis. Thank you very much.
    Any other Members wish to make statements?
    [No response.]
    Chairman Tom Davis. If not, let me thank our panel for 
their perseverance through this. We are delighted to have you 
today. Our panel will consist of the Honorable Mark Morial, who 
is going to come and has a short timeframe. He is not here 
right now. He is the former mayor of New Orleans and the chief 
executive officer and president of the National Urban League.
    We have Constance Perett, who is the administrator, Office 
of Emergency Management, the county of Los Angeles; Mr. Ellis 
Stanley, the manager of Emergency Preparedness Department, city 
of Los Angeles; Mr. Robert Bobb, the deputy mayor and the city 
administrator for the District of Columbia; Mr. David 
Robertson, the executive director from the Metropolitan 
Washington Council of Governments; Mr. Tony Carper, Jr., the 
director of the Broward Emergency Management Agency, who has 
been introduced by Mr. Shaw; and Chief Carlos Castillo, the 
director of Miami-Dade County Office of Emergency Management.
    It is our policy to swear you in before your testimony, so 
if you would just rise and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much for being with us. 
And although a lot of Members have spoken and left, we still 
have a lot of Members here to hear what you have to say. We 
think it is important.
    I am going to start with you, Ms. Perett, and move straight 
on down. When Mr. Morial comes, I will swear him in immediately 
and go to his testimony. We may also have votes in the middle 
of this, but so far we have not.
    Please proceed. Thank you.

   STATEMENTS OF CONSTANCE PERETT, ADMINISTRATOR, OFFICE OF 
EMERGENCY MANAGEMENT, COUNTY OF LOS ANGELES, CA; ELLIS STANLEY, 
GENERAL MANAGER, EMERGENCY PREPAREDNESS DEPARTMENT, CITY OF LOS 
 ANGELES, CA; ROBERT C. BOBB, CITY ADMINISTRATOR, DISTRICT OF 
COLUMBIA; DAVID J. ROBERTSON, EXECUTIVE DIRECTOR, METROPOLITAN 
WASHINGTON COUNCIL OF GOVERNMENTS; TONY CARPER, JR., DIRECTOR, 
BROWARD EMERGENCY MANAGEMENT AGENCY, BROWARD COUNTY, FL; CHIEF 
    CARLOS CASTILLO, DIRECTOR, MIAMI-DADE COUNTY OFFICE OF 
 EMERGENCY MANAGEMENT, MIAMI-DADE COUNTY, FL; AND MARC MORIAL, 
 PRESIDENT AND CHIEF EXECUTIVE OFFICER, NATIONAL URBAN LEAGUE, 
             INC., FORMER MAYOR OF NEW ORLEANS, LA

                 STATEMENT OF CONSTANCE PERETT

    Ms. Perett. Thank you very much, Mr. Chairman, and 
honorable committee members. On behalf of the Los Angeles 
County Board of Supervisors and our chair, Supervisor Gloria 
Melina, I want to thank you for allowing me to come and talk to 
you about some issues that are of great concern to all of us.
    You have my statement, so I am not going to belabor our 
preparedness. I am going to touch on a couple of highlights and 
then I am going to talk about some recommendations.
    Los Angeles County is no stranger to disasters. I lost 
count a long time ago. I have been an emergency manager for 21 
years, and we have had so many disasters that I really cannot 
remember them all. During the 1990's we had 10 federally 
declared disasters in a 10-year period. We call it the decade 
of disasters.
    We have been very aggressive in preparing for disasters 
because we must. We are large, we are vast, we have 10 million 
people, very diverse. We have 88 cities, independent cities, 
and 137 named unincorporated areas in our county, and it is 
very complex. Multiple languages spoken, and we really have to 
have our act together.
    We do this under the Standardized Emergency Management 
System, which was chartered into law in 1995. It is an 
excellent system. It is based on incident command. We swear by 
it. We are able to coordinate very effectively. You see Ellis 
Stanley sitting beside me here. We work on a daily basis 
together with the city of Los Angeles, with our other 88 
cities, and with our State partners.
    I want to emphasize how critical coordination is. We have 
public education programs; we have a state-of-the-art emergency 
operation center, and I don't see how any jurisdiction can 
operate without a state-of-the-art emergency operation center. 
I don't know how they can do their job.
    Let me move to some recommendations, if I may. They are not 
in any particular order, I just wrote them down as I listened 
to you and I thought about things.
    First of all, I believe that more resources absolutely need 
to be directed to the local level. You hear the expression that 
all disasters are local. Well, they are; they start in 
somebody's backyard. So local government needs the resources to 
be prepared. Many jurisdictions have one person doing emergency 
management, and maybe they have two or three other collateral 
jobs. You cannot get this job done if you are not devoting the 
resources to it.
    You need to emphasize mutual aid, because when you see a 
large-scale event, nobody is an island; they can't do this 
alone. Mutual aid needs to be strengthened throughout the 
United States.
    You need to also have strong State partners. We have that 
in California and we believe that it is critical across the 
Nation.
    I would like to see more focus on funding for the Emergency 
Management Performance Grant Program. That is the lifeblood of 
emergency managers. And just to say, first responders are 
critical, but first responders do not do the global overview of 
coordination and preparedness for disasters. You need to put 
funding into that if you want to see a coordinated, well 
planned and organized response.
    I would like to talk about FEMA and say to you that I 
believe with all of my heart that FEMA needs to be a standalone 
organization, it needs to be reporting to the President, and it 
needs to be cabinet level status. This is not a time for going 
through layers of bureaucracy, when you have to move fast and 
be nimble; it is too important. It is way too important for it 
to be buried in a large organization.
    I believe that FEMA needs some well defined protocols for 
how it is going to provide resources at the State and local 
level. I believe that, again, is an issue of coordination in 
advance and understanding when resource is coming, how do you 
receive them, how do you put them to use. It does no good to 
have the finest resources in the world if you don't know how to 
put them on the ground and people understand how to use them.
    I believe from a local level you need to engage your 
community-based and faith-based organizations. It is critical. 
They are actually the first on the street helping the public 
when something goes wrong. They are there handing out blankets 
and food and water, and they should be an integral part of any 
jurisdiction's preparedness plans. And I believe they should be 
getting some Federal support for what they do. They rely on 
donations, and when their regular stock of donations is 
depleted, where are they going to get the funds?
    It looks like I am running out of time.
    Let me also put emphasis on public education and the 
understanding that people have to know how to take care of 
themselves for a period of time, because government cannot do 
all these things for them.
    And I believe I am out of time, and I thank you very much 
for your attention.
    [The prepared statement of Ms. Perett follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.065
    
    [GRAPHIC] [TIFF OMITTED] T4205.066
    
    [GRAPHIC] [TIFF OMITTED] T4205.067
    
    [GRAPHIC] [TIFF OMITTED] T4205.068
    
    [GRAPHIC] [TIFF OMITTED] T4205.069
    
    [GRAPHIC] [TIFF OMITTED] T4205.070
    
    [GRAPHIC] [TIFF OMITTED] T4205.071
    
    [GRAPHIC] [TIFF OMITTED] T4205.072
    
    Chairman Tom Davis. Thank you very much for your testimony.
    Mr. Stanley.

                   STATEMENT OF ELLIS STANLEY

    Mr. Stanley. Thank you, Mr. Chairman. I thank you for the 
opportunity to appear before you today. And to all of our 
representatives from the great State of California, thank you 
too for your support over the years and making sure that we 
continue to have a very aggressive emergency management 
philosophy not only in the city and the county, but in the 
State of California.
    I do think that there can be some lessons learned. Somebody 
a lot smarter than me once said, ``if we fail to learn from the 
failures of the past, we are doomed to repeat them,'' George 
Santayana. And I think that we have to take advantage of all 
the opportunities that we have to learn lessons from the 
misfortunes that we have seen around the world and now on our 
own soil with Hurricane Katrina.
    On behalf of our new mayor, Antonio Villaraigosa, I thank 
you for allowing us to be part of this as well.
    It is important that you understand part of my background 
over the past 30 years started out in North Carolina as an 
emergency manager down on the coast of North Carolina, in 
Brunswick County, then moved to a larger jurisdiction in the 
triangle area of Durham, NC, then to Atlanta, GA for several 
years, and now in the city of Los Angeles, the second largest 
city in the country; 10 million people in the county, 4 million 
people in the city, 15 million people in the greater 
metropolitan area.
    That is only important because as Ms. Perett indicated, all 
disasters are local, and it is important that we start 
preparing at the local level. And on behalf of all of the 
finest, bravest, and best first responders in the country, we 
look at also the individuals, ensuring that we push 
preparedness down to the local level. We understand that when 
you talk about volunteer organizations, when you talk about 
private sector, when you talk about other not-for-profits, they 
have a role and responsibility, and it is important that we 
incorporate them into the planning process at the table before, 
during, and after emergencies.
    I have not been to the Gulf Coast States yet; however, 
during the days of its making landfall, I was in the command 
center of the Emergency Management Assistance Compact [EMAC], a 
compact of which all 50 States come together to look at what 
resources and how they can get them into the affected area. 
Fifty States that have resources, both hard resources and 
technical expertise.
    Our city and our community was one of the first to send 
urban search and rescue, to send swift water rescue, to make 
sure that they were on the ground very quick, very well 
trained, very well equipped to assist in this response. So we 
did learn lessons from that perspective.
    The other thing that we are doing or we are taking the 
opportunity to is look at the implications and the impact of 
standards. What are the standards around the Nation that all 
cities--whether it is a smaller jurisdiction that I worked in 
or now one of the largest jurisdictions--what standards are 
needed to make sure that we all are singing off the same sheet 
of paper that you, as elected officials, that my local elected 
officials, that the State elected officials understand how they 
measure preparedness in their community.
    The Congress has a tremendous role, as Ms. Perett 
indicated, the Emergency Management Performance Grants, where 
you could assure that every community, every community in this 
Nation has a trained professional emergency manager in that 
community. The Emergency Management Accreditation Program is a 
good tool, and we will be going through that program in Los 
Angeles to have an outside assessment; not what Ellis Stanley 
says, as the emergency manager, is our capability, but what an 
independent peer review can come in and make that assessment 
and look at it.
    We are doing that now in the capital region area, the 
Council of Governments, from a regional perspective, because we 
realize, even though it is local, we are not in this by 
ourselves; it impacts more than just our borders, and it is 
important that we work very comprehensively and very 
collaboratively with everyone else that we work with in 
disasters.
    We have a regular meeting of the minds, I dare say, with 
some of our larger cities: New York, Chicago, the District of 
Columbia, San Francisco, Miami, and Los Angeles. We meet 
regularly just to talk about what trends are happening, what 
things are going on; how are we now reaching a good public 
education program in our communities to help.
    My time is up, and I thank you so much for yours.
    [The prepared statement of Mr. Stanley follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.073
    
    [GRAPHIC] [TIFF OMITTED] T4205.074
    
    [GRAPHIC] [TIFF OMITTED] T4205.075
    
    [GRAPHIC] [TIFF OMITTED] T4205.076
    
    [GRAPHIC] [TIFF OMITTED] T4205.077
    
    [GRAPHIC] [TIFF OMITTED] T4205.078
    
    [GRAPHIC] [TIFF OMITTED] T4205.079
    
    Chairman Tom Davis. Thank you very much.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. I would like to 
introduce the next witness. The next witness, Administrator 
Robert Bobb, is the administrator for the District of Columbia, 
and I can understand why the chairman called him. It is not 
simply because he is a neighbor, it is because of his national 
reputation for managing tough situations, including tough 
cities.
    I am very pleased that Mr. Bobb has been called here today. 
He is the go-to man in the District if you want to get 
something done. I want to simply let every one of my members 
know that Mr. Bobb is overseeing the work that the District is 
now doing with 300 evacuees from New Orleans that the city 
brought up and has now at the D.C. National Armory. I want to 
thank him for that work and welcome him to this hearing, Mr. 
Bobb.
    Chairman Tom Davis. Thank you very much.
    Mr. Bobb, thank you for being here and thanks for the job 
you are doing.

                  STATEMENT OF ROBERT C. BOBB

    Mr. Bobb. Thank you very much, Mr. Chairman and Mr. Ranking 
Member and members of the committee. Thank you for this 
opportunity to appear today to discuss emergency preparedness 
in the District and some initial lessons learned from Katrina.
    My name is Robert C. Bobb, and I am the deputy mayor/city 
administrator of the District of Columbia. And as we sit here 
today, we are hosting over 300 evacuees from the city of New 
Orleans, as well as the Gulf Coast area, as well as the 
National Capital Region is hosting over 3,000 evacuees.
    But before I begin, I would like to take this opportunity 
on behalf of Mayor Anthony Williams, the people of the District 
of Columbia, and the people of the National Capital Region to 
express our deepest sympathy and commitment to continued 
support and foremost consideration in our thoughts and prayers 
of the people of the Gulf Coast who have been affected by this 
tragedy. I am myself a survivor of Gulf Coast hurricanes as a 
native Louisianian, and I know the horrors firsthand of the 
devastation that they can bring to individuals and families.
    The initial lessons that we have learned from the Katrina 
incident, and while we have a high level of confidence in the 
District and the National Capital Region in our ability to 
manage a major event, be it of natural or manmade cause, 
nevertheless, as a result of the insights we are getting from 
Katrina, even while events are still unfolding in the Gulf 
Coast, we are taking a hard look at our plans and capabilities, 
and the assumptions that underlie them.
    The first major area we are reviewing is evacuation. The 
District has a disaster evacuation plan. We have designated 
evacuation routes, variable message signage, signal timing 
algorithms, buses for those without cars, and other aspects of 
traffic management in place to enable evacuation. And we have 
tested some of these elements to various degrees, most recently 
during the July 4th fireworks. But the tragic events of 
Katrina, especially as it relates to those who choose not to or 
were unable to evacuate have forced us to challenge some of the 
assumptions of our evacuation plans.
    Our ultimate goal is to have a workable plan in place to 
evacuate the entire District of Columbia in the unlikely event 
that such need arises. Although we recently funded a regional 
walkout plan, our evacuation planning is heavily automobile-
based.
    We are now analyzing census data and information from our 
Department of Motor Vehicles to determine what areas in the 
District have high concentration of residents without cars. We 
will adjust our plans for the use and deployment of buses based 
on this analysis. We will also integrate other options such as 
water-based transport into our evacuation planning.
    Most importantly, we will much more specifically tailor our 
emergency preparedness, training and education to address 
neighborhood-specific issues so that individuals understand 
explicitly what they need to do in the face of an evacuation of 
their neighborhood.
    We will also work more closely with the National 
Organization of Disabilities and our Disability Preparedness 
Center, as well as other residents with special needs and the 
organizations that serve them, to ensure our evacuation 
planning is practical and makes sense for all District 
residents. We will review plans for nursing homes, hospitals, 
jails, halfway houses, and group homes to ensure that no one is 
left behind.
    Another area of major review will be our sheltering 
capacity and planning. We currently have plans in place that 
would enable sheltering a portion of the District's nighttime 
population. But based on our own experience with sheltering 
Katrina evacuees at the D.C. Armory, there are a number of 
small but important logistical issues we will have to work 
through that will improve future sheltering operations.
    We have worked hard since September 11th to improve our 
communications capabilities within and across governments and 
between governments and residents. We have achieved voice 
interoperability for first responders across the region and are 
developing full data interoperability, and we now have a 
regional alert notification system. But Katrina emphasized the 
importance of robustness and redundancy of communication 
systems, as well as their vulnerability, during a massive 
event.
    We are also doubling our efforts to sign up residents and 
the business community for our alert systems, and we are 
reviewing our capabilities for communications among second 
responders and support personnel.
    [The prepared statement of Mr. Bobb follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.080
    
    [GRAPHIC] [TIFF OMITTED] T4205.081
    
    [GRAPHIC] [TIFF OMITTED] T4205.082
    
    [GRAPHIC] [TIFF OMITTED] T4205.083
    
    [GRAPHIC] [TIFF OMITTED] T4205.084
    
    [GRAPHIC] [TIFF OMITTED] T4205.085
    
    [GRAPHIC] [TIFF OMITTED] T4205.086
    
    [GRAPHIC] [TIFF OMITTED] T4205.087
    
    [GRAPHIC] [TIFF OMITTED] T4205.088
    
    [GRAPHIC] [TIFF OMITTED] T4205.089
    
    [GRAPHIC] [TIFF OMITTED] T4205.090
    
    [GRAPHIC] [TIFF OMITTED] T4205.091
    
    [GRAPHIC] [TIFF OMITTED] T4205.092
    
    [GRAPHIC] [TIFF OMITTED] T4205.093
    
    [GRAPHIC] [TIFF OMITTED] T4205.094
    
    [GRAPHIC] [TIFF OMITTED] T4205.095
    
    [GRAPHIC] [TIFF OMITTED] T4205.096
    
    [GRAPHIC] [TIFF OMITTED] T4205.097
    
    Mr. Shays [presiding]. Thank you, Mr. Bobb.
    The Chair would recognize Mr. Robertson.

                STATEMENT OF DAVID J. ROBERTSON

    Mr. Robertson. Thank you, Mr. Chairman and members of the 
committee. I am David Robertson, executive director of the 
Metropolitan Washington Council of Governments.
    And if I had just one message for the committee this 
afternoon, it would be that any significant emergency in any 
one city or county quickly becomes a regional emergency 
requiring a coordinated response.
    In the Washington metropolitan area, we have worked very 
hard to do just that. On many levels we certainly believe that 
we are better prepared, but certainly there is more to do.
    In the aftermath of Katrina, it doesn't mean that we need 
to abandon the good work and the planning to date, but evaluate 
that work against new scenarios and a higher standard of 
preparedness and response. To that end, the Council of 
Governments Board of Directors, at the initial request of 
Montgomery County Executive Doug Duncan and other top elected 
officials, agreed to reexamine the extensive emergency planning 
that we have done over the past several years in light of the 
response to Katrina.
    This is not the first time that our region has stepped 
forward together to work on an issue of this magnitude. 
Certainly the terrorist attacks of September 11th caused 
significant reexamination of all plans at all levels--State, 
local, Federal, and regional. What we have done since that date 
certainly holds up, I think, to the standards that the Congress 
and the public have put forward. But more needs to be done.
    We have put forward a Regional Coordination Plan. We think 
that is important, as some of the other witnesses have said. 
Jurisdictions will have to rely on each other in terms of 
mutual aid, as well as look to State, Federal, and other assets 
in the event of a catastrophic emergency.
    We have also put in place communication mechanisms that 
allow elected officials, key decisionmakers, and others to 
communicate on a real-time basis in the event of an emergency. 
And we have built in redundant capacity to that system, with 
sites in the District of Columbia, Maryland, and Virginia.
    Much of this is overseen by a Regional Preparedness Council 
that is hosted and staffed by the Council of Governments. It 
has extensive representation not only of local, State, and 
Federal officials, but the all-important private and non-profit 
communities as well.
    We have excellent relationships at the tri-State level, 
with the mayor and the two Governors providing tremendous 
leadership on homeland security in this region, and we are the 
only region in the country to have a special Federal office 
within DHS, the Office of National Capital Region Coordination, 
that is a partner.
    How have our plans worked? Certainly in the area of 
Hurricane Isabel, we fared fairly well. But as has been pointed 
out in this room previously, the tractor man incident showed 
the limitations of communication.
    Where are we going now for the Council of Governments and 
for our partners? We found a number of areas where we think 
there are areas of improvement that are warranted. Certainly, 
we need to reevaluate the plans to incorporate the lessons of 
Katrina. Those lessons will unfold in the weeks and months 
ahead, and we don't want to rush to judgment because more will 
be found out later as additional information comes forward.
    We need to better understand how mutual aid and State and 
Federal assets are applied to our unique region. We need to 
first--as some of the other witnesses have talked about--rely 
on each other first, apply State and Federal aid when it is 
necessary, and make sure that, as a region, that no one is left 
behind.
    We also need to look at coordinated public information 
system. I think one of the areas that has been most eroded 
throughout the country is the ability to communicate quickly 
and clearly with citizens. It is not going to be enough just to 
make sure that the decisionmakers are coordinated. We have to 
make sure that the citizen expectations are out there as well, 
and that we have provided coordinated information to them.
    We also need to examine the needs of special populations. 
Certainly those individuals that lack public transit are 
important, but there are a lot of other folks--the elderly and 
people that may be in universities or visitors to our region. 
That is going to be very important.
    The Council of Governments will accomplish, not by its own, 
but by working in partnership with State and local governments, 
the nonprofit and business community sectors, all around one 
table, sleeves rolled up, working together to make sure that we 
have the best prepared region in the Nation. The American 
people expect nothing less. Our citizens and visitors expect 
nothing less. And our elected officials have tasked this 
organization, the Council of Governments, with advancing this 
work program.
    Thank you.
    [The prepared statement of Mr. Robertson follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.098
    
    [GRAPHIC] [TIFF OMITTED] T4205.099
    
    [GRAPHIC] [TIFF OMITTED] T4205.100
    
    [GRAPHIC] [TIFF OMITTED] T4205.101
    
    [GRAPHIC] [TIFF OMITTED] T4205.102
    
    [GRAPHIC] [TIFF OMITTED] T4205.103
    
    [GRAPHIC] [TIFF OMITTED] T4205.104
    
    [GRAPHIC] [TIFF OMITTED] T4205.105
    
    [GRAPHIC] [TIFF OMITTED] T4205.106
    
    Mr. Shays. Thank you, Mr. Robertson.
    Mr. Carper.

                 STATEMENT OF TONY CARPER, JR.

    Mr. Carper. Thank you, Mr. Chairman. Good afternoon to you, 
Mr. Chairman and Ranking Member Waxman and other honorable 
committee members. Thank you for the opportunity to speak with 
you today on this important subject.
    I would also like to thank Congressman Shaw for his kind 
introduction to the committee.
    I am the director of emergency management for Broward 
County, FL. This is a jurisdiction in south Florida composed of 
the great Fort Lauderdale area. We are a very diverse community 
of 1.7 million residents and millions more visitors annually.
    I have been Director in Broward County since 1993, and 
before that had 13 years of serving Brevard County, FL. This is 
over 25 years in dealing with emergencies in my State.
    Since 1995, Broward County has declared 14 states of 
emergency due to hurricanes, tornadoes, floods, and wildfires. 
During emergency situations, our county charter and State 
statute provide that our mayor and county manager have command 
and control authority of the situation.
    With the resources we have available, local efforts are 
geared toward holding the line until outside resources arrive. 
The bottom line is that catastrophic emergencies, whether they 
be instigated by terrorism or natural events, quickly overwhelm 
the resources of local and State governments. There is and 
always will be a requirement for an effective national response 
system to handle these types of events. However, adequate 
emergency planning by any local community is vital for the 
successful utilization of this assistance.
    Emergency planning in Broward County is contained in the 
Broward County Emergency Operations Plan. The plan is based on 
the principle that local governments bear the initial 
responsibility for response to any emergency. As a corollary to 
this principle, each level of government accomplishes the 
functions for which it is responsible, requesting assistance 
from the next higher level of government only after resources 
at that level are clearly inadequate to cope with the effects 
of the situation.
    Florida Statute Chapter 252, the State Emergency Management 
Act, requires that political subdivisions develop emergency 
plans which are consistent and coordinated with the emergency 
planning of State government. This Comprehensive Emergency 
Operations Plan fulfills that requirement and establishes a 
framework through which governments and agencies of Broward 
County will prepare for and respond to and recovery from and 
mitigate the impacts of a major or catastrophic emergency.
    The plan is strategically oriented and addresses the 
operational concepts and responsibilities of coordinated county 
emergency response, relief, and recovery. The plan describes 
the basic strategies, assumptions, and mechanisms through which 
the county governments and agencies will mobilize resources and 
conduct activities to guide and support their efforts.
    This plan is based on certain assumptions and the existence 
of specific resources and capabilities. Actual measures taken 
by Broward County to respond to each situation are tailored to 
each emergency. As such, a great deal of flexibility is built 
into the implementation of the plan. The bottom line is that 
our plan establishes the organizational concepts for an 
effective system of comprehensive emergency management which 
can respond to any type of emergency.
    Our plan makes the following basic assumptions: First, that 
the concept of operations outlined in this plan assumes that a 
major catastrophic event has occurred and immediate 
mobilization of emergency response forces are needed.
    The Broward County Emergency Operations Center will be 
activated and the State Emergency Operations Center will be 
activated to support our operations.
    The Governor of the State of Florida will request 
activation of the National Response Plan and Federal resources, 
coordinated through FEMA and the State, will be deployed to 
effective areas to provide assistance to local governments.
    The magnitude of the emergency may be such that effective 
emergency response and recovery may be beyond the capability of 
the county and its municipalities. If this is the case, it is 
assumed that State assistance will be requested. If the 
situation is beyond the capability of the county and State 
resources to manage, the Governor will request Federal disaster 
assistance.
    It is assumed that in addition to State and perhaps Federal 
assistance, prompt and effective emergency response will 
require mutual aid from other political jurisdictions 
throughout the State.
    One very important assumption--and I can't stress this 
enough--is that during a major and catastrophic emergency, the 
Federal Emergency Management Agency will immediately task 
Department of Defense assets for immediate response for the 
emergency effort.
    During major and catastrophic events, our plan is intended 
to serve as the basis to provide support and assistance to our 
communities. It also provides the mechanism to receive and 
organize State and Federal relief efforts.
    The bottom line is that it is imperative that these 
activities commence immediately and expeditiously.
    Finally, we know disasters will strike. No matter how 
prepared we are, we know people will be hurt. And that means 
that an ongoing commitment to continually improve response and 
recovery is very important, and we are committed to doing this.
    Thank you very much for the opportunity.
    [The prepared statement of Mr. Carper follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.107
    
    [GRAPHIC] [TIFF OMITTED] T4205.108
    
    [GRAPHIC] [TIFF OMITTED] T4205.109
    
    [GRAPHIC] [TIFF OMITTED] T4205.110
    
    [GRAPHIC] [TIFF OMITTED] T4205.111
    
    [GRAPHIC] [TIFF OMITTED] T4205.112
    
    [GRAPHIC] [TIFF OMITTED] T4205.113
    
    [GRAPHIC] [TIFF OMITTED] T4205.114
    
    [GRAPHIC] [TIFF OMITTED] T4205.115
    
    [GRAPHIC] [TIFF OMITTED] T4205.116
    
    [GRAPHIC] [TIFF OMITTED] T4205.117
    
    Mr. Shays. Thank you very much, Mr. Carper.
    Chief Castillo.

               STATEMENT OF CHIEF CARLOS CASTILLO

    Mr. Castillo. Good afternoon, Mr. Chairman and members. My 
name is Carlos Castillo. I am the director of the Miami-Dade 
County Office of Emergency Management. Thank you for this 
opportunity to share Miami-Dade County's experience. I am 
especially proud to present before our own Member of Congress, 
Ileana Ros-Lehtinen.
    I am joined today by Miami-Dade Police Chief Robert Parker; 
assistant county manager for public safety, Susanne Torriente; 
chief of staff to Mayor Carlos Alvarez, Denis Morales; and Eric 
Olafson from the Board of County Commissioners' Office of 
Intergovernmental Affairs.
    Miami-Dade County spans over 2,000 square miles, hosts a 
major airport, Florida's largest seaport, a nuclear power 
plant, and has a resident population of 2.5 million people. The 
county has identified 18 potential hazard areas that could 
impact our community at any time. Therefore, our Comprehensive 
Emergency Management Plan encompasses an all hazards approach 
to prepare and protect our community. My comments today will 
focus on the impact of hurricanes.
    We have been recognized as a leader in emergency management 
from the unified message delivered by our elected officials in 
times of crisis to our facilities and staff experience. 
Following Hurricane Katrina's impact, FEMA and State assessment 
teams remarked how quickly roads were opened, debris was 
cleared, power was restored, and a preliminary damage 
assessment process was begun in Miami-Dade. We have had some 
practice. Last year Miami-Dade County activated its Emergency 
Operations Center four times for hurricanes in 6 weeks. We have 
activated for Dennis and Katrina so far this season.
    Our foreign and domestic disaster response experiences 
helped prepared us for Hurricane Andrew in 1992, one of only 
three Category 5 hurricanes to ever hit the United States. But 
there was much to learn, and Fire Chief David Paulison made 
sure that we did. As a county, we were on our own for what 
seemed like an eternity.
    We accepted this reality. We must be prepared to be on our 
own for the first 24 to 72 hours following a major hurricane. 
The fact remains that all disasters are local, and long after 
resources have left, the disaster remains local. This doesn't 
mean that we don't need assistance for any event that may 
overwhelm our local resources; clearly, we will.
    It is clear that the only way to ensure the prompt, 
coordinated response our community deserves is to develop 
preparedness partnerships with governmental agencies, private 
volunteer organizations, non-profits, and most importantly, our 
2.5 million residents. Hurricane preparedness is everyone's 
responsibility. Clearly, there are different capabilities 
throughout the country. These differences should be considered 
when the Federal Government responds to assist.
    So what have we learned? One of the successes during 
Hurricane Andrew was the implementation of the Incident Command 
System. This enabled us to effectively manage the resources we 
had and were receiving. We continue to train and expand our use 
of the National Incident Management System, a proven management 
tool that has been practiced for many years.
    It became apparent during Hurricane Andrew that accurate 
and timely information flow was not occurring in the manner 
needed. As a result, Miami-Dade developed the Divisional 
Emergency Operations Center concept that divides 30 
municipalities into a manageable span of control, one of the 
basic tenets of incident management.
    One of the hardest lessons learned was our assumption that 
by not hearing from parts of the county, they had sustained 
little or no damage. The reality was that the southern end of 
Miami-Dade was essentially gone. Out of that came Snapshot, a 
preliminary damage assessment tool which provides an immediate 
picture of which areas are most severely affected, allowing us 
to mobilize resources and focus on more definitive assessments 
and needs analyses.
    Following Andrew, Miami-Dade County took full advantage of 
the Federal Government's mitigation program. We believe this 
funding source is critical in preventing disasters. To date, 
the Miami-Dade Local Mitigation Strategy has completed 
mitigation projects of approximately $150 million. These 
include windstorm and flood abatement projects located 
throughout the county. Following Katrina, which dumped up to 20 
inches of rain on Miami-Dade, areas that flooded for days in 
the past were essentially dry in less than 24 hours. Our Local 
Mitigation Strategy is used by FEMA and the State of Florida is 
a model program. Mitigation works.
    Without a doubt, much will be learned by communities 
affected by these recent storms, just as we have from Andrew 
and others since. The challenge is how to enable areas that 
have yet to be affected by a major hurricane to learn and 
improve their capabilities.
    Based on our experience, we respectfully offer the 
following recommendations:
    One, an all hazards approach must be utilized in order to 
prepare as a Nation.
    Two, a community hit by a major disaster that overwhelms 
its capabilities will need assistance as soon as possible to 
begin the damage assessment process which will lay the 
foundation for appropriate response and recovery efforts.
    Three, the National Incident Management System is important 
and must be utilized to manage assets both locally and 
federally, as well as assist in coordinating the humanitarian 
effort.
    And, four, FEMA must be an active partner with local 
governments in each aspect of emergency management--
preparation, response, mitigation, recovery, as well as in 
training and exercises--while respecting the role and input of 
local government in a disaster response.
    Once again, thank you for this opportunity, and I invite 
you, Mr. Chairman and members of the committee, to visit us at 
the Miami-Dade County Emergency Operations Center. Thank you.
    [The prepared statement of Mr. Castillo follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.118
    
    [GRAPHIC] [TIFF OMITTED] T4205.119
    
    [GRAPHIC] [TIFF OMITTED] T4205.120
    
    [GRAPHIC] [TIFF OMITTED] T4205.121
    
    [GRAPHIC] [TIFF OMITTED] T4205.122
    
    [GRAPHIC] [TIFF OMITTED] T4205.123
    
    [GRAPHIC] [TIFF OMITTED] T4205.124
    
    [GRAPHIC] [TIFF OMITTED] T4205.125
    
    Mr. Shays. I thank the gentleman.
    We have the honorable Marc Morial, who is the former mayor 
of New Orleans. Mayor, we are going to swear you in quickly, we 
are going to get your statement, and then we will allow you to 
give your statement.
    [Witness sworn.]
    Mr. Shays. Thank you so much, Mayor. Mayor, hopefully the 
chairman will be back to ask the questions once you have given 
your statement. Why don't you give your statement?

                    STATEMENT OF MARC MORIAL

    Mayor Morial. Thank you very much, and thank you for the 
opportunity to share with you and also the chance to be with 
all of these distinguished panelists.
    I want to offer a few thoughts, not having had the 
opportunity to hear the previous testimony, but certainly want 
to compliment the committee for its responsibility and its 
interest in both disaster preparedness and disaster response, 
which are two components of a very important subject.
    I do want to say that Katrina is an event of tragic, epic, 
and, in my own view, biblical proportions. We now have 1 
million Americans who are displaced. Those Americans are not 
all poor, they are not all rich, they are not all middle 
income, they are not all Black, not all White; they are 
Americans of every hue and class who have been displaced.
    The pictures that we all saw in the press and on television 
were of the most disadvantaged Americans, the most 
disadvantaged New Orleaneans who didn't evacuate because many 
couldn't evacuate. And we saw their suffering and we were 
affected by their suffering.
    And I personally felt the emotions of sadness and anger, 
befuddlement and betrayal, courage and hope, because I had a 
chance to go to Houston and spend time with those who have been 
sheltered there and hear stories of personal courage, of 
rescue, of survival through many, many difficult, difficult 
days down in New Orleans.
    I want to offer several thoughts, some on disaster 
preparation and preparedness, and others on Katrina 
specifically. And we have been framing--and I shared this with 
the Senate Committee on Homeland Security yesterday--our 
thinking around the idea of the Katrina victims and survivors, 
that they need a bill of rights. The first component of that 
would be a victims compensation fund.
    And I want to let you know that so much of my thinking and 
our thinking around this has been governed by the standard that 
the Nation set after September 11th. One of the great moments 
in American history was the response of this Nation after a 
great and horrific tragedy.
    In that case, the Congress created a Victims Compensation 
Fund at the same time it provided financial relief to the 
airlines in the same legislative instrument. And that 
compensation fund was designed to compensate the victims. All 
tolled, after September 11th, it paid out $7 billion to a 
variety of classes of victims. I think in this regard we should 
strongly, strongly enact a victims compensation fund.
    Second, I do know that there has been considerable debate 
and difference of opinion on how to examine the many things 
that went wrong. It is clear that a lot went wrong. The 
mistakes and the fumbles have cost people lives. They have cost 
the massive destruction of infrastructure and property. State, 
city, and Federal officials, in my own view, all made mistakes. 
What they were, the specifics of what occurred in the first 3 
to 4 days after Katrina can only be reconstructed, evaluated, 
and examined in a fashion that will give us lessons.
    I believe as if, while the Congress does conduct its 
oversight responsibilities, that there be an independent 
commission like the 9/11 Commission, and here is why. Disaster 
preparedness and response is a weighty science. Simply because 
you are a good manager, administrator, or leader doesn't mean 
you know disaster response or disaster preparedness.
    Because of the magnitude of this, because hurricane season 
comes every year, because manmade and natural disasters are 
something we have to live with everyday, I think that the 
responsibility that the leaders of this Nation have to the 
people of this Nation can only be fulfilled if it is crystal 
clear the lessons that need to be learned; not just assign 
responsibility and blame, but to fix, to reform, to strengthen, 
to improve the system of disaster preparedness and disaster 
response, which is a sophisticated science with people who are 
experts in the field. So I believe that process would be 
augmented, would be helped if there were in fact an independent 
commission that looked at it.
    With respect to FEMA, one thing I think is quite clear with 
respect to FEMA--and then I will talk more specifically about 
Katrina--is that I think that Congress should consider writing 
the statutory qualifications for the Director of FEMA and the 
senior leadership of FEMA into the statute. We would never 
consider a non-lawyer to be attorney general, a non-doctor to 
be surgeon general. We should never even consider a non-expert 
in disaster preparedness and response for being the Director of 
FEMA. And Congress can ensure that by creating some statutory 
qualifications.
    Final point on sort of rebuilding and going forward is the 
serious need for there to be--there has been talk of a czar, 
some centralized authority. But there is a need for some 
centralized authority to coordinate and oversee, I think, the 
rebuilding, because this is going to be a massive undertaking 
by this Nation. So I would like to ask, Mr. Chairman and 
members, that I be given an opportunity to supplement the 
record with written remarks which I have not completed 
preparing. Thank you.
    [The prepared statement of Mr. Morial follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.126
    
    [GRAPHIC] [TIFF OMITTED] T4205.127
    
    Chairman Tom Davis [presiding]. Mayor, thanks a lot for 
being here. I know you are on a very tight schedule, and 
Members are just trickling in from votes. But we very much 
appreciate your being here.
    Mayor Morial. Thank you.
    Chairman Tom Davis. As you look at this from afar, and from 
your perspective as head of the Urban League, what is your 
impression? Just off the top? We will have weeks of 
excruciating hearings and detail on this.
    Mayor Morial. I think the most important thing is to keep 
the focus on the people who are displaced. The people who are 
displaced are traumatized. And when I say that, they run from a 
person who may have lost a considerable business with 3,000 
employees to a person at the other end of the spectrum who may 
have been a renter, may have been unemployed or may have been 
in an entry-level position, to high school seniors who now face 
the prospect of not seeing their classmates and not graduating 
with their high school class at the school that they have 
attended for the last 3 years.
    There has to be a continuing focus on how we can help 
people rebuild their lives, understanding that a return to 
normalcy is not going to be immediate; it may not even be 
intermediate. It may take a long time for many, many people; 
not only in Louisiana, but in Waveland and Gulfport, in Biloxi 
and Bay St. Louis, those cities in Mississippi that were 
completely obliterated, not to mention the New Orleans region 
and southeastern Louisiana.
    Chairman Tom Davis. Obviously, the city had plans going 
back to your day, FEMA had plans, they had drilled on these. 
And the implementation at the end, do you think part of it was 
that the storm was more severe than probably people 
anticipated? People did not get out of the way that might have 
been able to leave. Any impressions?
    Mayor Morial. Well, this would be the observation. I mean 
the kind of framework, the inquiry, there has to be a look at 
the plans, but then there has to be a careful look at the 
execution and the implementation. What happened? Was there a 
central command structure? Was there a central communications 
system? And then also, and I think everyone who has been 
involved in disaster preparedness and response knows, in every 
case you must be able to make battlefield adjustments. 
Sometimes those adjustments are difficult to make, sometimes 
they are easy to make.
    And in my mind, it is the reconstruction of the events. 
Because to ask what in fact happened, what was the 
responsibility, and to whose responsibility fell the management 
of the shelters of last resort, what was triggered in the minds 
of Federal, State, and local officials when the levees broke, 
knowing that all the computer simulations indicated that if 
levees broke you had a second type of catastrophe, I think 
there has to be a careful, dispassionate reconstruction not 
only to look at the plans, but to look at the execution of the 
plans and to query whether battlefield adjustments may have 
been made at the Federal, State, and local levels.
    There seems to have been a breakdown in communications, the 
city had a mobile command center and I question whether it was 
utilized. There are a whole series of things. And I think 
reconstruction of the events is a very important part of this 
process to determine whether the plans were sufficient, but 
also, if the plans were sufficient, whether there was 
execution.
    Let me give you a case in point. After Georges in 1998, 
when I was Mayor, first time the city had to be evacuated, we 
realized that the city's emergency preparedness plan had a 
deficiency in that there were no provisions for ``special 
needs'' persons--persons in hospitals, in nursing homes. So 
there was an effort to modify and improve the plan that began 
in my administration, which ended better than 3 years ago, to 
do something for special needs.
    Second, working with the State, there were two problems 
with the evacuation. One was the capacity of the highways. That 
was corrected by creating a contraflow, where both sides of the 
highways went north. And second, there was an underpass in New 
Orleans that very easily flooded which would block access, and 
a new pumping station was built, which began sometime in 1998-
1999, to try to alleviate that problem. There were post-Georges 
modifications to the emergency preparedness, the sort of 
readiness state that took place at the city and State level. I 
do not know what continued after 2002. I understand there were 
simulations, there was a Hurricane Pam exercise.
    I think the committee and the public have to reconstruct 
all of that to see if the plans were adequate, one, but then 
second, whether the execution of the plan, in fact, met the 
standards of the plan.
    Chairman Tom Davis. Thank you very much.
    Panelists, we are going to get to your questions. I think 
the Mayor has just got a few minutes here. We are going to try 
to grill him for a couple of minutes, and let him get on his 
way. Then we will get back to some of the issues that you have 
raised.
    Mr. Waxman.
    Mr. Waxman. Mr. Mayor.
    Mayor Morial. Congressman, good afternoon.
    Mr. Waxman. Thank you. Good to see you. Thank you for being 
here.
    Mayor Morial. Thank you.
    Mr. Waxman. I am going to ask the other members of the 
panel to respond to this question, but I want to ask your view 
of it. It seems to me that Hurricane Katrina was the first big 
test of our disaster preparedness and response capability since 
September 11th. Clearly, the Federal Government failed this 
test. There were also failures at other levels of government.
    This is not just my opinion, it is the opinion of that 
Commission that was set up to look at September 11th. The Chair 
of that Commission, Tom Keane said, ``This is not a terrorist 
incident, but it brings into play all of the same issues and 
shortcomings. What makes you so mad is it is the same things we 
saw on September 11th. Whoever is responsible for acting in 
these places has not acted. Are they going to do it now? What 
else has to happen for people to act?''
    Now, Mr. Keane's essential point is that when it comes to 
preparedness and response, it does not matter whether we are 
dealing with a terrorist attack or a natural disaster, we are 
just not ready. Do you agree with that?
    Mayor Morial. Based on what I saw in Katrina, it is clear 
we were not ready for a natural disaster of the type of 
Katrina. So much went wrong. So many people suffered. It has 
been a very, very difficult time for the country.
    But it has been especially difficult for people who call 
New Orleans home, to see our friends and family members and 
neighbors in awful conditions or displaced in communities that 
they are unfamiliar with, some maybe displaced in a person's 
home. It is hard for me to respond to the question with respect 
to our readiness for terrorism. All I can say is I sure hope 
that we are ready, and the public needs to be able to trust 
that the leadership of this Nation is ready.
    Mr. Waxman. Well, when it came to Katrina we had some 
notice. We had at least several days notice that the storm was 
coming. A year before, FEMA had a report that indicated that if 
a hurricane of this magnitude hit New Orleans it could do 
exactly what it did do--drive a million people out of their 
homes and bring about such enormous disaster. We would not have 
notice with a terrorist attack.
    Mayor Morial. That is correct.
    Mr. Waxman. A lot of people, and I certainly include 
myself, are very critical of the Federal Government response. 
Many people are also critical of the local response. You were 
the mayor. Are you critical of that local response? Do you 
think the city----
    Mayor Morial. I am critical of the local, State, and 
Federal response. You know, these responses to be effective 
have to be seamless and coordinated. We do not know what went 
on behind the scenes. There are press reports that are 
trickling out about what went on and what did not go on behind 
the scenes. And I have heard some things anecdotally through 
hearsay about what did not go on behind the scenes in those 
immediate days. And yes, I think----
    Mr. Waxman. Well, if you had been mayor and you had to deal 
with that kind of terrible tragedy, would you believe that your 
local people were equipped for it without the support from 
FEMA?
    Mayor Morial. You had to have FEMA support at a point, 
particularly in the post-Katrina response. Because once it got 
to a situation of needing both supplies and rescue, rescue with 
helicopters, rescue with amphibious boats, neither the city nor 
the State have that equipment, nor have they ever had the 
resources to buy that equipment.
    The city and its local agencies might own a handful of 
boats, no helicopters, no trained search and rescue people to 
do the kind of search and rescue necessary. So FEMA and the 
Federal Government's involvement post-Katrina, when the 
situation exacerbated, was essential.
    The other thing is the Federal Government's assistance in 
providing supplies, food and water, after an immediate period 
of 24 to 48 hours, perhaps. Because I would think that the 
Astrodome would have sufficient food onsite to be able to 
accommodate people, I know in 1998 it did, for 24 to 48 hours. 
After that, there was a need for military supplies in order to 
be able to take care of people.
    Mr. Waxman. Let me ask you one question, because my time is 
up, but just one question that will take a really brief answer. 
Before we learn the lessons of Katrina to apply to L.A. and 
Miami, New York, and other places around the country, do you 
not think we need to do a more thorough investigation of what 
went right, what went wrong at all levels when it came to 
Katrina?
    Mayor Morial. I have testified before this committee, the 
Senate Homeland Security Committee, and I think I have been on 
record asking the Congress to create a bi/multipartisan 
independent commission like 9/11 that can operate in 
conjunction with appropriate congressional hearings.
    I think it requires the involvement of a fairly significant 
body of experts who understand and know disaster preparedness 
and response to avail the expertise of citizens outside of the 
Congress to work with the Congress on a process like this.
    I mean, there have been many commissions. The 9/11 
Commission was all private citizens. I believe the Warren 
Commission included public officials, Members of Congress, I 
know T. Hale Boggs was on the Warren commission and he 
represented New Orleans in Congress for a long time.
    There are many ways to create it, but we need a 
dispassionate, careful look with recommendations, with a 
commitment I think from Congress and the executive branch that 
whatever those recommendations may be, we are going to 
implement them very, very quickly, as long as they are 
sensible.
    Chairman Tom Davis. Mayor, how much time do you have?
    Mayor Morial. I have to go do a conference call. I do not 
know how long you all will be. I will be happy to come back.
    Chairman Tom Davis. OK. If you need to go, we will dismiss 
you. We will be here for a while, if you have an opportunity.
    Mayor Morial. Thank you for the opportunity.
    Chairman Tom Davis. Thank you for your comments.
    We are going to go back to the questions for the full panel 
at this point. Has everybody had an opportunity to testify? OK. 
We appreciate that. I was not here for all of it because I was 
voting, but I did read everything last night in preparation for 
the hearing.
    Let me just ask kind of a hypothetical question. If a 
terrorist sets off a bomb at one of your major sports arenas 
during a full house event in your jurisdiction, it is early 
rush hour, you have an international diplomatic conference you 
are hosting near the arena, you have demonstrators picketing 
that event, you have unknown chemicals, what is the plan? Just 
briefly, what is the plan in L.A.?
    Mr. Stanley. That sounds like an everyday event in Los 
Angeles. [Laughter.]
    With the exception of the bomb, we have those major 
incidents going on all the time. And when we have major 
incidents and those things that we know about, we are able to 
pre-plan, we are able to stage up, we are able to have our 
emergency operations center very active, we are able to put our 
contingency plans in place beforehand, and able to monitor the 
incident.
    The incident that you describe would give us that lead time 
and we would have the resources of not only having the city of 
Los Angeles, the greater resources of the L.A. County, the 
Sheriff's department, police, the State resources that come to 
bear with the military and all the other State assets, as well 
as the incident you describe would bring in Federal support 
from the FBI, from FEMA, from Secret Service and those things. 
So we would do that.
    Part of that pre-planning is to make those people aware 
that surround that area that this event is going on to properly 
equip them with information, let them know what is going on and 
what the actions should be if we have some major event there. 
Again, that is one of the lessons I think Katrina is going to 
bring to us very vividly, and that is how to speak with the 
power to influence human behavior when we have these major 
events so that we reduce the panic, we reduce the angst of ``I 
do not know what is happening. I do not know what my government 
is doing. I do not know what even they are supposed to be 
doing.''
    So those are the things in the event that you describe. We 
would have good pre-planning, good resources, hospitals on 
alert, knowing where all the resources would come from, knowing 
where the victims would go and able to track those victims, and 
being able to get good, quick public information out so that we 
can reduce the panic in the surrounding area.
    Chairman Tom Davis. In the case of L.A. too, the earthquake 
is kind of the worst case scenario, is it not?
    Mr. Stanley. Earthquake right now is still our best seller. 
We do not know when they are going to come, but we know that we 
can have a very large incident. And we do planning. Our 
technology has increased so we can use the technology to know 
where the worst case incidents will occur even before the calls 
come in, and in most cases the phones are down, so we can start 
sending resources and assets to those areas.
    Chairman Tom Davis. Mr. Bobb, Mr. Robertson, what about the 
District?
    Mr. Bobb. Obviously, there would be a lot of panic. Our 
first responders would go into service immediately. Our 
emergency operations centers will go into operations 
immediately. We had a similar event happen during the IMF World 
Bank protest where we had to evacuate RFK Stadium, and we were 
ready for that incident when it occurred.
    But we believe that we would be ready, we would have our 
emergency centers in operation, our first responders would be 
on the scene, we would have good communication, we would 
activate our entire Emergency Management Plan, we would 
communicate with our public, and we would bring in all of the 
Federal agencies that would be at the ready. So we would be in 
contact with our partners throughout the National Capital 
Region.
    Chairman Tom Davis. I think the thing that concerns us the 
most looking at the New Orleans situation, who is in charge? I 
mean, at that point, no one was sure who was in charge of what 
at that point. In the case of the city in a situation like 
that, does it become Federalized quickly? Do your local 
partners chip in?
    I just think of the incident here in D.C. in March 2003, 
regarding the tobacco farmer, Dwight Watson, AKA ``Tractor 
Man,'' when we left the Park Service in charge and it was in my 
opinion a disaster, where one guy driving a tractor on the Mall 
brought the city to its knees for a day and a half. You never 
want to have a recurrence of that. The command and control is 
very critical. How is that set up at this point?
    Mr. Bobb. The way it is set up in the District, clearly the 
Mayor of the District of Columbia is in charge. There is just 
no question as to----
    Chairman Tom Davis. But on a Federal enclave, he was not. I 
know in the case of ``Tractor Man'' he was out of the loop, 
unfortunately.
    Mr. Bobb. When it becomes a Federal issue, and we work with 
Federal agencies all the time, then if it is a terrorism 
threat, something of that nature, then the FBI. So we have a 
list of protocols. But we are the first line of defense and so 
the Mayor initially is in charge and then will make the switch-
over.
    Chairman Tom Davis. Mr. Robertson, are we coordinated with 
all the local jurisdictions in terms of the first responders, 
bridge access, and everything else?
    Mr. Robertson. Certainly. In that scenario that you pointed 
out, the District of Columbia, as Mr. Bobb said, would be the 
Incident Commander but there would quickly be alerts that would 
go out for transportation impacts, any health impacts, 
emergency response impacts, a fair amount of extensive 
coordination, conference calling, to make sure decisionmakers 
were making the best local decisions but in a regional context.
    Chairman Tom Davis. And you have military bases nearby as 
well for additional troops, something New Orleans did not have, 
that is readily available.
    Mr. Robertson. Right.
    Chairman Tom Davis. Mr. Carper.
    Mr. Carper. Yes, sir. The scenario the Chair outlines is 
one that I think our plan is geared to address. One of the 
points I tried to make in my testimony is the plan needs to be 
strategic and that it must identify the organizational 
concepts, the command and lines of authority, and those types 
of things to address any situation, no matter if it is the 
bombing scenario or a hurricane or anything else.
    Certainly, another point I think that needs to be made is 
that the scenario that the chairman outlines would be something 
that would quickly be a national incident and would probably 
need national resources and State resources as well to support 
the actions of local government. But the local government would 
be there and should have planning in place to handle the 
consequence management of the event, handle the victims, and 
handle the support of fire fighters, and law enforcement that 
are going to the scene, and be able to manage and organize 
that. Those systems have to be in place in order to be 
successful in any emergency.
    Chairman Tom Davis. And you have had a fair amount of 
experience down there in the Broward-Dade area.
    Mr. Carper. Yes, sir.
    Chairman Tom Davis. Mr. Castillo.
    Mr. Castillo. Yes, sir. I would like to add to what my 
colleague said and also add that for us we enjoy an excellent 
relationship in south Florida with our counterparts, with Tony, 
with the different departments, police and fire rescue and 
other departments that would be involved in something like 
this. What you described is a planned event, except for the 
bomb, of course, but it is a planned event.
    So that creates a heightened sense of awareness for us, but 
also we try to clearly delineate roles and responsibilities in 
a unified command scenario where at the lowest appropriate 
level command and control would be elevated as needed, thinking 
ahead of time. And as was said, in something like this, it 
would definitely require outside assistance.
    Chairman Tom Davis. Let me ask each of you, how good is 
your communication with the Federal Government on terrorist 
intelligence?
    Ms. Perett. I think we have an excellent communication. In 
Los Angeles County, we have the Terrorism Early Warning Group. 
It was established quite a bit before the events of September 
11th. It is multidisciplinary, and although it is chaired by 
the sheriff, it has representation from the FBI, LAPD, and many 
others. They have been working long and hard and have wonderful 
connections in terms of their ability to rapidly get 
information and basically vet it, assess it, and let the rest 
of us know what they believe is important for us to know in 
terms of our reaction.
    Chairman Tom Davis. OK. Mr. Bobb.
    Mr. Bobb. I would say in the National Capital Region and in 
the District of Columbia, in particular, our relationship on 
intelligence information, is very good, our working 
relationship with the Federal authorities in that regard.
    Chairman Tom Davis. OK.
    Mr. Carper. We have excellent ties to the Federal 
intelligence system. In fact, the person in charge of that 
within our county is a former special agent in charge for the 
Federal Bureau of Investigation and he certainly has a network, 
the lines of communication to keep us up to date in those 
issues.
    Chairman Tom Davis. Go ahead.
    Mr. Castillo. For us, we are part of the Joint Terrorism 
Task Force with representation local and Federal as well, and 
the Miami-Dade Police Department has a lead role in that for us 
as well.
    Chairman Tom Davis. OK. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. I would like to ask a 
question first off about real-time exercises. Every 
jurisdiction in the country, beginning with the Federal 
Government, has paper plans up the kazoo, as they say, and 
there are groups and task forces of Federal and local and State 
officials and everybody looks like they have done their 
homework. I am not talking about you, I am talking about 
everywhere in the country. Every time there has been anything 
even approaching an incident, I have seen no indication that 
all of this paperwork amounts to something happening on the 
ground. I will give you an example.
    In this region, you remember out in Virginia when there was 
a scare involving anthrax and there was total confusion. We 
remember when the first plan flew over and there was very 
little coordination between the District and Homeland Security. 
To its credit, the District tried something that I have never 
heard of in any large city, and I want to know from each of you 
if you have tried anything like this.
    The District, on I believe it was July 4th, tried literally 
an evacuation plan involving cars, I think, as it was supposed 
to, and the use of lights in the street. It did not work as 
well as the District would have liked. And there are lots of 
ways it could be improved.
    But I gave the city credit for doing a real-time exercise 
involving an entire city when it was crowded on July 4th when 
everybody comes here. I would like to know if any of you have 
done any real-time exercises to see if any of these paper plans 
amount to anything more than a bunch of paper plans.
    Ms. Perett. If I may. It was not an entire city, but a 
number of years ago we did do a large earthquake exercise that 
included an evacuation component. The city of Torrence 
cooperated and had probably about eight blocks of the city 
evacuated as part of that exercise.
    I also wanted to mention, with the question that the 
chairman asked a moment ago, just last November we coordinated 
a major dirty bomb exercise at the Forum and brought together 
over 500 first responders plus about 700 volunteers who played 
the disaster victims in the Forum, and it involved multiple 
agency response. So we do do very large scale evacuation 
throughout the county on an annual basis.
    Mr. Stanley. I would like to add, too, from the city of Los 
Angeles' perspective, we are doing exercises all the time. You 
are exactly right, the plan is a requirement, but unless you 
exercise that plan it really means nothing until you have put 
it in effect to see if there are any holes. And the key to that 
is to have time to go back and address those holes and gaps. 
And there is nothing wrong with the plan falling on its face, 
that is where you want it to fall on its face is during an 
exercise so that you can fix it.
    We just had an exercise this weekend with the sign language 
folks so that they could be integrated well into the process 
and know their roles and responsibilities. We have one coming 
up very shortly on anthrax and how we move people, and this 
will be getting the people involved to move them through a 
process of giving them prophylactics. We have not tried to 
evacuate a 500 square mile, 4 million population as a full-
scale exercise, but we are doing now neighborhood plans. We are 
working with our neighborhoods to get them involved and we are 
doing different full-scale exercises in the neighborhoods.
    Mr. Bobb. Yes. We conduct a number of exercises in the 
National Capital Region, table top exercises, which are 
coordinated through our Homeland Security advisor's office. 
Just 3 weeks ago, we exercised against the National Response 
Plan and that exercise was conducted with the Department of 
Defense, the FBI, local authorities, and the exercise centered 
around a terrorist incident involving the potential for 
radiological as well as a dirty bomb.
    So we have the plans in place and we do exercise against 
those plans. We have not yet exercised against, other than the 
one exercise of July 4th of last year, this year with respect 
to mass evacuation of the city. In our most recent discussions, 
we are now, as a result of Katrina, we are now looking at other 
ways in which we can broaden the exercises that we are doing 
against our own internal plan as well as the National Capital 
plans.
    Ms. Norton. Does anyone else have anything to say on real-
time exercises? Yes, sir, Chief Castillo?
    Mr. Castillo. Yes, ma'am, if I can. We have conducted 
several full-scale exercises, not just within our jurisdiction 
but on a regional basis that have task forces that have been 
established throughout Florida through our regions, including 
the county's administrative building.
    But I want to point out, we have planned for evacuation, 
and for an emergency manager that is clearly the toughest 
decision to recommend because for hurricanes, if you make the 
decision too early, then the storm may turn off and the next 
time that you ask for an evacuation many people will not leave, 
but if you wait too long, it is impossible to get everyone out 
safely.
    And that is something that is only realistically tested in 
an actual situation. Unfortunately, we had that opportunity 
last year with two of the activations that we had of the 
Emergency Operations Center.
    Mr. Shays [presiding]. The gentlelady has another 30 
seconds we will extend her. She has been here so long and this 
is her area. We will then go to Mr. Gutknecht. Thirty seconds.
    Ms. Norton. The emphasis, Mr. Chairman, on evacuation is 
understandable. It also worries me a lot that we may be 
fighting the last war. When I said D.C. tried to evacuate, 
people were in the city. It was not trying to evacuate people 
who lived here. It was the people who come for July 4th.
    It seems to me that the situation we had in Katrina is so 
atypical that is not even the best word for it, and that in 
most instances, particularly even a terrorist attack, you are 
not trying to get everybody out of Dodge, as they say, and that 
the opposite may be the problem, that you want people to stay 
in place and they think, particularly looking at Katrina, 
everybody should up and run.
    I am very worried about all this talk about evacuation. For 
example, the District is now trying to see what would happen if 
there were an evacuation and so forth. But to where? I mean, 
can you imagine with everybody who gets on the road now, 
because so many people come in, two or three times our 
population, trying to get out, then you add to that 600,000 
people who live here to get out.
    I wonder what you think about evacuation in the first 
place, particularly since for the most part will we really be 
talking about something that takes a whole city down, like a 
flood that comes out of Noah's ark, or are we not far more 
likely, particularly if it is a terrorist incident, to be 
talking about a targeted incident on only one part of the city 
where evacuation is necessary?
    Mr. Shays. Thank you. I think that is a question that some 
of you may answer later to other questions as well.
    At this time we will recognize Mr. Gutknecht. He has the 
floor.
    Mr. Gutknecht. Thank you, Mr. Chairman. I thank the 
witnesses for being here today. These are issues I think we are 
going to have to sift through over a long period of time. I 
would just maybe start out, and I mean this in a sense of 
fairness, I think these exercises, just pursuing what the 
gentlelady from Washington, DC, just raised, that is, I think 
it is good to have the plans, I think it is good to have the 
exercises.
    But have you ever put your exercises to the test either in 
actuality or even computer modeled it in a situation where all 
of the telecommunications was down, where there was no 
electricity, where none of the public services were working, 
when many of the rescue people themselves could not--I mean, 
you put all of that in play and I wonder how any city would 
respond to something like this. In the exercises you have done, 
have you done this without the use of telecommunications?
    Ms. Perett. Sir, we did it quite some time ago, not to the 
scale that we do exercises now. It has been a very long time 
since we have basically tried to do what I would call a manual 
operation. But I would like to go back to the Incident Command 
System and the Standardized Emergency Management System. Those 
are such well-defined response structures with such common 
terminology and protocol that it will serve somebody well out 
in the field and they will be able to operate as a component 
under the Incident Command System and do their job. And that 
can be going on in many places when you have a well-defined and 
orchestrated system in place. So although I think you presented 
huge challenges for us with your very question, I do believe it 
is possible to function, each cell, so to speak, being 
independent until such time as they can be brought together.
    Mr. Stanley. Sir, if you noticed the TV this week, we did 
that exercise earlier this week when we lost all power in the 
city of Los Angeles. We only lost it briefly, we only lost it 
for an hour, and we actually had our Emergency Operations 
Center activated as we were dealing with a resettlement plan 
for the victims of Hurricane Katrina. But it did allow us to 
assess whether our backup generation power worked, where we 
might need additional backup generation, how the communication 
elements played, how the 4,000-plus traffic lights in the city 
interacted, those that were automatic, those that had to be 
dealt with manually, etc., at a time when we were in a position 
to do a very good assessment and then go back now and see what 
we need to do to fill those gaps.
    Mr. Bobb. We had a large-scale exercise in the National 
Capital Region several months ago that took down the entire 
transportation system. So we did exercise a worst case scenario 
with respect to our transportation system. We have not 
conducted an exercise wherein all of our power, etc. would be 
out. But what we have done on the communications side is we 
have purchased throughout the region large caches of radios, 
interoperable radios for our first responders so that we would 
be able to communicate in the event the telephone, other 
communications systems are down.
    Mr. Robertson. One additional point is that the RICS 
communication system that we use to support our decisionmakers 
in this region has a built-in redundancy in that we not only 
have facilities in the District, but in Fairfax County, VA, 
Montgomery County, MD, the Maryland State Emergency Agency in 
Reisterstown, MD, and then the Virginia Emergency Management 
Agency in Virginia. So that if there were an emergency or 
incident that took one or any down, there is going to be that 
backup capacity to make sure that you do not lack the key 
decisionmaking communication at a time when it is most needed.
    Mr. Carper. That type of scenario that you outline is 
something that we faced repeatedly last year in Florida during 
all the hurricanes. During Hurricane Frances, for instances, we 
had an evacuation for over 300,000 people just in Broward 
County alone and there were over 500,000 people without power, 
our telecommunications systems were severely impacted and we 
had to provide work-around. So there is experience at that 
level.
    Mr. Castillo. For us in Miami-Dade, part of what we learned 
from Andrew is the need, because the south end of the county 
was separated in part through communications, just the lack of 
communications, we decentralized our decisionmaking process and 
allowed for some autonomy if there is no communications, 
primarily in the fire and emergency services, to be able to 
work independently if needed, but as soon as possible be part 
of the main system.
    Mr. Gutknecht. If the Chair would indulge me just one more 
question, because I think it is the question that most of 
America wants to know. It is this. We all sat in frustration, 
in fact, somebody said at one of our briefings, I think a 
member of the cabinet said the problem was we were all looking 
through the same soda straw and we saw the same particular 
things, particularly at the Convention Center and at the 
Astrodome. And one of my colleagues said, well that may well be 
true, but everybody that had a television set in the world was 
looking through that same soda straw. And it reminded me of 
something that used to be in the Union Pacific Railroad 
Engineers Manual. It said that if two trains should approach 
each other on the same track, both shall come to a complete 
stop and neither shall advance until the other is passed. 
Literally, for 3 days we watched as it seemed like no one was 
getting the needed supplies of water and things into the people 
there.
    Just from your experience, and this is not about fault-
finding but we have to make sure this never happens again, 
particularly here in the United States, what should have 
happened then? Was that ultimately the Federal Government's 
responsibility, the State's responsibility, the local 
government responsibility? How do we make sure that does not 
happen again?
    Mr. Shays. I think what we will do is we will leave that 
question open because it would take another 5 minutes to 
respond to it. But I will ask that question in my time if we do 
not get an answer before then.
    We will go now to Mr. Owens. We are being a little more 
generous with the time because we have so many people to 
respond to the questions.
    Mr. Owens. I apologize if my questions are redundant but I 
want to make sure it is on the record. Do you all have systems 
in place now where there is standardized communication between 
the first responders, where the firemen can talk to the 
policemen and the police can talk to the firemen on the same 
radio frequencies? Can we assume that is a fait accompli in all 
of your areas?
    Mr. Bobb. Yes.
    Mr. Owens. Is there anybody who does not have that? Because 
I am not certain New York City has it even now after losing so 
many firemen in September 11th. I am almost certain that they 
do not have it yet completed between the firemen and the 
police. In D.C., you have Park Police, Capitol Police, D.C. 
Police, Secret Service, etc. Are they all on the same radio 
frequency? Can they all communicate with each other?
    Mr. Robertson. Let me just add one point to that. I am from 
the Washington Council of Governments. The one point I would 
make is with the Federal funds that were made available to this 
region we purchased I believe 1,000 interoperable radios that 
have been cached in various parts of the region and have been 
regularly made available, basically dispatched to first 
responders so that every jurisdiction can have that level of 
intercommunications.
    Mr. Owens. So you can say authoritatively that they can 
communicate with each other, D.C. Police, Park Police, Capitol 
Police, Secret Service, etc.? Or you do not know?
    Mr. Robertson. When they are using the interoperable radios 
they certainly can.
    Mr. Owens. They all have purchased the interoperable 
radios?
    Mr. Robertson. They all have access, yes.
    Mr. Owens. Does anybody else want to comment?
    Mr. Bobb. We have about 1,250 800 megahertz radios and we 
have those cached in different parts of the region. Those 
radios gives us an opportunity to provide those to all of those 
law enforcement agencies over which they can, in fact, speak to 
each other.
    Mr. Owens. Has the Department of Homeland Security taken 
any steps to standardize communications, vehicles, mechanisms 
across the country? Are they moving in that direction? I can 
buy a light bulb in New York and know that if I screw it in in 
California it is going to work. Any electric appliance bought 
anywhere in this country, you can know that if you plug it in 
it is going to work. So is it so difficult to get standardized 
communication equipment? Are we on our way to some kind of 
national standardized version of all this equipment, so that if 
you may be called upon to help in some other area your radio 
equipment works? In New Orleans, it seems they did not have any 
equipment at all at one point; nobody could communicate with 
anybody, which is most shocking. But anyway, is there any 
movement in that direction that you know of to standardize it 
so that across the country first responders, people in 
emergency situations can talk to each other?
    Mr. Bobb. I am not aware of any standardization that would 
place a D.C. first responder on the same frequency as one in 
California wherein we can talk back and forth.
    Mr. Owens. You do not know of any workshops, forums, 
anything underway by Homeland Security to reach this goal?
    Mr. Carper. In the actual National Preparedness Goal for 
Homeland Security there are requirements for interoperability 
that most of the funding streams that have grants related are 
requiring that type of interoperability to occur. Now are they 
there yet?
    Mr. Owens. That is mandated?
    Mr. Carper. That is a standard and that is required. But 
are we there yet? I would think for most jurisdictions, no.
    Mr. Owens. Thank you.
    Ms. Perett. Sir, may I comment also. I just wanted to tell 
you that in Los Angeles County we have a Regional Tactical 
Communications System and it does include the sheriff, the 
Association of Fire Chiefs, the Association of Police Chiefs, 
LAPD, L.A. City fire, L.A. County fire, Department of Health 
Services, the California Highway Patrol, and Federal 
representation, the U.S. Secret Service. What we are doing 
right now----
    Mr. Owens. Did you mention firemen?
    Ms. Perett. Did I mention firemen? Yes, sir. We have a 
cross-talk capability and we also have a mobil unit that can 
actually go out and patch together communications now. I would 
liken it to the Volkswagen--we would like to have a Cadillac to 
do this but we have a Volkswagen and it does work and they are 
able to communicate with each other.
    Mr. Owens. On first responders, do you have first 
responders? And I again want to salute the first responders in 
New Orleans because they were in a situation where if they 
lived in the city, and it looked like the majority did live in 
the city, their families were involved in the catastrophe and 
most of them kept working. I want to salute them. But if you 
had a similar catastrophe in New York, most of the first 
responders do not live in the city of New York. Do you think it 
is fair to ask that first responders live no more than 30 
minutes away from their assignment?
    Mr. Bobb. When we look at the lessons learned thus far from 
New Orleans, one of the things we are doing as part of our 
planning going forward is to ensure that the first responders' 
families are in fact taken care of, such that our first 
responders can then take care of literally thousands of other 
people.
    Mr. Owens. Do you have a city requirement that people live 
within the boundaries of the city who are first responders, 
firemen and the police?
    Mr. Bobb. No, we do not.
    Mr. Owens. So they may live more than an hour away?
    Mr. Bobb. We do not have a residency requirement for our 
first responders in the District of Columbia. But part of our 
plan is that we will have X number of persons available to us 
in the event of an emergency. But we do not have a residency 
requirement.
    Mr. Owens. Los Angeles, do you have one?
    Mr. Stanley. No, we do not have a residency requirement for 
our first responders.
    Mr. Owens. Is this not a built in weakness that stands out 
in terms of first responders that we depend on to be first 
responders? If they are not there, how can they respond?
    Mr. Stanley. As Mr. Bobb indicated, we do have those that 
are on shift and working and we know what the capabilities are 
there and we know how to get people in. Sometimes, depending on 
the nature of the disaster, they actually respond better from 
outside. So it is not a one size fits all.
    Mr. Owens. They respond better from outside despite traffic 
jams and so forth?
    Mr. Stanley. Well, we have ways of getting them in. That is 
why, as Ms. Perett was talking about, we reach out and liaison 
with other jurisdictions we assist in getting those resources 
into the area that is needed.
    Mr. Owens. Thank you.
    Mr. Shays. The gentleman's time is expired. I thank you.
    I think of Los Angeles as so big that, heck, everybody 
would have to live in Los Angeles.
    Mr. Van Hollen, I am going to give you the floor, but I 
would first ask unanimous consent that the testimony of the 
People for the Ethical Treatment of Animals [PETA], presented 
by Daphna Nachminovitch, director, Domestic Animal and Wildlife 
Rescue and Information, be submitted for the record. And 
without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.128
    
    [GRAPHIC] [TIFF OMITTED] T4205.129
    
    [GRAPHIC] [TIFF OMITTED] T4205.130
    
    [GRAPHIC] [TIFF OMITTED] T4205.131
    
    [GRAPHIC] [TIFF OMITTED] T4205.132
    
    Mr. Shays. Mr. Van Hollen, you have the floor.
    Mr. Van Hollen. Thank you, Mr. Chairman. Thank you all 
again for your testimony.
    I think we all know that the best laid plans can sometimes 
go awry when you are actually in a particular situation. The 
best way to test that is to, as best we can, have simulations. 
Obviously, we can never simulate the exact thing, but at least 
in terms of the first responders, we can do so through 
exercises for preparedness. So I hope going forward that will 
be something that all of our jurisdictions around the country, 
especially those most at risk, prepare for.
    Let me just ask the gentleman from the District of 
Columbia, Mr. Bobb, first of all with respect to the 
communications systems. Are your communications systems all 
interoperable with, for example, the National Guard if they 
were to come in? I mean, how far down the line does the 
interoperability work?
    Mr. Bobb. What we did in the National Capital Region is we 
purchased a cache of radios that are interoperable and those 
radios, in the event of a major disaster, will be distributed 
to our first responders and they will be able to communicate. 
And those radio caches are located in two separate areas 
throughout the National Capital Region. Our goal is that we can 
get those radios to our first responders within 2 hours.
    Mr. Van Hollen. Mr. Robertson, there was a meeting, as you 
know, of COG yesterday, you testified about that, it was 
reported in today's paper about how the National area would 
organize differently possibly based on lessons learned from 
Katrina. And the statements were that, you know, FEMA's 
response was so disastrous in the Katrina area that we could 
not rely in any way on FEMA going forward. Can you comment on 
what is coming out of COG these days, and I do not know if 
there was consensus within COG about how to move forward.
    Mr. Robertson. I think there is some consensus from COG on 
how to move forward. And I think some of the other panelists 
touched on it best, in that when there is an emergency or 
incident the local folks are the first responders, the incident 
commanders. If that capacity is overwhelmed, Federal and State 
resources trigger in or cascade in at the appropriate levels. 
What the Council of Governments is planning to do, working with 
the local, State, Federal, and in many cases the private sector 
partners, is to re-examine the plans, assess whether or not 
those requirements are being fully met against perhaps the 
scenarios that perhaps were not considered previously.
    A lot of the emergency exercises and incidents that we have 
had in our region have looked at a number of incidents, 
oftentimes terrorism, and we have seen some real life examples 
with Hurricane Isabel in our region. But as we have seen in New 
Orleans, there is the capacity to have something that is truly 
catastrophic that not only taxes the ability of one 
jurisdiction but surrounding jurisdictions. We do not have that 
mutual aid capacity in a place like New Orleans that you would 
have in an area such as the Washington area where, for example, 
in Arlington County on September 11th there was tremendous 
mutual aid capacity for those adjacent jurisdictions to support 
Arlington. So you did not have that total regional situation 
where there was just a breakdown of the ability to support 
that.
    What we propose to do is not necessarily to assume that the 
plans in place are no longer valid, but to test those, 
remeasure those, recalibrate those aligned with the new 
expectations. If there are situations, as some have said, that 
FEMA may not be able to provide support as quickly or as 
comprehensively as possible, then that is something folks need 
to know and account for. I think the effort, and this came out 
certainly in so many of the statements earlier today, is that 
it is the expectation to improve FEMA and to make sure that 
they can provide that level of support that the localities and 
the States are looking for.
    Mr. Van Hollen. Let me just say I think the lessons learned 
from Katrina are where FEMA's response was inadequate. We need 
to obviously beef up FEMA. There are some kind of events that 
are so catastrophic that they do overwhelm the ability of State 
and local officials to respond, where you need national assets, 
you need the National Guard. I am sure as COG moves forward, 
and this is obviously the National Capital Region, we have a 
huge Federal presence, they are going to be involved in 
disaster response and that coordination is critical.
    Let me just ask you before my time is up. There is a 
proposal by Secretary Chertoff, the Secretary of the Department 
of Homeland Security, to rearrange the position of what is now 
the regional coordinator within the department for the National 
Capital response. Right now, he reports to the Secretary. They 
would have him reporting to an Under Secretary. We have heard 
with respect to Katrina about the layers of bureaucracy slowing 
things down. This would put the person within the DHS who is 
responsible for the National Capital Region under one more 
layer of bureaucracy. I do not know, first, if are you aware of 
the proposal, and second, do you have concerns about their 
proposal and its implications?
    Mr. Robertson. Certainly, the Council of Governments was 
one of those agencies that called for and was grateful for the 
support of our delegation to have this special office. There 
are now two folks that have had that position. They are very 
much part of our regional planning process at all levels in our 
National Capital Region.
    And we look to that office particularly to help marshal the 
Federal family, to make sure the many Federal agencies and 
resources are applied to our region and speak with as much as 
possible one voice. So we certainly would want that office to 
be as strong in support of our National Capital Region as 
possible. Many of our officials at the local and State level 
have raised some questions about that particular action.
    Mr. Bobb. Our views are pretty strong in that regard. That 
is, this office is critical to the coordination of all of the 
Federal resources and in time of disaster helping to coordinate 
the Federal assets that would be available. To have that 
position report to someone other than the Secretary I think 
diminishes the power, the authority, the position's ability to 
influence other Federal agencies. So from our perspective, we 
think it diminishes the strength of the National Capital Region 
as opposed to uplifting it and giving us the ability to 
coordinate with other entities.
    Chairman Tom Davis. Thank you very much. Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman. As the world watched 
the disaster of Hurricane Katrina unfold in New Orleans, one of 
the most heard comments by people on the street, by the 
emergency responders, and even former FEMA officials was where 
is the Federal Government?
    The head of FEMA, Michael Brown testified before Congress 
in 2003 and he said that he was taking steps ``to ensure that 
FEMA's disaster teams could respond anywhere in the country 
within 12 hours and could deliver equipment and supplies within 
24 hours.'' A quote from former FEMA Director Michael Brown.
    But in New Orleans, tragically, it took more than 3 days. 
The mayor of New Orleans issued a desperate SOS for Federal 
assistance. The head of the Office of Emergency Preparedness 
publicly begged for troops, food, water, please come, please 
help. And a former FEMA official wondered publicly what in the 
world was going on.
    I would like to get the perspective of the local officials 
here today on what you saw in New Orleans. I would like to 
start with Mr. Carper. Were you surprised at how long it took 
FEMA to respond?
    Mr. Carper. I believe there are three things that happened. 
One was, there was certainly a lack of adequate planning for 
the scope of the emergency; two, there was a lack of resources 
to respond to it; and three, there was just not enough on the 
ground soon enough. Looking at the whole system, it was 
disappointing to see FEMA respond in as much as we have planned 
for these catastrophic events time and time again and knowing 
that you are going to need these overwhelming amount of 
resources on the ground quickly. We saw this in Hurricane 
Andrew where it took a while to ramp up. But once the military 
got on the ground, things began to stabilize. And that is just 
the way it works in the large-scale events.
    Mrs. Maloney. But when did the military get on the ground?
    Mr. Carper. After Andrew, it was several days.
    Mrs. Maloney. Several days. They were on the ground that 
night in New York. When I went back to New York--they blew up 
our emergency headquarters, they created another one, military 
was there, FEMA was there, everyone was there, and we moved 
forward.
    The former FEMA Director under President Reagan, General 
Julius Beckton, Jr., and he served from 1975 to 1989, he said 
Secretary Chertoff ``does not have a full appreciation for what 
the country is faced with, nor does anyone who waits that 
long.''
    I want to go back to one of the biggest lessons learned 
from September 11th and it has been mentioned here today, we 
have had hearings on it, a number of us have had bipartisan 
legislation on it, and that is the communications system. They 
were warned that this was coming. Yet in September 11th one of 
the biggest tragedies is that the police and fire could not 
communicate. We know that hundreds of firefighters could have 
been saved if we could have communicated. Congress appropriated 
money to the Justice Department to find appropriate technology 
and to sponsor coordination. The National Institute of Justice 
has sponsored many meetings, funded projects. And we saw in 
Hurricane Katrina they resorted to the ancient Greek's method 
of running by foot from one place to another to give them 
information. I just want to ask you about this. Just from the 
lesson in September 11th, our phones were down, no one could 
communicate, and they asked a number of us get us phones from 
the military, from the Federal Government, and in a bipartisan 
way we had phones down the next day so people could 
communicate. Yet it was days and days and days--I do not even 
know if they can communicate now. Have they gotten the 
government walkie-talkies or are they still using the ancient 
Greek way of running around with messages. Do you know, Mr. 
Carper?
    Mr. Carper. From my experience, what happens is that you 
begin bringing in mobil towers and mobil handsets of things of 
that nature, especially in an area that may have not had these 
resources at their disposal generally in some areas in and 
around the New Orleans area. Those are the types of things that 
they are doing at this particular point.
    Mrs. Maloney. But at the warning of Katrina, which was a 
serious storm and all the warnings, should they not have gotten 
that equipment down there knowing that the phones were not 
going to operate and were not going to be coordinated with the 
various police, fire, and other emergency workers. Is that not 
a natural reaction?
    Mr. Carper. Ideally, yes.
    Mrs. Maloney. My time is up.
    Chairman Tom Davis. Thank you. Mr. Shays.
    Mr. Shays. Thank you all very, very much for being here. I 
would love a quick answer to your response when you saw the 
tragedy. Were you saying, my God. Thank God I am not the one. 
Or were you thinking, boy, if they had only done this. Do you 
get the gist of my question? Were you just riveted, saying what 
lessons can I learn? Because I have heard questions here we 
cannot learn from you and I am learning a lot from you. Even 
without knowing everything, you did see breakdowns and you must 
have said I am going to do something different. So just tell me 
your reaction, and maybe tell me something you think, my gosh, 
we better check up on a little better. Just a lesson you 
learned just watching this. We will start with you, Ms. Perett.
    Ms. Perett. Thank you. I had a couple of those feelings. 
First of all, I was heavily involved in the Northridge 
earthquake response and having lived through that. And at the 
time, it was the largest natural disaster in U.S. history and 
it was grueling and agonizing. And it pales in comparison.
    Mr. Shays. I need you to answer my question. I only have 6 
minutes here.
    Ms. Perett. I am so sorry. Yes, I felt, oh, my God, I am 
glad it is somewhere else and not me. And then second, I was 
utterly appalled at the lack of support for the victims.
    Mr. Shays. And did you place that on local, State, or 
Federal, or all three?
    Ms. Perett. I was not in a position to judge that. But a 
lesson from the whole thing? I think we need to take a much 
closer look at our vulnerable populations and our economically 
disadvantaged populations to make sure we are taking care of 
them.
    Mr. Shays. I do not want you to punt on that one. Did you 
feel like that would have been your responsibility at the local 
level to take care of these folks?
    Ms. Perett. Yes.
    Mr. Shays. OK. Mr. Stanley.
    Mr. Stanley. Yes, I do believe it was our responsibility at 
the local level. One of the things that I saw immediately is 
that with the first load and quick load of water and food into 
the shelters is to get some radios so they could actually 
communicate and know what is going on. The world was hearing 
everything. They had no information and that just adds to the 
stress of the incident.
    Mr. Shays. So you learned a lesson from this?
    Mr. Stanley. Absolutely.
    Mr. Shays. Mr. Bobb.
    Mr. Bobb. I guess a quick lesson for me, knowing that area 
really well, is what was the mayor's authority to in fact 
execute the emergency declarations and then to take actions 
pursuant to that to save people and to seize assets if 
necessary.
    Mr. Shays. Implicit in your comment is you need someone 
truly in charge, no doubts, no questions, you can turn to, you 
can get authority from him or her who is the chief executive 
and you can go using their name if they have the authority. Am 
I reading too much?
    Mr. Bobb. No, you are not. It is like take the emergency 
declaration, you know there is an emergency heading your way, 
it is going to happen, execute, put your emergency powers in 
place immediately.
    Mr. Shays. And know who is in charge.
    Mr. Bobb. Yes.
    Mr. Robertson. I think a quick initial lesson learned is 
the difficulty and the confusion of supporting the initial 
evacuees in places like the Superdome and other areas, the 
breakdown in the ability to support them with food, shelter, 
and basic law and order.
    Mr. Shays. I cannot imagine a local official though sending 
folks to a facility like the Superdome without water, without 
food, without police protection, without backup electricity. 
That is kind of a basic thing. You would not do that, right, at 
least you like to think you would not?
    Mr. Robertson. That is pretty basic, yes.
    Mr. Carper. Certainly, what you have outlined in terms of 
my reaction, I was absolutely horrified. And also being a 
student of hurricanes, I was telling myself this is going to be 
one of the worst case scenarios for a hurricane impact. And I 
think that was self-evident a day or so out before the storm 
hit. I just thought to myself they are going to need to 
mobilize everything they have as quickly as they can get it 
there.
    Mr. Shays. And what did it tell you about what you need to 
do?
    Mr. Carper. It makes me want to re-examine it as to what we 
can expect in the immediate aftermath and how long do our 
assumptions about relief, when are they valid. And that is what 
we will certainly take a look at.
    Mr. Shays. Chief.
    Mr. Castillo. For us, Hurricane Katrina, we got sort of the 
warm-up punch. It affected Miami-Dade before it crossed the 
State and went into the Gulf. I remember thinking the same 
feeling that we had, although we knew Katrina was going to be a 
Category 1, with the same feeling we had when we were watching 
Andrew barrel toward us and knowing that it was going to be a 
major impact. You clearly go through all the plans that you 
have. You second guess yourself on did you do everything 
possible that you had in your plans and did not have in your 
plans, and ask for as much assistance as you could? The fact 
the magnitude of what was to be expected would cause me to 
question myself just to make sure that we did everything.
    Mr. Shays. With the last minute I have, not all of you 
because we would not have time, but let me ask this question: 
Please tell me how reliant your locality has been on the 
National Guard during an emergency event you have experienced. 
Did you have sufficient manpower and equipment and other 
resources for your needs? Really what I am asking is this, is 
there any doubt that you need the National Guard? The National 
Guard is basically under the jurisdiction of the Governor. It 
is not the Reserves, it is not the Army. Is there any doubt 
that it is under the jurisdiction of the Governor?
    Mr. Castillo. I can tell you for us, the State of Florida, 
after having been hit so many times last year, has done a lot 
to increase the State's level of preparedness at the same time 
we were. We received a lot of assistance through the State with 
the National Guard for us to help especially in the south end 
of the county with water and ice delivery.
    Mr. Shays. The National Guard is the militia. Do you view 
the National Guard as being a State resource or as a Federal 
resource?
    Mr. Bobb. In the case of the District of Columbia, it is a 
Federal resource.
    Mr. Shays. In that case, clearly. For the others?
    Ms. Perett. It is a State resource. And we used it quite a 
bit during the Northridge earthquake and during the civil 
unrest.
    Mr. Shays. Thank you. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you. Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman. While I certainly think 
that this panel has suffered enough, I cannot resist just one 
last question. Given the fact that the local government in this 
case, because of the breach of the levee, was suddenly under 18 
feet of water or 22 feet of water with the surge, if they were 
here, let us turn it around, sort of what Mr. Shays was asking 
but I would like to turn it around. Since the officials on the 
ground and responsible in New Orleans and along the Gulf Coast 
are not here, you all do have relevant and important experience 
that we can learn from. What questions would you ask the folks 
who were on the ground in control or certainly with positions 
of authority when Katrina was coming and after it had struck. 
If we could just go right down the line. What questions do you 
think were very important to ask? Because eventually we hope to 
have people from New Orleans and Mississippi and also Alabama 
here at some point to ask them what did go wrong.
    Ms. Perett. Let me make sure I understand your question. 
What we would ask of those officials, or what should have those 
officials been asking?
    Mr. Lynch. If you were trying to get to the root of what 
actually went wrong, lessons learned, the title of this 
hearing, what would you ask the folks who were in charge on the 
ground, whether State, Federal, or local?
    Ms. Perett. I think I would ask them if they had in place 
in advance a well-understood protocol for how the local city 
level was going to get resources from its next level of 
government, and how that next level of government was going to 
get resources. And then, in turn, did they know how to bring 
them back down and integrate them.
    Mr. Lynch. OK. Even if they are under 18 feet of water?
    Ms. Perett. That makes it hard. But I still think that is 
what I would want to know.
    Mr. Stanley. I would ask if they were here if they planned 
for the worst case scenario of what was the problems in the 
implementation of that plan.
    Mr. Lynch. Thank you.
    Mr. Bobb. I would ask the same question, why you did not 
implement your worst case scenario. You had a hurricane coming, 
it has crossed Florida at Category 1, it enters the Gulf of 
Mexico, the warm water of the Gulf is like fuel for a 
hurricane, it has been predicted you are going to get a 
Category 4, potentially a Category 5, plan for the worst, put 
the worst scenario plan in place, and then hope for the best.
    Mr. Lynch. Especially with the levee situation. I used to 
live in New Orleans, actually in Metairie, but worked at the 
Shell Oil refinery in Norco. This is back more than 20 years 
ago and they were worried about the levee back then. So it is 
not exactly a surprise to people that the structure, being as 
old as it was, that there was a breach in the face of a 
Category 4.
    I am sorry. Mr. Robertson.
    Mr. Robertson. Just a variation on what has already been 
said. What level of information was available to them when they 
made the decisions that they did?
    Mr. Lynch. Do you mean were they watching the Weather 
Channel?
    Mr. Robertson. Well, that would help. But certainly what 
level of information they had, because there are decisions that 
are going to be made that are going to be triggered by a 
certain level of information and information exchange. And 
perhaps that information exchange did not happen.
    Mr. Lynch. OK. Thank you. Mr. Carper.
    Mr. Carper. Certainly that is a very good point there. 
Also, what their plan was in responding to the situational 
awareness. And also what the chronology of events were and who 
was talking to who in terms of the local to the State and the 
State to the Feds, and how was that being documented and what 
the responses were. That type of thing.
    Mr. Lynch. Thank you, Mr. Carper. Chief.
    Mr. Castillo. When they were under 18 feet of water, if I 
had the opportunity to ask them, if they could ask for and 
receive anything they wanted, what three things would they have 
asked for? I assume the first one would have been a boat, 
obviously. But what other things could they have asked for if 
they could receive anything they wanted at that time.
    Mr. Lynch. Thank you. I yield back, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. I just want to 
thank this panel. I know it has been a long day for you. We 
very much appreciate your testimony, your responding to our 
questions. It has been very helpful for the inquiry. Thank you 
very much.
    We will take a 1-minute recess as we move to our next 
panel.
    [Recess.]
    Chairman Tom Davis. The committee will be in order.
    We have with us Dr. John R. Harrald, the professor of 
engineering management at the George Washington University, and 
he is the director for the Institute of Crisis, Disaster, and 
Risk Management; and Dr. James J. Carafano, who is a senior 
research fellow at the Heritage Foundation. Thank you both for 
your patience in staying with us. If you would rise please for 
the administration of the oath.
    [Witnesses sworn.]
    Chairman Tom Davis. Dr. Harrald, we will start with you, 
and then to Dr. Carafano. You have heard a lot of the comments 
today. If you can stay within the 5-minutes, great, but it is 
just us. And we appreciate you being here.

    STATEMENTS OF JOHN R. HARRALD, PROFESSOR OF ENGINEERING 
    MANAGEMENT, GEORGE WASHINGTON UNIVERSITY AND DIRECTOR, 
INSTITUTE FOR CRISIS, DISASTER, AND RISK MANAGEMENT; AND JAMES 
 J. CARAFANO, SENIOR FELLOW FOR NATIONAL SECURITY AND HOMELAND 
                 SECURITY, HERITAGE FOUNDATION

                  STATEMENT OF JOHN R. HARRALD

    Dr. Harrald. My written comments have been submitted. And I 
thank you, Mr. Chairman, for the opportunity to testify. As you 
stated, I am the director of the Institute for Crisis, 
Disaster, and Risk Management at George Washington University. 
I will preface my remarks by saying I have not been down to New 
Orleans but my colleagues have.
    Two of my colleagues are the medical officers for both the 
Montgomery County and Fairfax County Urban Search and Rescue 
Teams. We work closely with the American Red Cross and one of 
my colleagues is directing chapter operations in Pascagoula, 
MI. We are monitoring the operations here but also keeping in 
touch with what is going on down on the ground.
    We can explain much of what we have witnessed during the 
last 2\1/2\ weeks but we cannot accept that this is the best 
that we can do. In Louisiana and Mississippi the heroic efforts 
of many men and women were not enough to compensate for the 
breakdown of our national response system.
    In order to understand the lessons from the failed initial 
response to Hurricane Katrina and to use this knowledge to 
improve the preparedness of other metropolitan areas at risk, 
we must be able to separate systemic failures from issues of 
individual preparedness and competence. Did we choose the wrong 
strategies, structures, and policies, or was this just a 
failure to professionally and competently execute? I believe if 
we ignore the systemic issues and simply replace people or 
reassign responsibilities, we may simply fail again in the not 
too distant future with a different cast of characters.
    Prediction, planning, preparation, capacity, and capability 
are all essential if we are to avoid catastrophic consequences 
from a natural or technological disaster or a terrorist attack. 
We have done well with prediction, a scientific and 
technological task. We have also done reasonably well with the 
bureaucratic task of producing emergency plans.
    We have however, in my opinion, confused preparing the 
Government with preparing the society at large. We have 
identified the problems we will solve and the capabilities we 
will need to respond to and recover from catastrophic events, 
but we have failed to make the investments and take the actions 
necessary to build this capacity and capability.
    Appropriate scenarios have been used as the basis for 
Federal, State, and local catastrophic incident planning. As an 
example, the Catastrophic Incident Annex to the National 
Response Plan published by the Department of Homeland Security 
has clear assumptions. It assumes, for example, a catastrophic 
incident may cause significant disruption of the area's 
critical infrastructure, such as energy, transportation, 
telecommunications, and public health and medical systems.
    All of these infrastructure were lost in New Orleans. It 
assumes the response capabilities and resources of the local 
jurisdictions may be insufficient and quickly overwhelmed. 
Local emergency management personnel who normally respond to 
incidents may be among those most affected and unable to 
perform their duties. In New Orleans, the leaders, emergency 
managers, and first responders and their families were, indeed, 
victims. The police and firefighters that responded were 
themselves homeless and were not reinforced by State and 
Federal resources for days.
    The plan assumes a detailed and credible common operating 
picture may not be achievable for 24 to 48 hours, or longer. As 
a result, response activities must begin without the benefit of 
a detailed or complete situation and critical needs assessment. 
The failure to obtain the situational awareness during Katrina 
is well documented, as is the failure to act creatively and 
quickly based on incomplete information. The total breakdown of 
emergency communications was a key part of this failure.
    Federal support must be provided in a timely manner, the 
plan assumes, to save lives, prevent human suffering, and 
mitigate severe damage. This may require mobilizing and 
deploying assets before they are requested via normal National 
Response Plan protocols. FEMA did, in fact, coordinate a 
massive mobilization effort. The need to actually deploy and 
execute assets, other than the search and rescue teams, was 
apparently not recognized.
    The plan assumes that a catastrophic incident has unique 
dimensions, characteristics requiring that response plans and 
strategies be flexible enough to effectively assess emerging 
needs and requirements. The Department of Homeland Security has 
spent years developing a common national approach to incident 
management, at the direction of the President, through the 
creation of the National Response Plan, the National Incident 
Management System, and the National Preparedness Goals that 
have been mentioned by others. Did this emphasis on structure 
and process diminish our ability to react creatively and 
adaptively?
    The scale and scope of Hurricane Katrina is, in fact, 
unprecedented. However, as we have heard in the previous panel, 
other metropolitan areas are at risk to similar catastrophic 
scenarios. We have worked with a number, as I have stated in my 
written comments, a number of these localities.
    I believe that the examination of the preparation for and 
response to Hurricane Katrina is a critical national issue. An 
independent and expert review must assist us to:
    Focus our efforts on reducing the vulnerability of those in 
harm's way in our major cities at risk; improve our ability to 
warn and to communicate, to identify and meet the immediate 
needs of potential victims following a catastrophic event; 
improve the agility, the mobility, the capacity, the self-
sufficiency, and creativity of our National Emergency 
Management System; provide an integrated national approach to 
mitigation, preparedness, response, and recovery; provide 
resources and information to elected and appointed officials to 
enable them to become better managers of extreme events. It is 
not just the emergency management community, as we have seen, 
that gets involved in these events, it is all appointed and all 
elected leaders. Where do they get the skill set to do that?
    And to recognize that social and economic recovery requires 
a strategy for housing our citizens and recovering the local 
and regional economy.
    Thank you very much.
    [The prepared statement of Dr. Harrald follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.133
    
    [GRAPHIC] [TIFF OMITTED] T4205.134
    
    [GRAPHIC] [TIFF OMITTED] T4205.135
    
    Chairman Tom Davis. Thank you very much.
    Dr. Carafano.

                 STATEMENT OF JAMES J. CARAFANO

    Dr. Carafano. Well, the President was absolutely correct 
when he said that the national response to Katrina was 
inadequate. And I think Americans certainly have the right to 
ask hard questions: what happened, why it happened, who is 
responsible, what can be done better. I think it is premature 
to answer all those questions. I think this committee can play 
an incredibly important role though in providing a framework 
for conducting that assessment and in assessing how far we have 
come as a Nation in preparedness since September 11th.
    Just four points on context which I think are important to 
establish when we do this evaluation.
    The first is scope. This is unprecedented. Over a million 
people at risk, 90,000 square miles. I think we have to have a 
realistic discussion of over how quickly and how soon you could 
get resources in, and how come we were so successful at saving 
hundreds and hundreds of thousands of lives during the event.
    The second is I think there needs to be a clear distinction 
made in the character. There are two different kinds of 
disasters. There is the normal disaster, what the chiefs talked 
about, where you have this cascading of resources of local, 
State, and Federal, and normally massive Federal aid does not 
show up for days.
    Catastrophic disasters are totally different in character. 
Tens or hundreds of thousands of lives are immediately at risk, 
and, more importantly, the State and local capacity is 
virtually wiped out. So you have created this 72-hour gap that 
you have to fill that you do not have to do in a normal 
disaster.
    The other point I would make is everybody needs to 
understand that we got what we paid for. Since September 11th, 
we have been investing a lot of money. Most of it, virtually 
all of it has gone into building up for normal disasters. Very 
little of it has gone in to preparing for catastrophic 
disasters. Everybody wanted a piece of the pie, everybody 
wanted grants, everybody wanted something. So they gave money 
to New Orleans and now it is under 6 feet of water. So we have 
not been preparing for this kind of disaster.
    And the final point is the one thing we know already that 
Katrina tells us is this Nation is not prepared for a 
catastrophic disaster. The irony is that in the area where we 
are least prepared, which is medical preparedness for a 
catastrophic disaster, the system was not stressed here. So our 
greatest weakness was not even apparent in this really terrible 
exercise.
    You asked me to look at what State and local governments 
are doing now to deal with this kind of thing. There are three 
major points I would like to make that we know already. 
Federalism works. I think it is the best system. This notion of 
who is in charge was the problem, I think, is bogus. The mayor 
is in charge of the city, the Governor is in charge of the 
State, the President is in charge of the Nation. There is one 
thing we should not do--we should never change that balance of 
leadership and responsibility.
    The second is virtually every city in this country has 
built an all-hazards response system. We build one system. If 
it is a fire, you send a fire truck; if it is an explosion, you 
send a fire truck; if it is a terrorist attack, you send a fire 
truck. That is the right system and the one thing we should 
never sacrifice is our all-hazards approach.
    The third is preparedness at the community level really has 
to be a bottom-up driven exercise. The research on this is 
very, very clear and strong. If the members of the community 
are not strongly involved in doing these plans and preparing, 
the plans are just not effective. Quite frankly, most of the 
communities in the United States are top-down. Emergency 
managers say this is what we are going to do. But the best 
plans and the most successful plans are the ones that start and 
build bottom-up.
    There are things the Federal Government can do right now to 
help. I would just like to list those very quickly.
    Secretary Chertoff released a Second Stage Review. He 
talked about spinning off the FEMA office as an independent 
agency in the Department, eliminating the layer of bureaucracy, 
consolidating all the preparedness activities in under 
secretaries so the States and local governments really do have 
a one-stop-shop. I think that is exactly right and I think 
Congress should support that.
    The House has passed an excellent bill, the Faster and 
Smarter First Responders bill to make the grant system focus 
spending on national priorities rather than just frittering it 
around the country like we have been. I hope in conference with 
the Senate that the strong leadership that the House has shown 
in this area prevails and it becomes law.
    The Homeland Security Act of 2002 required DHS to set up a 
regional framework. That still has not happened. I really, 
truly believe that if we had this regional framework in place 
it would have helped in coordination with the mayors and 
Governors and it would have alleviated a lot of problems we 
experienced. That is simply unconscionable. It needs to be 
fixed.
    We need to reorganize the National Guard. Everybody 
acknowledges the National Guard is important. But the National 
Guard of the United States is not structured today to close the 
72-hour gap. It is not structured to get there in under 24 
hours and provide massive amounts of aid. And if we want the 
National Guard to respond to catastrophic disasters, we are 
simply going to have to structure it differently than it is 
now.
    Finally, I will just finish with this. The Federal 
Government should really be focusing on two things. Only the 
Federal Government can mobilize a national system to respond to 
catastrophic disasters.
    So No. 1, the Federal Government should be building the 
national response system. And where it should be giving money 
to States and focusing its resources with them, it should be on 
the things that help build that system that allows State and 
local governments to plug into that system, and those things 
are training, education, planning, information sharing, 
interoperable communications, and intelligence.
    That is where the Federal Government should be making an 
impact at the State and local level. Beyond that, the Federal 
Government should be spending Federal dollars on preparing 
Federal assets to respond to catastrophic terrorism.
    I will just finish with this very quickly. Everybody has 
talked about interoperable communication. The Coast Guard, in 
its Deep Water modernization program calls for building a 
medium cutter. The Coast Guard saved 33,000 people. It was the 
only people that could have provided an integrated air picture, 
an integrated air command and control in Katrina.
    But you know what? That medium cutter is not off the ground 
yet. We are not building it. This House voted to cut $200 
million from the Coast Guard's modernization budget. So we are 
all screaming at interoperable communications and in the one 
area where the Federal Government could step in and could help, 
they have undercut their own ability to respond and do their 
mission. Thank you, Mr. Chairman.
    [The prepared statement of Dr. Carafano follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.136
    
    [GRAPHIC] [TIFF OMITTED] T4205.137
    
    [GRAPHIC] [TIFF OMITTED] T4205.138
    
    [GRAPHIC] [TIFF OMITTED] T4205.139
    
    [GRAPHIC] [TIFF OMITTED] T4205.140
    
    [GRAPHIC] [TIFF OMITTED] T4205.141
    
    [GRAPHIC] [TIFF OMITTED] T4205.142
    
    [GRAPHIC] [TIFF OMITTED] T4205.143
    
    [GRAPHIC] [TIFF OMITTED] T4205.144
    
    [GRAPHIC] [TIFF OMITTED] T4205.145
    
    [GRAPHIC] [TIFF OMITTED] T4205.146
    
    [GRAPHIC] [TIFF OMITTED] T4205.147
    
    Chairman Tom Davis. Thank you very much. You got a lot in 
there.
    Dr. Carafano. I am a New Yorker, we talk quick.
    Chairman Tom Davis. Let me ask a fundamental organizational 
question. Dr. Carafano, you allude to it in your written 
statement, and that is the role of FEMA. As you know, this 
Congress took FEMA out of being a direct report to the 
President and put it in the Department of Homeland Security as 
part of the Homeland Security Act.
    You can argue I guess whether we did the right thing or the 
wrong thing. It seems to me that whoever is in FEMA ought to 
have that direct pipeline to the White House. That is what is 
important. If there is an emergency, people on the ground 
should not have to have go-betweens where they can get the 
call. Because there are calls on this thing nationalizing this 
that can only come from the White House. Is this an 
organizational problem? What is your reaction to that last 
question?
    Dr. Carafano. I do not think so. Quite frankly, I think if 
we had left FEMA out, then FEMA still would have failed because 
it could not draw on a national response system that could 
mobilize this kind of response. And then we would be sitting 
here saying, oh, the problem was we did not put FEMA in DHS, 
and gee, if we had just done that, it would have all been 
better.
    I do not think it is an organizational issue. I think, 
quite frankly, it is a bogus issue. The National Response Plan 
clearly has the means for FEMA to talk directly to the 
President. The notion that the Director of FEMA cannot call up 
the President in the middle of a crisis and get what he needs I 
think is silly.
    I think FEMA is way better off inside DHS. There are 
thousands of people now in DHS who are mobilized in support of 
FEMA. If it were a little tiny separate agency, as it was 
before, it would not be able to turn around immediately and 
draw on those assets. The Secretary of Homeland Security has 
one of the largest Federal agencies in this country. He has a 
lot of horsepower that he can draw on and bring in in support 
of FEMA.
    I think the Secretary fixed the problem. He had an 
unnecessary layer of bureaucracy by creating an Under Secretary 
over FEMA. He said let us strip that away, create an 
independent agency and have FEMA focus on FEMA's primary core 
competency and primary mission, which is exactly this. Every 
day the FEMA Director should get up and think about what am I 
going to do when the next Katrina strikes?
    And then what he said, and I thought this was brilliant, he 
said to take all the preparedness stuff out of FEMA, which 
really has nothing to do with responding to Katrina, which is 
really administrative stuff--it is planning, it is prep stuff, 
it is going to meetings, it is eating donuts--and said let us 
consolidate all that in one place with the critical 
infrastructure, preparedness, with the grants and have one guy 
do that in an Under Secretary so the FEMA guy can concentrate 
on FEMA.
    And the model for this, the military has exactly the right 
model for this. The combatant commander in CINCOM is fighting 
the war in CINCOM; that is his only job, he is fighting the 
war. It is not his job to conduct boot camp training, that is 
the service's job.
    So you have the support function and you have an 
operational function. You put all the support function in one 
place and say you are the support guy, you work on the 
preparedness and everything. And then when the button hits, you 
have a field general, and that is the FEMA Director.
    Chairman Tom Davis. Dr. Harrald.
    Dr. Harrald. I agree with most of that and disagree with 
little. As academics, we have to pick a little bit of that. I 
think one of the misnomers is that FEMA responded to this. The 
Federal Government responded through the National Response 
Plan. The primary Federal official, as appointed by Secretary 
Chertoff, who by the National Response Plan is the incident 
manager, he quite correctly appointed the Director of FEMA. And 
the primary Federal official is now the Chief of Staff of the 
Coast Guard. It is not a FEMA response, it is a national 
response.
    So the question, as I was saying, there are two systemic 
issues in there. One that was mentioned in the prior panel, 
which is you have created these response positions in the 
National Response Plan, what competencies do you expect to have 
to fill them.
    And I was part of the review process for the National 
Response Plan when this was being put together. I ran the State 
and local groups and a lot feedback from State and local groups 
that when bad things happen there is the black hole of 
communications. We know this happens. And what has to happen is 
the creativity, the adaptability on the response. And so I have 
this fear that we have this as the water was rising from the 
south, the bureaucracy was descending from the north.
    Chairman Tom Davis. That is a double whammy.
    Dr. Harrald. When they meet, you really want a creative 
aspect.
    Now on as far as the organization within, I do not quite 
agree on the separation of the preparedness. Because one of the 
things we are losing in what is done is the integration on 
natural disaster massive events of mitigation, vulnerability 
reduction, response and recovery and the tradeoffs that 
involves. I know there is concern within FEMA, there is concern 
of people who work the mitigation programs, who work for the 
States and cities that the preparedness becomes terrorism 
preparedness and we lose the focus on mitigation.
    Chairman Tom Davis. Let me just ask one other question. 
Nationalizing the National Guard, what is the protocol on that? 
Do you need the permission of the Governor in a case? Can a 
President come in? What is generally the protocol on that? 
Because one of the problems in New Orleans that I think the 
world was shocked at is looking there and just seeing anarchy 
there in an American city.
    Dr. Carafano. The National Guard can operate in one of 
three modes. It can operate under State control, then it can do 
anything the Governor wants within the laws and the 
constitution of the State.
    Chairman Tom Davis. That is normal.
    Dr. Carafano. Then it can operate under a Title 32 status, 
which means that the Federal Government writes a check but they 
are still under the control of the State and they are not 
subject to posse comitatus. Or they can operate under Title 10 
status in which they are Federal troops and they respond to the 
President.
    One of the things I would hate to see lost is that system, 
because what that system gives you is enormous flexibility in 
how you can have the National Guard respond to many, many 
different situations. That is one of the great virtues and 
strengths. And I know John would agree with me on this, if you 
have seen one disaster, you have seen one disaster. No two 
disasters are ever going to be exactly alike. And if we plan to 
do the next Katrina perfectly, we will fail.
    You want to have that flexibility of Federal or State 
control always to have the options. The genius is in the 
leadership, to pick the right mix. It is like the guy in 
Mission Impossible at the beginning of the show when he would 
go through the cards and pick out exactly the right people for 
the mission. The genius is to pick the right command and 
control structure to fit the crisis, not to try to codify in 
law a very rigid decisionmaking thing that you have to do this 
or have to do that.
    Chairman Tom Davis. But looking back at New Orleans and 
seeing the anarchy, how did that happen? What should have 
happened?
    Dr. Carafano. Again, I think the failure there is the 72-
hour gap. Nobody expects people to roll in in under 72 hours, 
particularly where you have wiped out the infrastructure and 
everything else.
    Chairman Tom Davis. The place is flooded, 80 percent under 
water.
    Dr. Carafano. Right. I think the issue really here is the 
structure of the National Guard, that it is not structured to 
do these missions. I have always recommended that we ought to 
build a National Guard structure that could respond to the 
catastrophic disasters which only the Federal Government can 
do, and that one-fifth of that force would always be on active 
duty and working for NorthCom 24/7/365 and on strip alert like 
the 82nd Airborne. Because that is the only way you are going 
to amass that amount of resources and get it into a disaster in 
under 24 hours.
    Chairman Tom Davis. And I just would say I think one of the 
most shocking things, and there were a lot of them that came 
out of this, was just seeing the helicopters coming in, help 
coming in and having citizens fire on these people. We went 
back and resorted to the state of nature almost.
    Dr. Harrald. I think the sequence of events of, one, not 
evacuating New Orleans and having 150,000 or more people there, 
then what is the impact of that on the decisions of people 
outside. And I think we were continuing on with our plan 
without the new information.
    That afternoon before the levees broke and after the storm 
had gone through, we were working closely with the Red Cross 
and I was in the Red Cross Disaster Operations Center when the 
report was received that the levees had not failed yet, etc., 
and Joe Becker, who is the vice president for Disaster 
Services, who has been to many disasters and has been a local 
chapter manager, leaned forward, and the picture of the 
hurricane was still on the screen up there, and he said to 
everybody, just kind of kicking back a little bit, and said, 
``Look, because we have not heard anything does not mean good 
things, it means bad things, No. 1. No. 2, look at the size of 
that storm, calculate the number of people underneath that 
footprint, and be prepared to deal with the worst thing we have 
ever dealt with.'' And at that point in time, for his position, 
I think that is what you want to see. I do not think that 
happened in the State. I do not think that same thought process 
happened within the deployed FEMA region. Most people were 
kicking back and waiting for the information to come to them.
    Chairman Tom Davis. Interesting. Good point.
    Yes, Dr. Carafano.
    Dr. Carafano. If I could just go back to the National 
Guard. The other key point there I think is that when you get 
to the catastrophic, no State is ever going to have within its 
own National Guard the resources it needs to respond. They all 
have different kinds of units. For example, the major unit in 
Louisiana was an armor brigade. If it had been home, it would 
not have been much help because it had all the wrong kinds of 
equipment.
    And that the other problem is that they are in the State, 
they are in the target area, so they might well be either 
victims, their equipment could be destroyed, or the 
infrastructure could limit their ability to respond. So when 
you have a national response, you are going to need the 
``National'' Guard to respond, not the individual State Guards.
    Chairman Tom Davis. And they were not prepared to do that. 
Nobody was prepared.
    Dr. Carafano. We are prepared to do that. We always do 
that. If you look at these disasters, the Guard always draws on 
units from around the country and sometimes they draw on 
Federal forces. But the point is we always do it in this kind 
of very methodical, slow, deliberate way. We do not drop in the 
82nd Airborne in the first 18 hours.
    Chairman Tom Davis. Thank you. Mrs. Maloney.
    Mrs. Maloney. Thank you. Mr. Chairman, I would like to 
followup on your line of questioning because seeing such havoc 
and catastrophe, by some reports it took the Guard 3 days, 
other reports 4 days to appear. In September 11th, both the 
Governor and the President called up the National Guard. They 
were, by some reports, the first people to get to September 
11th following police and fire and they stayed there literally 
for months.
    So my question to Dr. Harrald, and I think it is a question 
we on this committee need to look at, is when was the National 
Guard called up? Why did it take them so long to respond to 
this tragedy? Dr. Harrald, there were a lot of reports on 
television that it was a Category 4 hurricane. For days they 
were saying to evacuate, evacuate, everyone must leave.
    Are you aware of any realistic plan that was put in place 
to help those residents evacuate who did not have their own 
car? You saw hundreds, thousands of people who were not able to 
leave. Their response was, ``There was no way for us to leave. 
We did not have a car. We did not have a bus. We had no 
transportation.''
    It appears to me, with a Category 4 hurricane coming, you 
would be thinking about how to send in some type of force to 
help the poor, to help the sick, the frail, the residents who 
were in hospitals, of babies who died in incubators. You were 
telling the world this is a Category 4, yet it appears from 
watching this that no plans were put in place to help the 
frail, the elderly, the babies, the sick, the poor leave the 
catastrophic area. Were you aware of any effort in that area?
    Dr. Harrald. Well, yes. By coincidence, we are working as a 
partner with the Hazard Center at the University of New 
Orleans. Professor Laska, who you can go on the Web and get. 
She has worked the simulations and the predictions of this 
event. Her home and her university are now flooded out. So that 
is one of the ironies of working on this.
    One of the things that she was working on and seeking money 
to do, in fact we were partnering to work with this, and I was 
just talking to Barbara Childs-Pair, the director of emergency 
management for the District, my comment that I made earlier 
that preparing the government is not preparing the community 
and the ability to communicate with the community--people did 
not leave because they did not hear, they did not believe, they 
could not, they did not trust.
    But they are there and we knew they were going to be there. 
Professor Laska was working with the city government of New 
Orleans to develop the plans, different than preparation, there 
were plans, there were concepts, there were ideas, but 
nothing----
    Mrs. Maloney. There were plans, but were there buses sent 
in to take the sick out of the hospital, to take the poor out 
of the nursing homes, to take the frail and elderly that were 
stuck there?
    Moving to another point, and it appears there were plans 
but no one implemented those plans, is what I am reading.
    Dr. Harrald. Preparation is not planning, that is right.
    Mrs. Maloney. Since I would say 2002, there have been 
reports of FEMA employees with considerable expertise and 
experience being replaced with politically connected novices 
and contractors. We read in the paper today that Michael Brown, 
even though he was invited to testify before us, according to 
one paper is at a spa, and Joe Albaugh, his predecessor, was 
the chief of the campaign for election of President Bush.
    Do you agree with these reports that FEMA has been losing 
its talent and experience to political appointees? And do you 
believe there should be a requirement that the Director of FEMA 
have some experience in managing disasters, have experience in 
management and types of plans and being prepared?
    And I want to give this question that has really galled me. 
All these reports are coming out that everybody is so 
surprised, ``Oh, I am shocked, absolutely shocked that the 
levees broke in New Orleans and that there was a flood.'' Yet 
there were many, many reports of a Category 4 hurricane. I just 
want to know, should people, Federal officials, or political, 
or professionals, or whatever, been surprised that the levees 
breached as a result of a Category 4 hurricane hitting New 
Orleans?
    Dr. Harrald. Given the situation of the water in Lake 
Pontchartrain and the rain, no, I think this was certainly a 
scenario. And the Army Corps of Engineers was very well aware, 
so again, it is the Federal family, so that if the Corps knew 
then FEMA knew.
    But to your earlier set of questions, I will try to leap in 
and answer the pieces of it that I can. As I said earlier, 
these are important jobs, both the political appointed jobs and 
the career civil service jobs. These are the people that we are 
trusting to lead our Nation's response to catastrophic events. 
They are no less important than military jobs.
    My background, it may be in my resume, I am a retired Coast 
Guard Captain and I spent 26 years in the Coast Guard. To see 
that we expect leaders in some positions to have extensive 
experience and leaders in similarly complex positions not 
mystifies me.
    FEMA has had, as all agencies do, but FEMA particularly, 
and some of this is just timing, retirements and people 
leaving. It has been pointed out that Bruce Baughman, who was 
the Director of Operations for FEMA for many years, left FEMA 
and became the chief emergency manager for Alabama where he has 
been very successful. Charlie Hess, who replaced him, left to 
work in Iraq.
    And so a number of very key people have left over the last 
couple of years and there has been an experience drain. Whose 
responsibility is it to monitor that? Whose responsibility is 
it to ensure that we have the leadership capacity to deal with 
these events I think is a legitimate question.
    Mrs. Maloney. FEMA used to be a cabinet level position. Yet 
under the reorganization with Homeland Security, it has now 
become a sub-department. It used to be independent, it is no 
longer independent. So, Dr. Harrald, do you believe that FEMA 
has lost some of its focus on natural disaster preparedness and 
response after it was absorbed into the Department of Homeland 
Security?
    Dr. Harrald. I think as a Nation we have lost the focus on 
natural disaster preparedness, mitigation, and response. We 
respond as a people to the last problem, and, as you are very 
well aware, the last problem was September 11th and the 
Congress and the administrative part of the Federal Government 
has put that as a priority.
    I think there is a tradeoff. FEMA as an independent agency 
is a very small agency. That access depends on the 
administration. It has gone through a history of being very 
effective, very ineffective in cycles. I think, as Dr. Carafano 
says, there is at least the potential of strengthening and 
networking within the Department of Homeland Security. But the 
thing that is missing is really the ability to focus these 
efforts in a catastrophic situation.
    Mrs. Maloney. My time is up. But from your testimony it 
seems clear that the flooding threat to New Orleans was well 
known, predicted that the levees would break with a Category 4.
    Dr. Harrald. Dr. Laska and I participated in a briefing 
with Senate and House aides last June. We did a briefing on the 
simulations up here on the Hill.
    Chairman Tom Davis. Thank you very much. Mr. Shays.
    Mr. Shays. Thank you. Both of you are outstanding 
witnesses. Dr. Carafano, nice to see you for the second time 
this week. I mean no offense by this, but there is a saying 
that someone said to me one time, they said, ``You may not be 
right, but you are never in doubt.'' [Laughter.]
    You are the most confident person when you say all that you 
say, and I find I agree with 90 percent of it. But I am 
surprised that my colleague from New York, who I work so 
closely with, talks about failures but it is always the Federal 
Government. It is not true that about 90 percent of the first 
responders are State and local? Are they not the ones who have 
the first response, and are they not about 90 percent of the 
response? And then does not the Federal Government step in to 
provide financial assistance?
    Dr. Carafano. Well, that is true. FEMA basically writes 
checks and lets contracts. They do not show up with a lot of 
material support.
    Mr. Shays. Do they command an army?
    Dr. Carafano. No.
    Mr. Shays. Do they control the National Guard?
    Dr. Carafano. No. I think the best way to answer this 
question is I think the one greatest mistake that we could make 
is to compare September 11th to Katrina. In September 11th, at 
least Rudy Giuliani had a pile to stand on.
    Mr. Shays. And I would like to point out that Joe Albaugh 
was the head of FEMA at the time, who happened to be the former 
Chief of Staff of the President, and he did a heck of a good 
job. So with all due respect, he was there, give him some 
credit.
    Dr. Carafano. In September 11th, you had intact 
infrastructure, you had a very small geographic area, you had a 
mayor who could easily command and control the city, he could 
turn to major cities around and draw all kinds of assets. So, 
in a sense, it was the perfect storm for the kind of a disaster 
like that.
    Katrina is totally different. State and local capacity is 
almost wiped out. So now you are looking at a different set of 
core competencies for State and local leaders. In a normal 
catastrophe, the core competency in State and local leaders is 
to use the resources at hand effectively, organize them, do a 
methodical assessment, and then turn to the Federal Government 
and say this is what I need.
    In a catastrophic disaster, State and local leaders have to 
go in and establish ad hoc command and control, do some kind of 
rapid assessment, and then somehow try to work with the Federal 
people to get in resources in a very, very quick way. And again 
I will go back to my basic point, our National Response System 
is not designed to get massive amounts of national aid in, 
whether Federal or from other States, in that very few hours.
    Mr. Shays. Thank you. Dr. Harrald.
    Dr. Harrald. In a sense, the primary Federal official, 
which in this case was the Director of FEMA, does command an 
army under the National Response Plan. The defense assets, he 
or she can task DOD for military assets as determined at the 
scene.
    Mr. Shays. Let me be clear on that because that is 
important to know. Does he command them, or does he say----
    Dr. Harrald. He tasks them. They will be under the command 
of their commander.
    Mr. Shays. And tasks, meaning what? We need you?
    Dr. Harrald. We need you, we need these assets, we need 
boats, we need helicopters, we need whatever. So the 
determination of need. One of the things we have done----
    Mr. Shays. So he determines need.
    Dr. Harrald. He determines need. And the National Response 
Plan, the successor to the Federal Response Plan, allows him or 
her to task the appropriate agency, appropriate emergency 
support function to get those assets.
    I somewhat disagree with Dr. Carafano, because the whole 
effort over the last 2 years has been to take the Federal 
Response Plan, which was admittedly slow with the 72-hours 
aspect, and particularly as we get into the catastrophic 
incident planning, to close that window. And I think one of the 
messages of Katrina is we have not done it.
    Mr. Shays. Who has the capacity to close that window, that 
is what I need to know?
    Dr. Harrald. Well, I think that is a Federal Government 
responsibility and a State responsibility.
    Mr. Shays. Within the Federal Government, would that have 
been head of DHS?
    Dr. Harrald. Yes. Yes.
    Mr. Shays. Do you want to respond?
    Dr. Carafano. I think the answer to the question is the 
National Guard. Again, I think one of the biggest mistakes we 
could take away from this is that to catastrophic response we 
need to stockpile lots of stuff all over the country. Because 
what will happen is the stuff that is stockpiled, you know, 
build it up in the State and local governments, all that will 
happen is that no matter how much you buildup, if it is a 
catastrophic disaster, it might get all destroyed and you still 
have to move stuff in. And it is enormously inefficient to have 
State and local governments and the private sector stockpile 
masses of big things for catastrophic disaster.
    Mr. Shays. I am going to ask you--in my mind, the chairman 
can do a crossword puzzle while he is talking with you, I have 
to think a little longer. You spoke too quickly when you 
started running down all the different categories of National 
Guard. I want to know, in my simple mind, the National Guard is 
a militia under the Governor. The Governor instantly can call 
in the National Guard, does not need permission from anybody, 
just does it. I have been led to believe that it is possible 
the President could nationalize the National Guard within a 
State, but I am not quite sure how that happens. So walk me 
through slowly, and I may interrupt you.
    Dr. Carafano. It has happened before. President Eisenhower, 
for example, when the Governor was ordering the troops to keep 
Black children out of the school, the President nationalized 
the National Guard and said you now work for me, take the 
children to school.
    Mr. Shays. Let me ask this question directly. It would be 
false to say that the President needed permission from the 
Governor in order to empower and command the National Guard to 
take action?
    Dr. Carafano. No. I actually think the law is very flexible 
on this point. The President does have authority where he can 
go in and where he wishes he can usurp the sovereignty of the 
Governor and send forces in.
    Mr. Shays. If any time demanded it, in my judgment, that 
was the time.
    Dr. Carafano. Well, that is the tough question. It is----
    Mr. Shays. It would not have been tough for me. Because you 
basically had a Governor saying help, help, help, and a mayor 
saying help, help, help. In fact, they were doing more than 
that. They were going after the Federal Government for not 
being there. So if I were President, in my own mind I would 
say, fine, let us do it.
    Dr. Carafano. There are two problems with that. One is that 
to know that the Governor and mayor have failed may not be 
immediately apparent and may take days. And if you want to 
argue the mayor and Governor failed in this case, go back and 
look at the chronology and when were we sure that the mayor and 
Governor had failed. And the answer is probably, if you believe 
that, it is probably going to be in the 72-hour range. Well, 
quite frankly, by that time the Federal stuff is getting there 
anyway.
    Mr. Shays. OK. Walk me through it. The National Guard, the 
Governor can do it right away, the President, on the other end 
of the extreme, can nationalize it. So the Governor can empower 
it as the Governor, the President can nationalize the National 
Guard. What is in between? You gave about four categories of 
how you do it. Are those the only two ways?
    Dr. Carafano. There are three ways. The Governor can do it 
under his own authority but he has to pay for it. He can 
basically have an agreement with the President to do it, they 
are still under his authority but the Federal Government pays 
for it, which is Title 32. Or the President can do it under his 
authority.
    Again, I think when the analysis is done we are going to 
find who the National Guard was working for to me is not going 
to be the crux of the problem. To me, the crux of the problem 
is going to be the time-space distance and how quickly we can 
mobilize and deploy forces there and get it done. We may find 
that we may have lost an hour or a day in making the decision 
to ask for the forces. But I still think that we would never 
have been able to close the 72-hour gap with the National Guard 
as we have them structured today because they cannot close the 
time-space distance.
    Mr. Shays. I will just say, and I am going to conclude, it 
would strike me that as soon as we saw a disaster, as soon as 
we saw the incredible flooding, the National Guard in region 
probably was in a pretty desperate circumstance, and I would 
have thought that we would have been mobilizing the National 
Guard from around the country and sending them down. Now I 
think we had testimony from the military that they did that 
among the standing army; they just did it.
    Could I indulge you, Mr. Chairman, one last point?
    Chairman Tom Davis. Sure.
    Mr. Shays. Does the President have the capability to send 
standing army down there under his command?
    Dr. Carafano. Sure he does. And also it is in the law that 
local commanders can respond without any authority whatsoever. 
I was at Fort Sill, OK during the Murrah Office bombing and 
General Dubia was the Commander at Fort Sill, OK, he had troops 
on the road within 30 minutes.
    Mr. Shays. Standing army, not National Guard?
    Dr. Carafano. Yes, active duty. And the way the law reads 
is if it is imminent threat of loss of life or people are in 
danger, the military can just put people on the road and 
execute and then worry about the thing later.
    Mr. Shays. Did you want to make a comment?
    Dr. Harrald. I think one of the aspects of the National 
Guard is recognizing that in each State the relationship 
between the National Guard and emergency management is slightly 
different. The resources that the National Guard have in a 
State are different and in many cases they are kind of core 
function. For example, the National Guard is the logistics of 
the emergency manager in North Carolina. And so stepping in and 
taking that away could, if a State was near to failure, you 
could really push it over the edge by taking control over the 
National Guard away.
    Dr. Carafano. Could I just make one quick comment? A 
resource that we never talk about, the Constitution authorizes 
every State to have guards and militias that are not the 
National Guard. New York, for example, has a naval militia 
which actually did terrific work on September 11th and was a 
real lifesaver. Some States have them, some States do not. Some 
of them are OK, some of them are coffee clubs. There is no 
national standard. And it is another layer of volunteer group 
and a backup to the National Guard that might be useful. The 
National Guard in the past has not liked them because they do 
not want to compete for resources.
    Mr. Shays. Thank you. Let me just say I find this 
fascinating and there is lots to be looked at. Both of you were 
excellent witnesses. Thank you. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Mr. Gutknecht, 
followed by Mr. Marchant.
    Mr. Gutknecht. Thank you, Mr. Chairman. I will try to be 
brief. I just concur with my colleague from Connecticut, your 
testimony has been excellent. Dr. Carafano, I really want to 
reiterate that it bothers me sometimes when people compare what 
happened in September 11th in New York City, where you are 
essentially talking about an eight square block area, 
relatively easy to confine, there was no breakdown in 
communications or command and control, and at the Pentagon the 
same circumstance, you are talking about a relatively small 
area, as bad as those national catastrophes were. To compare 
that to an area that literally has devastated the size of the 
State of Wyoming, it just amazes me sometimes that even the 
national media gives that credibility. They are two entirely 
different kinds of things.
    I do want to reiterate also, and I do not necessarily have 
a question so much, that one of my observations is that once 
the National Guard and the regular forces were on the ground 
with adequate command and control, with the supplies that were 
needed, it seems to me things started to get better a lot 
faster.
    And the one thing that I hope will ultimately come out of 
this--and I think, Dr. Carafano, you just made the point that 
there are differences between the State militias and guards or 
whatever terms that they use--but it may well be an obligation 
of us at the congressional level and the Federal Government 
ultimately to put in place as part of the Guard some kind of 
emergency response packages, if you will, pre-positioned around 
the country that we can get into some of these places.
    Because this will happen again. It may be Louisiana next 
time, and it might be Florida next time, it could be North 
Carolina, we do not know. But these kinds of things are going 
to happen and we have to make certain that we can respond and 
get the stuff on the ground, not in 72 hours necessarily, 
although in some of these cases we are talking longer than 
that.
    So I do not have a question. You may want to respond to 
that. But again, I think your testimony has been excellent, and 
we thank you for coming.
    Dr. Carafano. I just have two very quick comments. One is, 
one of the reasons why we have not better prepared the National 
Guard to respond to catastrophic terrorism is that is what a 
lot of mayors and Governors did not want and a lot of fire 
chiefs and police chiefs did not want. They all stood up and 
said, no, no, we are the first responders, we need the money, 
give it to us, if this happens we are going to be the guys, we 
are going to take care of this.
    When you look at the scenarios, you never write a scenario 
in which you fail and have to call in the National Guard. And I 
kept telling people, I said, look, what is going to happen is 
that we are going to get to a scenario like this and we are 
going to collapse and they are going to turn around and scream 
where is the cavalry at, and they are going to scream that you 
are not there. That is part of the reason why we have not moved 
this forward, because people have not demanded that we 
structure the National Guard to do that.
    The other thing I remind people of is if you remember 
during the Gulf war when we made the pause in the road to 
Baghdad and everybody was screaming how come people are not 
getting MREs and gas and everything. It is because it was a war 
zone, and there was a time-distance problem, and it was 
destroyed infrastructure, and there was a lot of confusion. You 
just cannot magicly make things appear in there like you beam 
it down on Star Trek. That is the exact same problem you had 
here.
    Again, one of the terrible things I hear is, geez, if we 
had just turned it over to the military everything would have 
been solved. Because they see, like now, the military finally 
gets there and they set things up. And I absolutely agree that 
in a catastrophic disaster the military in that first 72 hours 
is the best resource to throw at the problem.
    But if we want to throw the military at the problem in the 
first 72 hours, we are going to have to structure a National 
Guard that can do that. And it is not a trivial problem. The 
National Guard we have today cannot do that, just like the Army 
cannot drive from Kuwait to Baghdad through a war zone in 20 
minutes. The National Guard cannot move halfway across the 
country and deliver cases of Avian in 26 hours.
    Mr. Gutknecht. Let me just pursue that because I think that 
really is ultimately the task of the Congress to sort this out, 
who is responsible for what, and who can do certain functions 
the best. And what we do not need is several layers all trying 
to say that they can do it and then ultimately finding out that 
when you have everybody saying that you can do it, nobody is 
getting it done. That is the problem.
    And I think this is an issue that we have to spend some 
time thinking about, bringing in some outside experts, and 
really beginning to define in these kinds of circumstances who 
is going to be responsible for what and knowing that in advance 
so that everybody is on the same page.
    Dr. Carafano. I just think it is inefficient for anybody 
other than the military to buildup a response to catastrophic 
event because for everybody else it is inefficient for them to 
hang on to those massive amounts of resources that may sit 
around forever and do nothing. But the thing about the 
military, whether it is medical, or security, they can use 
those for other things. If there is no catastrophic disaster, 
there are lots of things we can always use our military to do 
with those kinds of resources.
    Dr. Harrald. If I can add. One of the things that will come 
out of Katrina is just the matter of scale with it. We were 
sitting at the Red Cross yesterday looking the number of 
shelter days and meals fed compared to everything else that 
they have done.
    The Coast Guard Air Station, New Orleans, rescued more 
people last week than they had done in the entire history of 
the Air Station, which has been about 60 years. The scale of 
this is truly beyond the charts. And we have done the planning 
assumptions and the issue, but nobody has stepped up and said 
what resources really do we require if we have a million people 
we have to feed tomorrow. And I would suggest, yes, the 
military have the mobility and agility.
    The other alternative is to bring some of that back in to 
the emergency management forces and to the non-government 
agencies. Because the military does not bring in a focus on the 
customer, a focus on the victim, that is not their job. They 
can move resources, they can move people, they can bring 
things, but that is not the end game.
    Mr. Gutknecht. Thank you.
    Chairman Tom Davis. Thank you. Mr. Marchant.
    Mr. Marchant. Yes. My question is, have you both examined 
the major disaster and evacuation plans of the top 10 cities in 
the Nation?
    Dr. Harrald. No. The only evacuation plan I have examined 
in general specifically is Washington. We have done some work 
in San Francisco. Basically, the issue was not evacuation in 
that because you are not going to go anywhere in a major 
earthquake. And I have looked at historical evacuations, yes. I 
have a student doing that very issue right now.
    Dr. Carafano. I have not looked at any specific plans. I 
have talked to emergency managers in some major cities like 
Washington, Kansas City, and San Francisco. I have also looked 
at the historical data, on which there is an enormous amount. 
This is actually a global competency. Lots of governments 
evacuate masses of cities, a lot of them do it a lot more 
frequently than we do. So there is actually a lot of data on 
this issue.
    Mr. Marchant. Is a key part of any of the plan a gathering 
place, such as the Astrodome, that every city has that is at 
least a primary or a secondary gathering point?
    Dr. Carafano. Correct me if I am wrong, John, but I think 
if you have seen one mass evacuation plan, you have seen one 
mass evacuation plan. They are all different.
    Dr. Harrald. Washington, for example, is doing what people 
in New Orleans were trying to do as the next step, is more 
local gathering places where people knew churches, community 
halls, places where people would go locally and resources would 
come to them. That seems to be the planning. I think that is 
the way to go.
    Dr. Carafano. Could I just make a point. There are three 
problems I just wanted to highlight in any mass evacuation 
plan. One is the send in/send out problem. One of the things 
New Orleans did to aid mass evacuation, it is a lesson learned 
from its first exercise, is it counterflowed all its roads so 
that everybody was headed out. So the problem of why did you 
not just send in trucks to go get the other people, well the 
problem is you were so focused on the outflow of the traffic, 
trying to inflow additional resources to evacuate people is 
more of a problem.
    The second one, and this is almost unique to hurricanes, 
any time you move masses of people you put them at risk. This 
is the reason why in war most of the people who die in war are 
civilians and most of them die when they are displaced from 
their homes and they die of dehydration, disease, and other 
things. So the last thing you ever want to do if you do not 
have to is take people out of their environment and make them a 
refugee. Because you are always more at risk when you are a 
refugee.
    So it is always a very, very difficult decision whether to 
move people or not. The problem with storms always is if they 
change the path in the last minute, you might actually be 
creating victims by unintentionally moving them into the storm 
path. So it is always sort of a Hobson's choice.
    And then the other point, that was pointed out in the first 
panel, is there is the cry wolf syndrome. People react to risk 
communications that they believe are understandable, credible, 
and actionable. So if they understand this is a message meant 
for me, if it is credible and they really believe it is 
something they should do, and if it is actionable and there is 
something they can do to make themselves better, the data tells 
us they will do that.
    The problem with an evacuation order is the understandable 
part is no big deal, the actionable part for some people is a 
big deal, but the credibility thing, and mayors are always 
worried about well if I evacuate and nothing happens, are they 
going to believe me next time.
    Mr. Marchant. The question I have is if the evacuation is 
ordered and they are given a place to go, and it is known ahead 
of time that is the place they are going to be told to go, why 
there is not some planning for water, some MREs, and just some 
rudimentary survival tools that are in place year round for 
that to take place? And since September 11th, there have been 
hundreds of millions if not billions of dollars given out 
across the country to cities to first responders, and I think 
justifiably so.
    Mr. Chairman, I think maybe if we had some information 
about the major cities in the United States that have received 
first responder aid and----
    Chairman Tom Davis. I think that is something we need to 
compile. Unfortunately, I think you will find some minor cities 
as well that have gotten the aid.
    Mr. Marchant. Yes. And what they did with the money, did it 
go all toward terrorism, was it toward this kind of disaster? 
Thank you.
    Chairman Tom Davis. Thank you very much. Mrs. Maloney, do 
you want to do a followup question before we go to markup?
    Mrs. Maloney. Just as a balance here. The gentlemen 
mentioned the National Response Plan, and you are both familiar 
with it, and a key part of that plan is when you make a 
decision that it is an incident of national significance which 
then triggers the Federal coordination. But it appears that 
this designation was not made until 36 hours after Hurricane 
Katrina struck. This is according to a memo issued by Secretary 
Chertoff, and I would like to put this in the record.
    Chairman Tom Davis. Without objection, it will be in the 
record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.148
    
    [GRAPHIC] [TIFF OMITTED] T4205.149
    
    Mrs. Maloney. Thank you. I would like to ask Dr. Harrald, 
based on your experience, what do you think about this 36-hour 
delay?
    Dr. Harrald. Well, unfortunately, history does repeat 
itself a little bit. I was on Hurricane Andrew, which happened 
a week after the Federal Response Plan came out and that was 
still in shrink wrap at the time, and an awful lot of State and 
local and even national officials really did not understand how 
that worked. The National Contingency Plan arguably failed at 
the Exxon-Valdez and was rewritten and revised after.
    One of the things we have to look at is systemically did 
this plan fail. Was it too centralized? Was it too 
bureaucratic? As I said, I worked with the State and local. You 
are looking at the top, but look----
    Mrs. Maloney. But my question was about the delay, the 36 
hour delay.
    Dr. Harrald. I think people did not understand clearly the 
significance that designation had on authorities and actions. 
It was either a miscommunication or a misunderstanding.
    Mrs. Maloney. Should the designation have been on August 
27th when the National Hurricane Center predicted the hurricane 
and that it would strike----
    Dr. Harrald. When the declaration of emergency was made, it 
would have made sense to make that, yes.
    Mrs. Maloney. Now in this memo from Secretary Chertoff, he 
designates Michael Brown, the head of FEMA, as the principal 
Federal official in charge of the Federal response under the 
National Response Plan. And if Mr. Brown was not designated as 
the principal person in charge until after August 30th, who was 
in charge of the Federal response under the National Response 
Plan for the 3-days before that?
    Dr. Harrald. The Secretary.
    Mrs. Maloney. So it would have been Secretary Chertoff. 
Today's paper has an article in it where they are quoting Mr. 
Brown. In it, he describes his frantic calls to the White House 
asking for help, saying the locals have been overwhelmed, that 
we need more support, we need more help. I would like to place 
that into the record, too.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4205.150
    
    [GRAPHIC] [TIFF OMITTED] T4205.151
    
    [GRAPHIC] [TIFF OMITTED] T4205.152
    
    [GRAPHIC] [TIFF OMITTED] T4205.153
    
    Mrs. Maloney. I guess some of the questions that you really 
do not have the answer to is: Why it took them so long to call 
up the National Guard? Why they were not aware, even though all 
the scientists were predicting, the levees would break, that 
there would be water, how that did not come into account? And 
why they did not evacuate the poor, the sick, the children, the 
elderly that could not get out?
    Dr. Harrald. These are the questions I think we will have 
to look at. The only thing I can add to that is that the closer 
you get to the center of a major incident, the less you know. 
You know what you can see at some point. And the situational 
awareness, the ability to make the leap that Joe Becker of the 
Red Cross did, that this is really big, and I do not know what 
is going on but it is bigger than anything I know and I have to 
get everything moving, that sort of thought process did not 
happen at a number of levels of government.
    Mrs. Maloney. Even though CNN, CBS, ABC, NBC, all the cable 
shows were saying level 4 catastrophic emergency, evacuate, 
take care of people. Yet the Federal Government, the local 
government, the State government was not there.
    Chairman Tom Davis. Mrs. Maloney, thank you very much.
    Thank you. It has been a long day for you. This has been 
very, very helpful. Your testimony is excellent. We appreciate 
your efforts.
    The record remains open for 7 days for Members to put their 
testimony in the record.
    We will now adjourn this hearing.
    [Whereupon, at 3:13 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Candice S. Miller and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC] [TIFF OMITTED] T4205.154

[GRAPHIC] [TIFF OMITTED] T4205.155

[GRAPHIC] [TIFF OMITTED] T4205.156

[GRAPHIC] [TIFF OMITTED] T4205.157

[GRAPHIC] [TIFF OMITTED] T4205.158

[GRAPHIC] [TIFF OMITTED] T4205.159

[GRAPHIC] [TIFF OMITTED] T4205.160

[GRAPHIC] [TIFF OMITTED] T4205.161

[GRAPHIC] [TIFF OMITTED] T4205.162

[GRAPHIC] [TIFF OMITTED] T4205.163

[GRAPHIC] [TIFF OMITTED] T4205.166

[GRAPHIC] [TIFF OMITTED] T4205.167

                                 <all>

</pre></body></html>
